   I nvestigative
 Policy &
 O versight
    Follow-on Evaluation of the Defense Protective Service

Report Number IPO2004E001                        February 18, 2004




              Office of the Inspector General
              of the Department of Defense
  Additional Information and Copies

  The Office of the Deputy Assistant Inspector General for
  Investigative Policy and Oversight, Office of the Assistant
  Inspector General for Inspections and Policy, DoD, prepared this
  report. If you have questions on the evaluation or to obtain
  additional copies of the report, contact Mr. Scott Russell, at
  (703) 604-8718 (DSN 664-8718).

  Suggestions for Evaluations

  To suggest ideas for or to request evaluations, contact the Audit
  Followup and Technical Support Directorate at (703) 604-8940 (DSN
  664-8940) or fax (703) 604-8932. Ideas and requests
  can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704



Acronyms
ACPD           Arlington County Police Department
AT/FP          Antiterrorism Force Protection
CALEA          Commission on Accreditation for Law Enforcement Agencies, Inc.
CI/IAD         Criminal Investigations and Internal Affairs Directorate
DCIOs          Defense Criminal Investigative Organizations
DCIS           Defense Criminal Investigative Service
DPS            Defense Protective Service
DEA            Drug Enforcement Administration
DPAS           Defense Property Accountability System
ERT            Emergency Response Team
GSA            General Services Administration
IA             Internal Affairs
ICE            Interactive Customer Evaluation
MOA            Memorandum of Agreement
MOU            Memorandum of Understanding
NCIC           National Crime Information Center
NCIS           Naval Criminal Investigative Service
NCR            National Capital Region
OGC            Office of General Counsel
OIG            Office of the Inspector General
OPM            Office of Personnel Management
PFPA           Pentagon Force Protection Agency
PM             Property Management Branch
PSU            Protective Services Unit
RE&F           Real Estate & Facilities
SOP            Standard Operating Procedure
USACIDC        United States Army Criminal Investigation Command
USC            United States Code
WHS            Washington Headquarters Services
                            INSPECTOR GENERAL                            FED
                            DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704

MEMORANDUM FOR UNDER SECRETARYOF DEFENSEFOR INTELLIGENCE
               DIRECTO~ ADMINISTRATION AND MANAGEMENT
               GENERAL COUNSEL, DEPARTMENT OF DEFENSE

SUBJECT: Follow-on Evaluationof the DefenseProtectiveService(Report
         No. IPO2004EOOl)

       This report is provided for your review and comment. Commentsthat we
receivedon the draft report are addressedin this final report and are included as
Appendix F.

        The Under Secretaryof Defensefor Intelligence,andthe GeneralCounsel,
Departmentof Defense,concurredwith the draft report. The Director, Administration
andManagement,concurredin part andnonconcurredin part. Most significantly, the
Director disagreedthat his operationalpracticeallowing police officers to carry their
serviceweaponsto and from work and storethem in their homeswas contraryto DoD
policy and statutoryrequirements.The Director also disagreedwith our assessment     that
the memorandumof understandingexecutedwith the County Board of Arlington County,
Virginia, might not be legally sufficient. Furthermore,althoughnot specifically
nonconcurring,the Director did not commit to amendingthe currentpolicy that strongly
encourageshis officers to intercedein certaincivilian matters. For the reasonsset forth
in detail in this final report,we cannotacceptthe basesfor the Director's
nonconcurrencesand unwillingnessto commit to the further policy revisionsneeded.
The Director shouldreconsiderthesepOsitionsbasedon the facts and considerationsin
this final report, and submit [mal managementcommentson the final report. We should
receivethesecommentsno later than April 30, 2004.

        Commentson the final report shouldconfonn to the requirementsin DoD
Directive 7650.3. The audit resolutionproceduresin DoD Directive 7650.3will
generallygovernany nonconcurrencethat continues. In accordancewith these
                                                                  -~

procedures,any disputedfinding or recommendationthat cannotrbetesolvedat lower
levels will be referredto the Deputy Secretaryof Defensefor policy decision.

       We appreciatethe courtesiesextendedto the ~valuationstatI. For additional
information on this report, pleasecontactMr. ScottRussell,Project Manager,at
(703) 604-8718(commercial),664-8718(DSN), or srussell@dodig.osd.mil(e-mail).
You may also contactMr. JohnPerrym~ Director of Oversight,at (703) 604-8765
(commercial),664-8765(DSN), or jperryman@dodig.osd.mil(e-mail).


                                       ~~.          ~o~L
                                        JamesL. Pavlik
                                        Director
                                        InvestigativePolicy and Oversight

Attachment: Follow-on Evaluationof the DefenseProtectiveService(Final Report)
           Office of the Inspector General of the Department of Defense
Project No. 2002C002                                                        February 18, 2004

                                 Final Report
             Follow-on Evaluation of the Defense Protective Service

                                     Executive Summary

Who Should Read This Report and Why? Members of Congress; the Under Secretary
of Defense for Intelligence; the Director, Administration and Management; personnel
responsible for managing security at DoD facilities in the National Capital Region; and
agencies that work with the Pentagon Force Protection Agency (PFPA) should be
interested in the issues discussed in this report.

Background. In 1997 and 1998, at congressional request,1 we evaluated the overall
effectiveness and efficiency of the Defense Protective Service (DPS)2 in accomplishing
its law enforcement mission. Our resulting report, “Evaluation of the Defense Protective
Service,” May 14, 1999, included 27 recommendations regarding roles and
responsibilities, organization and management, personnel, operations, and operations
support. This follow-on evaluation reviewed progress made toward implementing our
recommendations.

At the request of Senator Charles E. Grassley, Ranking Member, U.S. Senate Committee
on Finance, we expanded the follow-on evaluation that we had planned to include: an
examination of DPS background check procedures and policies; National Crime
Information Center (NCIC) checks for DPS officers hired since 1998, and private
security guards employed at DoD sites under DPS cognizance; accountability of DPS
weapons; and a determination of whether any missing DPS weapon had been used in a
crime.

Results. Of the 27 recommendations, the Chief, DPS, fully implemented only five.
Another was resolved without implementation. One of the five recommendations that
were implemented resulted in a significant pay increase for DPS police officers. We
identified problems related to implementation of the remaining 21 recommendations,
some of which are critical to effective law enforcement operations. These included
evidence accountability and weapons management (although we accounted for
100 percent of the current DPS weapons inventory).



1
    The Chairman, Subcommittee on Military Readiness, Committee on National Security, U.S. House of
    Representatives, requested the evaluation.
2
    At the time of our initial evaluation, DPS operated as a separate organizational entity under the
    direction and control of the Director, Administration and Management. In 2002, DoD created the
    Pentagon Force Protection Agency (PFPA), under the direction and control of the Director,
    Administration and Management. DPS was subsumed into PFPA. The DPS Operations Division
    (police operations) continued as DPS under PFPA. Recently, DPS was renamed the Pentagon Police
    Department (PPD). All references to DPS in this report apply to the new PPD.
In responding to Senator Grassley’s concerns, no current or former DPS officer had a
disqualifying criminal conviction, and we did not identify a current problem with DPS
hiring practices; however, two private security guards under DPS cognizance had
disqualifying criminal convictions. Additionally, two stolen DPS weapons were
recovered during civilian police drug investigations.

Since the terrorists attack on the Pentagon in September 2001, DPS officers have stored
their assigned Government weapons at their residences, which is contrary to DoD policy.
Further, for more than 11 months, numerous DPS personnel engaged in domicile-to-duty
transportation using DPS vehicles without obtaining the required Secretary of Defense
approval. We notified the responsible DoD management officials regarding these
matters.

This report includes recommendations to correct the deficiencies identified during the
follow-on evaluation.

Management Comments. On April 18, 2003, we issued this report in draft form for
management comments. We requested comments from the Assistant Secretary of
Defense (Command, Control, Communications, and Intelligence) (ASD(C3I));3 the
Director, Administration and Management; and the General Counsel, DoD. USDI and
the General Counsel concurred with our report. The Director, Administration and
Management, concurred in part and nonconcurred in part. Most significantly, the
Director disagreed that his operational practice allowing police officers to carry their
service weapons to and from work and store them in their homes was contrary to DoD
policy. The Director also disagreed with our assessment that the memorandum of
understanding executed with the County Board of Arlington County, Virginia, might not
be legally sufficient. Furthermore, although not specifically nonconcurring, the Director
did not commit to amending the current policy that strongly encourages DPS police
officers to intercede in certain civilian matters. For the reasons set forth in detail in this
final report, we cannot accept the bases for the Director’s nonconcurrences and
unwillingness to commit to the further policy revisions needed. The Director should
reconsider his positions on these issues based on the facts and considerations in this final
report, and submit final management comments on this final report. We should receive
these comments no later than April 30, 2004.




       3
           Subsequent to our draft report, a new organization, the Under Secretary of Defense for
           Intelligence (USDI), was established. ASD(C3I) is now part of USDI.


                                                   ii
Table of Contents
Part I. Introduction ........................................................................................................ 1
  Background .................................................................................................................... 1
  Objectives....................................................................................................................... 2
  Pentagon Force Protection Agency................................................................................ 2
Part II. Previous Findings and Recommendations, Follow-on Evaluation Results,
and Follow-on Recommendations ................................................................................... 3
  Prior Finding A. Roles, Responsibilities, and Relationships ........................................ 3
    Prior Recommendation A.1......................................................................................... 4
       Follow-on Evaluation Results................................................................................. 4
       Follow-on Recommendation A.1............................................................................ 6
       Management Comments and Our Evaluation ......................................................... 6
    Prior Recommendation A.2......................................................................................... 7
       Follow-on Evaluation Results................................................................................. 8
       Management Comments and Our Evaluation ....................................................... 11
       Follow-on Recommendation A.2.......................................................................... 13
       Management Comments and Our Evaluation ....................................................... 13
    Prior Recommendation A.3....................................................................................... 14
       Follow-on Evaluation Results............................................................................... 15
       Follow-on Recommendation A.3.......................................................................... 15
       Management Comments and Our Evaluation ....................................................... 16
    Prior Recommendation A.4....................................................................................... 16
       Follow-on Evaluation Results............................................................................... 16
       Follow-on Recommendation A.4.......................................................................... 17
       Management Comments and Our Evaluation ....................................................... 18
  Prior Finding B. Organization and Management ......................................................... 19
    Prior Recommendation B.1....................................................................................... 19
       Follow-on Evaluation Results............................................................................... 20
       Follow-on Recommendation B.1. ......................................................................... 20
       Management Comments and Our Evaluation ....................................................... 21
    Prior Recommendation B.2....................................................................................... 21
       Follow-on Evaluation Results............................................................................... 21
       Follow-on Recommendation B.2. ......................................................................... 22
       Management Comments and Our Evaluation ....................................................... 22
  Prior Finding C. Personnel.......................................................................................... 23
    Prior Recommendation C.2....................................................................................... 23
       Follow-on Evaluation Results............................................................................... 24
       Follow-on Recommendation C.2. ......................................................................... 24
    Prior Recommendation C.3....................................................................................... 25
       Follow-on Evaluation Results............................................................................... 25
       Follow-on Recommendation C.3. ......................................................................... 25
       Management Comments and Our Evaluation ....................................................... 25
  Prior Recommendation C.4....................................................................................... 26
    Follow-on Evaluation Results............................................................................... 26
    Follow-on Recommendation C.4. ......................................................................... 27
    Management Comments and Our Evaluation ....................................................... 27
  Prior Recommendation C.5....................................................................................... 28
    Follow-on Evaluation Results............................................................................... 28
    Follow-on Recommendation C.5. ......................................................................... 28
    Management Comments and Our Evaluation ....................................................... 28
  Prior Recommendation C.6....................................................................................... 28
    Follow-on Evaluation Results............................................................................... 29
    Follow-on Recommendation C.6. ......................................................................... 29
    Management Comments and Our Evaluation ....................................................... 30
Prior Finding D. Operations......................................................................................... 30
  Prior Recommendation D.1....................................................................................... 30
    Follow-on Evaluation Results............................................................................... 31
    Follow-on Recommendation D.1.......................................................................... 31
    Management Comments and Our Evaluation ....................................................... 31
  Prior Recommendation D.2....................................................................................... 31
    Follow-on Evaluation Results............................................................................... 31
    Follow-on Recommendations D.2. ....................................................................... 35
    Management Comments and Our Evaluation ....................................................... 37
  Prior Recommendation D.3....................................................................................... 38
    Follow-on Evaluation Results............................................................................... 38
    Follow-on Recommendation D.3.......................................................................... 40
    Management Comments and Our Evaluation ....................................................... 41
  Prior Recommendation D.4....................................................................................... 44
    Follow-on Evaluation Results............................................................................... 44
    Follow-on Recommendation D.4.......................................................................... 47
    Management Comments and Our Evaluation ....................................................... 48
  Prior Recommendation D.5....................................................................................... 49
    Follow-on Evaluation Results............................................................................... 50
    Follow-on Recommendation D.5.......................................................................... 52
    Management Comments and Our Evaluation ....................................................... 53
  Prior Recommendation D.6....................................................................................... 54
    Follow-on Evaluation Results............................................................................... 54
    Follow-on Recommendation D.6.......................................................................... 54
  Prior Recommendation D.7....................................................................................... 54
    Follow-on Evaluation Results............................................................................... 55
    Follow-on Recommendation D.7.......................................................................... 56
    Management Comments and Our Evaluation ....................................................... 56
  Prior Recommendation D.8....................................................................................... 56
    Follow-on Evaluation Results............................................................................... 57
    Follow-on Recommendation D.8.......................................................................... 57
  Prior Recommendation D.9....................................................................................... 57
    Follow-on Evaluation Results............................................................................... 57
    Follow-on Recommendation D.9.......................................................................... 57
     Prior Recommendation D.10..................................................................................... 58
       Follow-on Evaluation Results............................................................................... 58
       Follow-on Recommendation D.10........................................................................ 58
     Prior Recommendation D.11..................................................................................... 58
       Follow-on Evaluation Results............................................................................... 58
       Follow-on Recommendation D.11........................................................................ 59
       Management Comments and Our Evaluation ....................................................... 59
   Prior Finding E. Operations Support............................................................................ 60
     Prior Recommendation E.1. ...................................................................................... 61
       Follow-on Evaluation Results............................................................................... 61
       Follow-on Recommendation E.1. ......................................................................... 62
       Management Comments and Our Evaluation ....................................................... 63
     Prior Recommendation E.2. ...................................................................................... 63
       Follow-on Evaluation Results............................................................................... 63
       Follow-on Recommendation E.2. ......................................................................... 64
       Management Comments and Our Evaluation ....................................................... 64
     Prior Recommendation E.3. ...................................................................................... 65
       Follow-on Evaluation Results............................................................................... 65
       Follow-on Recommendation E.3. ......................................................................... 65
       Management Comments and Our Evaluation ....................................................... 66
     Prior Recommendation E.4. ...................................................................................... 66
       Follow-on Evaluation Results............................................................................... 67
       Follow-on Recommendation E.4. ......................................................................... 68
       Management Comments and Our Evaluation ....................................................... 68
Part III. Senator Grassley’s Concerns ......................................................................... 70
   A. National Crime Information Center Checks........................................................... 70
   B. Compliance with Background Check Requirements.............................................. 71
   C. DPS Weapons Concerns......................................................................................... 71
     Accountability of DPS weapons ............................................................................... 71
     DPS Weapon Used in the Commission of a Crime .................................................. 72
Part IV. Other Problem Areas...................................................................................... 73
   A. Take-Home Weapons Practice ............................................................................... 73
       Recommendation A. ............................................................................................. 77
       Management Comments and Our Evaluation ....................................................... 77
   B. Carrying of a Private Weapon by a Service Member............................................. 82
       Recommendation B............................................................................................... 82
       Management Comments and Our Evaluation ....................................................... 83
   C. Improper Domicile-to-Duty Transportation ........................................................... 84
       Recommendation C............................................................................................... 84
       Management Comments and Our Evaluation ....................................................... 85
Appendix A. Scope and Methodology .......................................................................... 87
   Prior Coverage ............................................................................................................. 87
     Inspector General of the Department of Defense...................................................... 87
Appendix B. Details Regarding Prior Recommendation C.1. to Reclassify
Fixed-Post DPS Officers as Security Guards ............................................................... 89
Appendix C. Details Regarding Weapons Accountability ......................................... 91
  1. Conducting the inventory. ....................................................................................... 91
  2. Verifying the inventory. .......................................................................................... 92
  3. Process for procuring weapons, turning in weapons, and conducting inventories.. 93
  4. Status of lost, stolen, and recovered weapons. ........................................................ 94
Appendix D. Results of DPS Evidence Room Inventory ............................................ 97
Appendix E. Report Distribution ............................................................................... 102
Appendix F. Management Comments
  Under Secretary of Defense for Intelligence.............................................................. 103
  General Counsel, Department of Defense.................................................................. 104
  Director, Administration and Management ............................................................... 105
          Follow-on Evaluation of the Defense
                  Protective Service

Part I. Introduction
Background
    Following an April 1997 request by the Chairman, Subcommittee on Military
    Readiness, Committee on National Security, U.S. House of Representatives, we
    conducted an evaluation of the Defense Protective Service. We assessed DPS’
    effectiveness and efficiency in accomplishing its law enforcement mission,
    including whether the law enforcement mission was well defined and whether
    DPS written policies, operating procedures, and training requirements were
    adequate. We also assessed perceived DPS personnel and training problems cited
    by the Chairman, specifically a lack of continuing training for DPS officers after
    graduation from the basic training academy; shortages of personnel causing
    significant overtime requirements; the use of DPS officers on overtime at non-
    Pentagon locations; and low employee morale. On May 14, 1999, we issued a
    final report with 27 recommendations to improve DPS operations and
    management.

    We scheduled a follow-on evaluation for the first quarter 2002, to assess DPS’
    progress in implementing corrective actions in response to our 1999 report. In a
    December 2001 letter to the Deputy Assistant Inspector General (DAIG),
    Investigative Policy and Oversight (IPO), Senator Charles E. Grassley, requested
    that our review also include: checking every DPS employee and private security
    guard that assisted DPS through the NCIC database; investigating whether any
    DPS employee or private security guard has been arrested and the case not
    resolved; ensuring DPS complied with requirements to remove law enforcement
    officers convicted of a felony; examining whether DPS had followed its
    background check procedures and policies since our 1999 report; conducting an
    inventory of DPS weapons; and determining if any missing weapon had been used
    in a felony. As a result of discussions with members of Senator Grassley’s staff
    in December 2001, we expanded this evaluation to include NCIC checks for those
    current and former officers hired since 1998,4 and at least a representative sample
    of private security guards employed at DoD sites under DPS cognizance.5 We
    also examined DPS background check procedures and policies and determined
    whether they had been followed since 1999. Finally, we inventoried DPS
    weapons, and determined if any missing weapon had been used in a crime.




    4
        Prior to publishing our 1999 report, we checked every DPS law enforcement officer hired prior
        to January 1, 1998, through the NCIC.
    5
        Although we agreed to conduct at least a representative sampling of private security guards
        employed at DoD sites under DPS cognizance, we actually conducted checks on 100 percent
        of them, as resources to conduct these checks were available.


                                               1
Objectives
    Our overall objective was to determine whether the Director, Administration and
    Management, and the Chief, DPS, had implemented or adequately addressed the
    findings and recommendations in Report No. 9950006F, “Evaluation of the
    Defense Protective Service,” May 14, 1999. At congressional request, we also
    reviewed DPS hiring practices; DPS compliance with various statutory and
    regulatory requirements related to hiring and arming police officers and
    contracting for private security guards; DPS control over its weapons inventory;
    and whether any DPS weapon had been used in a crime.

    The specific objectives were to:

    Determine whether DPS implemented or adequately addressed the 27 unresolved
    recommendations in the final report, all of which were associated with findings in
    the following areas:

        • Finding A - Roles, Responsibilities, and Relationships (four
    recommendations);

        •    Finding B - Organization and Management (two recommendations);

        •    Finding C - Personnel (six recommendations);

        •    Finding D - Operations (eleven recommendations); and

        •    Finding E - Operations Support (four recommendations)

    At congressional request, determine whether:

        • DPS policies and practices for hiring and retaining police officers and
    security guards, as well as for contracting private security guards, are adequate to
    screen out individuals with felony records;6

        • DPS practices in arming police officers and security guards comply with
    statutory and regulatory requirements;

       • DPS accounted for all missing and unaccounted weapons and now has full
    and effective control over its weapons inventory; and

       • any missing or unaccounted DPS weapon had been used in the
    commission of a crime.

Pentagon Force Protection Agency
    On May 3, 2002, the Pentagon Force Protection Agency (PFPA) was established
    under the Director, Administration and Management. DPS, formerly a
    subordinate element of the Real Estate and Facilities Directorate (RE&F),

    6
        This entailed conducting NCIC checks on current and former DPS officers and private security
        guards.


                                               2
     Washington Headquarters Services (WHS), became a subordinate element of
     PFPA. The Chief, DPS, was appointed as the Acting Director, PFPA.7
     Additionally, prior to the PFPA formation, the Chief, DPS, was actively engaged
     in development of the new agency that now includes a chemical, biological,
     radiological response unit, and antiterrorism and force protection capabilities, as
     well as resource management and administration functions. Additionally, both
     the criminal investigative and security services elements were realigned from DPS
     to PFPA. We recognize that this reorganization affected the Chief’s priorities and
     that the September 11, 2001, terrorists attack on the Pentagon severely affected
     the mission and priorities of DPS managers. Notwithstanding these serious
     affects, numerous recommendations could have been implemented in the years
     following the May 1999 publication of our evaluation, but were not.

Part II. Previous Findings and Recommendations,
         Follow-on Evaluation Results, and
         Follow-on Recommendations
     Report No. 9950006F, “Evaluation of the Defense Protective Service,” May 14,
     1999, presented 5 findings and 27 recommendations. In this section we have
     listed each previous finding with its corresponding recommendations and
     management comments. These are followed by the results of our efforts to
     determine whether the recommendations were implemented or adequately
     addressed and our follow-on recommendations to correct continuing deficiencies.

Prior Finding A. Roles, Responsibilities, and Relationships
     In our prior evaluation, DPS had not fully and clearly defined or articulated to its
     officers the specific law enforcement powers that exist for DPS officers when
     performing duties on particular DoD properties and when not on a DoD property.
     Furthermore, other Federal, state, and local law enforcement organizations have
     and may exercise law enforcement authority on DoD and non-DoD properties
     where DPS officers operate; yet DPS had not sufficiently identified those law
     enforcement actions that DPS officers should or could take in the face of these
     overlapping authorities. DPS also had not entered into operating agreements with
     key law enforcement organizations to establish which law enforcement
     organization had primary responsibility for addressing specific crimes or crime
     contingencies. In the absence of specific and adequately communicated guidance,
     DPS officers’ roles, responsibilities, and relationships continued to be susceptible
     to misunderstanding, misinterpretation and misapplication, and DPS officers
     continued to risk exceeding their authority and subjecting both the Government
     and themselves to unnecessary liability.




     7
         To avoid confusion, in addressing any decision or event that occurred prior to May 1, 2002, we
         refer to the Chief, DPS. In addressing any event or decision that occurred on or after May 1,
         2002, we refer to the Acting Director, PFPA.


                                                 3
Prior Recommendation A.1.
     “The Chief, DPS, in coordination with the WHS General Counsel, revise DPS
     General Order 1000.2, “Authority, Police Powers, and Jurisdiction,” June 24,
     1991, to set forth, in plain language, the specific police powers that DPS officers
     are authorized to exercise when:

        • on duty at specific DoD properties and facilities in the National Capital
     Region, including the Pentagon Reservation;

         • on duty, but not on a specific DoD property or facility, such as when
     traveling between DoD properties or when at another Federal (non-DoD) property
     or facility;

        • providing protective services to DoD officials, visiting dignitaries, and
     other assigned personnel;
         • monitoring and showing police presence at the Secretary of Defense’s
     private residence;

        •   not on duty; and

        •   on other missions not specified herein.”

     The Director, Administration and Management, agreed. According to the
     Director,
            "[t]his General Order is currently being studied to determine what changes
            need to be made to comply with this recommendation. Officers will be
            queried to determine where they don’t understand requirements which are
            already found in the General Order. This action will be completed no later
            than June 30, 1999.”

Follow-on Evaluation Results
     The Chief, DPS, partially implemented Recommendation A.1. DPS General
     Order 1000.02 “Authority and Jurisdiction,” was updated and reissued on
     April 21, 2000, and again on June 18, 2001. However, procedure two in General
     Order 1000.02, which prescribes DPS policy for actions that an officer may or
     should take when traveling between DoD locations (not on DoD property) is
     confusing and misleading. This procedure “strongly encourages” on-duty DPS
     officers traveling between DoD locations to intervene in situations involving
     breaches of the peace (when violence is inflicted or immediately threatened) or
     when felonies are being committed in their presence. It does not, however,
     (1) articulate the criteria that the DPS officer is to consider when making the
     decision to intervene, (2) articulate legal authority for the officer’s actions when
     intervening, (3) identify and describe the potential civil liability faced by the
     Government in the event the DPS officer elects to intervene, or (4) identify and
     describe the potential civil liability faced by the DPS officer in his personal
     capacity if he elects to intervene. Finally, we have serious doubts about the
     wisdom of any law enforcement leadership guidance that “strongly encourages”
     an officer to do anything. Either the action being contemplated is something that



                                              4
the law enforcement leadership needs the officer to do to meet mission or legal
requirements, or it is not.

Under the governing statute, Section 2674, Title 10, United States Code
(10 U.S.C. 2674), “Operation and control of Pentagon Reservation and defense
facilities in National Capital Region,” DPS officers have law enforcement
authority only on DoD property “located in the National Capital Region.” Their
authority to intervene in situations when traveling between DoD locations is
generally the same as any private citizen; that is, to exercise “citizens arrest”8
authority. In this regard, we note that in July 2002, DPS and the County Board of
Arlington County, Virginia, executed a memorandum of understanding (MOU),
which, purportedly, would allow DPS officers to enforce Commonwealth of
Virginia and Arlington County laws/ordinances in Arlington County. Similarly,
in 2001 the Commonwealth of Virginia extended “conservator of the peace”
status to DoD law enforcement personnel.9 The conservator of the peace
legislation may provide DPS officers with the authorities outlined in Virginia
Code Section 19.2-18, while on-duty and traveling between DoD properties
located in the National Capital Region in Virginia. Neither the MOU nor the
Virginia conservator of the peace legislation, however, can bestow new police
authority on DPS officers that extends beyond their specific authority established
in 10 U.S.C. 2674, as implemented by DoD policy. Based on these
considerations, General Order 1000.02 requires further revision to address a DPS
officer’s authority to intervene in situations not occurring on DoD property in the
National Capital Region (NCR). The revision should make it clear that
intervention by a DPS officer in situations not occurring on DoD property in the
National Capital Region or incidental to travel between property occupied by, or
under the jurisdiction, custody, and control of DoD in the National Capital
Region, could result in potential civil liability on the part of the Government and
on the part of the DPS officer personally. (Further ramifications of the MOU with
Arlington County are discussed in our findings related to Recommendation A.2.)




8
    In medieval England, citizen’s arrests were an important part of community law enforcement.
    Sheriffs encouraged and relied on citizens in towns and villages. The right of private citizens
    to make arrests was virtually identical to the right of a sheriff and constable to do so. (See
    Inbau and Thompson, Criminal Procedure, The Foundation Press, Mineola, NY, 1974.) The
    District of Columbia has a citizen’s arrest statute (District of Columbia Code § 23-582,
    “Arrests without warrant by other persons.”), while both Virginia and Maryland have case law
    that supports “citizens’ arrests.” (See; Hall v. Commonwealth, 12 Va. App. 559, 389 S.E.2d
    921 (1900) (aff’d. on rehearing, 1990 Va. App. LEXIS 118); Stevenson v. State, 287 Md. 504,
    413 A.2d 1340 (1980).
9
    In 2001, the Virginia Assembly amended Section 19.2-12 of the Virginia Code to make special
    agents and law enforcement officers of the Department of Defense conservators of the peace
    while performing their duties.” Conservators of the peace have the powers and duties
    described in Virginia Code Section 19.2-18, “Powers and duties generally,” which include the
    authority to arrest without a warrant in such instances as are set out in §§ 19.2-19 and 19.2-81.
    This appears to be limited to offenses involving threats to kill, injure, or commit violence
    against person or property, or to unlawfully trespass.


                                             5
     General Order 1000.02 also addresses the PFPA protective services mission,10
     which includes providing security at the private residence of the Secretary of
     Defense and providing security at meetings and commissions; however, it does
     not set forth in plain language their authority to do so. Additionally, General
     Order 1000.02 does not address their specific police authority when providing
     protective services functions outside the NCR (See Part IV, Take-Home Weapons
     regarding Interim General Order 0000 with respect to arming during official
     travel outside the NCR).11

Follow-on Recommendation A.1.
     We recommend that the Director, Pentagon Force Protection Agency, in
     consultation with the Washington Headquarters Services Office of General
     Counsel, revise General Order 1000.02, “Authority and Jurisdiction,” June 18,
     2001:

            a. To delineate an officer’s authority to intervene in situations involving
     breaches of the peace (when violence is inflicted or immediately threatened) or
     when felonies are being committed in their presence, when traveling between
     DoD locations in the National Capital Region. If the decision to intervene
     remains discretionary with the officer, the revision should alert the officer to the
     potential civil liability that could arise as a result of his decision to intervene.

             b. To set forth in plain language the specific police powers that DPS
     officers are authorized to exercise when they:

                (1) Provide protective services to DoD officials, visiting dignitaries,
     and other assigned personnel.

                 (2) Monitor and show police presence at the Secretary of Defense’s
     private residence.

                    (3) Perform protective services functions outside the National Capital
     Region.

Management Comments and Our Evaluation
     Director, Administration and Management Comments. The Director
     concurred, but stated the belief that “GO 1000.02 was clear and complete as
     evidenced by the lack of problems associated with PFPA police officers
     responding to criminal incidents. The Director stated that PFPA would, however,
     in consultation with WHS/GC, further review and revise GO 1000.02, if
     necessary, to clarify an officer’s authority to intervene.
     10
          General Order 1000.02 states that the Protective Services Unit’s primary mission is to provide
          for the safety and security of the persons and the property they are assigned to protect, and that
          law enforcement is a secondary consideration, limited to enforcing Federal laws regarding
          conduct that threatens the safety and security of the persons and property they are assigned to
          protect.
     11
          10 U.S.C. 2674(b)(1) provides, in part, that “[t]he Secretary may appoint military or civilian
          personnel or contract personnel to perform law enforcement and security functions for property
          occupied by, or under the jurisdiction, custody, and control of the Department of Defense, and
          located in the National Capital Region….”


                                                   6
     Evaluation Response. The management comments are not fully responsive.
     Although fortunate, the fact that PFPA police officers have not yet encountered
     problems in responding to criminal incidents in no way demonstrates the current
     guidance is clear or complete. As we pointed out in the finding, GO 1000.02
     “strongly encourages,” but does not require, on-duty DPS officers traveling
     between DoD locations to intervene in situations involving breaches of the peace
     (when violence is inflicted or immediately threatened) or when felonies are being
     committed in their presence. This general guidance exceeds the statutory
     jurisdiction and authority established for DPS, and does not even purport to limit
     interventions in civilian matters to areas or matters directly involved in the
     officer’s “official duties.” In fact, the officer is strongly encouraged to intercede
     in civilian matters where the officer does not have jurisdiction and has authority
     only equal to that of any citizen. Despite this situation, GO 1000.02 does not
     (1) articulate criteria for the officer to consider when making the decision to
     intervene, (2) articulate specific legal authority (authority to make a citizen’s
     arrest) for actions during the intervention, (3) describe the potential civil liability
     the Government could face if the officer elects to intervene, or (4) describe the
     potential civil liability the officer could face personally as a result of the
     intervention. In our view, this current guidance is an invitation to disaster, both
     personally for the police officer and for the DoD, and should not be allowed to
     continue. In commenting on this final report, therefore, PFPA should commit to
     adopting the clarifications to GO 1000.02 addressed in our recommendation.

Prior Recommendation A.2.
     “The Chief, DPS, in coordination with the WHS General Counsel, identify the
     law enforcement agencies with which DPS would work during a contingency,
     both on and off the Pentagon Reservation, and:

             • initiate discussions with those agencies to define each agency’s
     authorities, roles, and responsibilities during a contingency; and,

            • prepare an appropriate MOU between DPS and each of the other
     agencies formalizing the agreements on these issues.”

     The Director, Administration and Management, agreed with the recommendation.
     According to the Director, “DPS already has a Memorandum of Understanding
     (MOU) with the District of Columbia, Prince George’s County, Alexandria, and
     the Metro Transit Authority. DPS is in the process of formalizing MOUs with the
     Federal Protective Service and the U.S. Park Service. Previous attempts to
     establish an MOU with Arlington County have not been successful, because of
     that police chief’s reluctance to approach the County Board. Arlington police
     have preferred to work with oral agreements. Nonetheless, MOUs will be
     initiated with Arlington and Fairfax Counties before June 30, 1999.’

     “It is specifically noted that the last large demonstration which occurred at the
     Pentagon showed that DPS can and does work closely with neighboring law
     enforcement authorities. It should be noted that jurisdiction to act either exists or
     it does not; an MOU cannot change the existence or non-existence of
     jurisdiction.”

     We accepted the Director’s comments as generally responsive to our
     recommendation, but pointed out that:


                                            7
                    “However, as discussed in the draft report, DPS also does not have
                    MOUs with the FBI Washington Field Office; or the Virginia or
                    Maryland State Police Departments. The FBI clearly would be
                    involved in a Pentagon contingency, and the Virginia or Maryland State
                    Police Departments could be involved in a contingency at a site where
                    DPS operates. DPS, therefore, should also pursue MOUs with these
                    law enforcement organizations.”

Follow-on Evaluation Results
     DPS and PFPA now have 19 MOUs12 or memoranda of agreement (MOAs) with
     law enforcement agencies with which they would work during contingencies.
     Some of these agreements, however, are inadequate. Additionally, although
     recommended in our prior evaluation, the Acting Director, PFPA, has not
     established agreements with some key law enforcement agencies.13 The
     shortcomings include:
          •    Some MOUs/MOAs are outdated and have not been reviewed annually.14

         • Key DPS management personnel were not familiar with the latest version
     of certain MOUs.

         • Agreements do not fully outline the scope of duties required of each
     agency, as seen in the MOU between the Alexandria Police Department and DPS,
     where DPS responsibilities under areas of concurrent and proprietary jurisdiction
     are not differentiated. The MOU with the Alexandria Police Department states:
                    “DPS…provides armed law enforcement and security services to carry
                    out this responsibility, to include but not limited to: Provides 24-hour
                    armed response for all police calls (PCs) within our authorized
                    jurisdictional limits, to include demonstrations or hostage/barricade
                    situations.”

     The MOU later indicates that the Alexandria Police Department has full
     command and control authority for hostage/barricade/suspicious package and
     bomb threats. However, it does not address demonstrations. As such, it is
     possible that DPS could infer the agency has full command and control for
     demonstrations, which is not the case.

     12
          This number does not include MOUs with the Defense Criminal Investigative Organizations.
     13
          The 1999 report listed some key law enforcement agencies, including the FBI Washington
          Field Office, the Virginia and Maryland State Police Departments, the U.S. Park Police, and
          the Fairfax County Police Department. However, DPS only has a MOU with the U.S. Park
          Police. DPS did enter into an agreement with the Virginia State Police following the
          September 11, 2001, terrorists attack, to provide checkpoints on Virginia State Route 110;
          however, this agreement does not address contingency actions and responsibilities, and does
          not mention other DoD properties in the National Capital Region that are located in Virginia.
     14
          DoD Instruction 2000.16, “DoD Antiterrorism Standards,” June 14, 2001, Standard 20,
          “Comprehensive Antiterrorism Review,” mandates that commanders at all levels shall review
          their own antiterrorism program and plans at least annually to facilitate antiterrorism program
          enhancement. MOUs/MOAs are part of the plan as highlighted in Defense Threat Reduction
          Agency comments in Recommendation A.2. As a result, one would expect that these
          agreements would be reviewed in conjunction with the Antiterrorism Force Protection Plan.


                                                   8
    • Sometimes the duties listed for an agency are outside the agency’s
jurisdiction and authority. For instance, the MOA between the Defense
Intelligence Agency and WHS, July 31, 1991, properly recognizes that WHS has
only a proprietary interest at the Defense Intelligence Agency building, located in
Arlington, Virginia. The agreement states, however, that WHS has full command
and control for hostage situations, barricaded suspects, and civil disturbances.
Absent MOUs with the Arlington County Police Department (ACPD)15 and the
Federal Bureau of Investigation permitting DPS such authority,16 actual DPS
authority and responsibilities in such situations are unclear.

Aside from the inadequacies of existing MOUs, the Acting Director, PFPA, did
not follow Recommendation A.2 and establish agreements with all the key law
enforcement agencies addressed in our recommendation. The Defense Threat
Reduction Agency confirmed this during an August 27-31, 2001, vulnerability
assessment of DPS. That agency recommended:
               “…MOUs/MOA with local authorities should be established when
               outside support is identified in the AT17 plan. The memo should
               address exactly what support is needed and any issues of clarification,
               different rules of engagement (ROE), or line of authority. The AT
               officer should maintain these documents in conjunction with the AT
               plan.”

The lack of MOUs and MOAs became apparent during the response to the
September 11, 2001, terrorists attack on the Pentagon, as highlighted in the
Arlington County After Action Report, which states that an ACPD lieutenant:
          “. . . quickly reached an agreement with a DPS official that the ACPD
          would assume responsibility for the outer perimeter. This was an important
          decision because the DPS exercises exclusive Federal legislative
          jurisdiction at the Pentagon and its surrounding grounds.”18

The report also alludes to the vast support, by more than 300 officers, which DPS
received from at least 10 different police agencies, via the ACPD association with
the Northern Virginia Law Enforcement Mutual-Aid Agreement of May 1, 1991.
However, PFPA still does not have agreements with most of those agencies.

Since the terrorists attack, the PFPA Antiterrorism Force Protection Division
(AT/FP) is responsible for updating existing agreements and developing
agreements with local agencies, and then including them in the AT/FP plan. Two

15
     DPS had a MOA with ACPD at the time this MOA was signed, but the agreement with ACPD
     does not mention this property.
16
     For terrorist incidents, Presidential Decision Directive 39, “U.S. Policy on Counterterrorism,”
     June 21, 1995, dictates actual authority, and specifically provides that “[t]he FBI shall be
     responsible for the Domestic Emergency Support Team (DEST) in domestic incidents.” The
     FBI, therefore, would be the lead agency during a terrorist incident. PFPA also does not have
     an agreement with FBI.
17
     AT is the abbreviation for antiterrorism.
18
     We note in this respect, as we noted in the 1999 report, that actual jurisdiction for the Pentagon
     Reservation has never been established. Actual jurisdiction depends on the authorities ceded
     in individual deeds transferring real property to the United States, and whether the United
     States affirmatively accepted the authorities ceded in those real property deeds.


                                              9
AT/FP personnel responsible for this tasking are also engaged in other duties.
They have attended AT/FP meetings with local military and civilian public safety
agencies; however, representatives of most of the civilian agencies are not cleared
for classified threat information. It appears that the additional duties of the AT/FP
personnel and the lack of security clearances for local agency personnel have
slowed progress on updating and developing agreements with local agencies.19
Although two agreements have been reached, one between PFPA and the County
Board of Arlington County and the other with the Virginia State Police, each has
problems, as detailed below:

    • The MOA between PFPA and the County Board of Arlington County may
not be legally sufficient because it purports to authorize PFPA management to
direct DPS officers, while engaged in the performance of their official duties, to
enforce state law off Federal property (the geographic limits established in
10 U.S.C. 2674). Although Virginia Code, Section 19.2-12, indicates that any
law enforcement officer of the DoD shall be a conservator of the peace, while
engaged in the performance of their official duties, 10 U.S.C. 2674, “Operation
and Control of Pentagon Reservation and defense facilities in National Capital
Region,” establishes that the authority of personnel appointed by the Secretary of
Defense to perform law enforcement and security functions only extends to
property occupied by, or under the jurisdiction, custody, and control of the DoD,
and located in the National Capital Region. The statute further limits police
powers to “…property occupied by, or under the jurisdiction, custody, and control
of the Department of Defense, and located in the National Capital Region.” We
do not believe an MOU that would give DPS officers authority beyond these
specific statutory limits is either supportable or appropriate. In this regard, we
note that the Director, Administration and Management, in responding to our
1999 report, pointed out that “...jurisdiction to act either exists or it does not; an
MOU cannot change the existence or non-existence of jurisdiction.” We agree.
Furthermore, we do not believe the actions would be part of a DPS officer’s
official duties.

    • The Chief, DPS, did not establish an MOA with the Virginia State Police,
a key agency with which DPS would work during a contingency, as
recommended. However, following the terrorists attack on the Pentagon, the
former Director, WHS, entered into a MOA, for an indefinite period, with the
Virginia State Police, specifically to provide security for the Pentagon via
checkpoints on (Virginia) State Route 110. The agreement lacks details for
contingency operations, such as rules of engagement, agreed upon by all agencies,
to cover actions that either side would take in an emergency. The DPS, the
military police guarding the Pentagon, and the Virginia State Police need to
improve the integration of their individual contingency plans that support the
MOA, as no consensus existed. Additionally, while performing the security
functions required by the MOA, the Virginia State Police collects information for
the Federal Bureau of Investigation regarding suspicious activity around the
Pentagon Reservation; this information is not routinely shared with PFPA.



19
     The PFPA AT/FP liaison officer has submitted three applications for civilian police officers to
     have access to classified threat information. We encourage continued efforts to remove
     barriers to criminal intelligence sharing that exist between Federal, state and local law
     enforcement agencies.


                                             10
Management Comments and Our Evaluation
     Director, Administration and Management Comments (Finding). The
     Director nonconcurred with the aspect of our finding in which we concluded that
     the MOA between PFPA and the County Board of Arlington County might not be
     legally sufficient because it purports to authorize DPS officers to enforce state law
     off Federal property (the geographic limits established in 10 U.S.C. 2674).
     According to the Director:
            “The draft finding is based on an unnecessarily narrow reading of the
            Secretary’s authorities under 10 USC §2674 and is antithetical to the
            responsibilities of the Secretary of Defense to provide for the physical
            security, force protection and readiness required for the Pentagon
            Reservation in full accord with that statute and other Federal and State
            authorities. The draft report makes a curious argument both limiting the
            Secretary in his exercise of 10 USC §2674 responsibilities to provide for the
            security for the Pentagon Reservation, and concluding that the Secretary is
            without authority to enter into a mutual agreement with local authorities to
            authorize security and law enforcement officers to protect the Pentagon
            Reservation on land abutting the Reservation. The subject Agreement with
            Arlington County relies on both Federal and State authorities to convey
            authority on PFPA officers to act in the best interests of DoD “for the
            proper exercise of their duties” under 10 USC §2674.”

            “We believe that the authorization in 10 USC § 2674 to provide security for
            (not on) the Pentagon Reservation places such reasonable discretion in the
            hands of the Department absent any law to the contrary. We see nothing in
            the statute that would so limit the Department’s authority to achieve a
            central purpose of the statute - to provide for the security for the Pentagon
            Reservation and for the hundreds of DoD facilities in the NCR.
            Furthermore, the draft finding misses the import of the legal effect of the
            conveyance of authority by Virginia to the Department and to PFPA
            officers under Virginia statutes cited in the Agreement. The comity
            between the State and Federal Governments with respect to law
            enforcement, security functions and jurisdiction for federal installations
            within the States has long been respected by the Federal courts as well
            within the reasonable discretion of those parties for establishing mutual
            responsibilities in this area. Thus, where a State conveys, and a Federal
            entity duly accepts certain authorities within the jurisdiction of the States,
            the courts will clearly uphold such arrangements. This is not a question of
            obtaining “legislative jurisdiction” over property but of the practical
            authority of the States and Federal governments to convey on each other
            certain authorities within their respective domains.”

            “The conclusion of the WHS Office of General Counsel is that there is
            indeed ample legal authority for the subject mutual aide agreement between
            DOD and Arlington County. The draft report indicates no other statute or
            principal of law that would lead us to a contrary conclusion.”

     Evaluation Response. We do not question the Secretary’s authority to protect
     DoD property and personnel, or the Secretary’s authority to enter into an
     agreement authorizing Arlington County police officers to enter property under
     the jurisdiction, custody and control of the Department of Defense within the
     National Capital Region to perform law enforcement and security functions and to
     assist PFPA. However, since 10 USC §2674 specifically limits PFPA’s law


                                               11
enforcement authority to the physical confines of “the property,” we do question
whether 10 U.S.C. §2674, when read in conjunction with Virginia Code §19.2-12
and §19.2-18, provides a legal basis for authorizing PFPA officers to enforce state
law on property abutting Federally owned property.20 Specifically, we question
whether a PFPA officer, whose law enforcement authority is restricted to the
confines of property under the jurisdiction, custody and control of the Department
of Defense, who leaves the confines of that property to enter property under
exclusive Virginia jurisdiction for the purpose of enforcing state law, would be
considered to be “engaged in the performance of [his] official duties” so as to be
within the scope of Virginia Code §19.2-12.

Furthermore, even if we accepted the Director’s narrow interpretation of the scope
of the Arlington County agreement, i.e., “to convey authority on PFPA officers to
act in the best interest of DoD ‘for the proper exercise of their duties’ under
10 U.S.C. §2674,” the actual terms of the Arlington County agreement are far
more expansive. For example, pursuant to Section 3 entitled “Operational
Guidelines,” found on page 2 of the agreement, “DPS officers may intervene
when breaches of the peace or felonies are committed in their presence” on
highways and property abutting the Pentagon Reservation but under exclusive
Virginia jurisdiction. Thus, a DPS officer would be authorized to intervene in the
theft of a privately-owned vehicle, a purse snatching, an armed robbery, or a street
mugging if they occurred on property abutting the Pentagon Reservation,
notwithstanding the fact that none of these crimes pose a threat to the Pentagon
Reservation or persons therein.

In summary, we question whether 10 U.S.C. §2674 confers any law enforcement
authority on PFPA officers when they are physically off the “the property,” and
therefore, whether 10 U.S.C. §2674, even when read in conjunction with Virginia
Code §19.2-12 and §19.2-18, authorizes PFPA officers to enforce state law on
property abutting the Pentagon Reservation pursuant to the Arlington County
agreement. Assuming, for the sake of argument, that the Director’s narrow
interpretation of the Arlington County agreement is legally correct, i.e., that the
agreement only confers “authority on PFPA officers to act in the best interest of
DoD ‘for the proper exercise of their duties’ under 10 U.S.C. §2674,” the scope
of the agreement as currently written is still overly broad and needs to be revised.



20
     10 U.S.C. §2674(b)1(1) reads, in part, as follows:
          “The Secretary may appoint . . . civilian personnel . . . to perform law enforcement and
          security functions for property occupied by, or under the jurisdiction, custody, and control
          of the Department of Defense, and located in the National Capital Region. Such
          individuals . . . (B) shall have the same powers . . . as sheriffs and constables upon the
          property referred to in the first sentence to enforce the laws enacted for the protection of
          persons and property, to prevent breaches of the peace and suppress affrays or unlawful
          assemblies . . . .” Emphasis added.
     Va. Code §19.2-12 reads, in part, as follows:
          “any special agent or law enforcement officer of the United States . . . Department of
          Defense, . . . shall be a conservator of the peace, while engaged in the performance of
          their official duties.” Emphasis added.
     Va. Code §19.2-18 reads, in part, as follows:
          “Every conservator of the peace shall have authority to arrest, without a warrant in such
          instances as are set out in §§19.2-19 and 19.2-81.”



                                                 12
Follow-on Recommendation A.2.
     We recommend that the Director, Pentagon Force Protection Agency:

            a. Identify a primary point of contact or liaison for coordinating and
     developing MOUs and MOAs, and keep this person abreast of all communication
     with outside agencies with regard thereto.

            b. Systematically review all existing MOUs and MOAs to ensure
     currency, legal sufficiency, and clarity of each organization’s roles and
     responsibilities.

             c. Establish written MOUs and MOAs using the Arlington County,
     Virginia, and other after action reports as reference points to identify agencies that
     provided support during the terrorist attack on the Pentagon and incorporate them
     into a viable antiterrorism force protection plan, as recommended by the Defense
     Threat Reduction Agency.
             d. In concert with Washington Headquarters Services Office of General
     Counsel, develop and propose legislation that allows the Director, Pentagon Force
     Protection Agency, to enter into agreements that allow Defense Protective Service
     officers to enforce laws outside the geographic limits established in Section 2674,
     Title 10, United States Code, to ensure the safe, secure, and efficient operation of
     the Pentagon Reservation.

            e. Work with the Virginia State Police and the Military Police to develop
     a comprehensive plan for the (Virginia) State Route 110 security operation that
     includes:

                 (1) identification of responsibilities, establishment of clear mission
     and threat requirements during contingency operations, to include specific rules of
     engagement, signed by the Director, Pentagon Force Protection Agency, and
     posted so that all involved can clearly understand their responsibilities and
     operational details;

                 (2) training (in coordination with the Virginia State Police) that covers
     the most likely use of force scenarios, to include deadly force; and
                (3) establish information sharing protocols with Virginia State Police
     and the Federal Bureau of Investigation regarding suspicious activity around the
     Pentagon Reservation, while ensuring compliance with laws and regulations
     covering the collection of information concerning persons not affiliated with
     DoD.

Management Comments and Our Evaluation
     Director, Administration and Management Comments
     (Recommendations A.2.a – b). The Director concurred, advising that PFPA was
     developing a Support Agreement Program and PFPA Regulation to outline the
     program policies, procedures, and responsibilities. According to the Director, the
     program will encompass all Memoranda of Agreement (MOAs), Memoranda of
     Understanding (MOUs), Interagency Agreements (IAs), Inter Service Support
     Agreements (ISSAs), and other such documents to which PFPA is a party. The


                                           13
     program will have a single manager for oversight; however, each document will
     have a separate subject matter expert responsible for functional and technical
     content and currency. The program manager will ensure that each document is
     reviewed at least once annually and properly coordinated with all affected and
     appropriate individuals and organizations. PFPA is reviewing the current
     documents for currency, overlaps, and gaps, and for consolidation potential and
     need to establish additional ones. PFPA anticipates completing the regulation by
     August 1, 2003, and having the program fully operational by September 1, 2003.

     Evaluation Response. The management comments are responsive.

     Director, Administration and Management Comments
     (Recommendation A.2.c) The Director concurred, advising that (1) PFPA has
     developed an overarching antiterrorism/force protection plan for WHS-controlled
     assets throughout the National Capital Region, (2) relevant portions of the plan
     address both internal and external agency responses to contingencies, and
     (3) supporting MOUs will be developed once the plan is coordinated with all
     responsible agencies.

     Evaluation Response. The management comments are responsive. In
     responding to the final report, the Director should identify the agencies involved
     and specify the estimated completion date for each MOU.

     Director, Administration and Management Comments
     (Recommendation A.2.d) The Director nonconcurred. According to the
     Director, 10 U.S.C. 2674 gives the Secretary of Defense ample authority to enter
     into MOAs with local jurisdictions to further enhance the safety and security of
     the Pentagon Reservation and DoD personnel. The MOA with Arlington County,
     for example, relies on both Federal and State authorities to convey authority on
     PFPA officers to act in the best interests of DoD “for the proper exercise of their
     duties” under 10 USC §2674.

     Evaluation Response. As discussed above in detail, we do not question the
     Secretary’s authority to protect DoD property and personnel, or to enter into
     agreements authorizing state and local law enforcement officers to enter property
     under the jurisdiction, custody and control of the Department of Defense with the
     National Capital Region to perform law enforcement and security functions.
     However, since 10 USC §2674 specifically limits DPS’ law enforcement
     authority to “on property,” we question whether it provides a legal basis to enter
     into a “mutual support agreement” with a state or local law enforcement agency
     purportedly authorizing DPS officers to exercise state law enforcement authority
     off DoD property for two reasons – first, because 10 U.S.C. §2610 does not
     provide a DPS officer with any statutory law enforcement authority off DoD
     property, and second, because 10 U.S.C. §2610 does not provide any statutory
     authority to enter into mutual support agreements with state or local law
     enforcement organizations.

Prior Recommendation A.3.
     “The Chief, DPS, in coordination with the WHS General Counsel, initiate
     discussions with the DCIOs [Defense Criminal Investigative Organizations] to
     define each organization’s authorities, roles, and responsibilities when conducting
     investigations on the Pentagon Reservation and at DoD facilities in the National


                                          14
     Capital Region, and then execute MOUs formalizing the agreements on these
     issues.”

     The Director, Administration and Management, agreed. According to the
     Director, “DPS already had written MOUs with Army CID, and the Navy had
     been reluctant in the past to initiate a written MOU.” Nonetheless, DPS would
     attempt to initiate MOUs with the Navy and the Air Force within the next month,
     and would complete agreements no later than September 30, 1999.

     We accepted the Director’s comments as generally responsive; however, the
     existing MOU with the U.S. Army Criminal Investigation Command (USACIDC)
     only addressed instances in which USACIDC would support and assist DPS
     investigations. In addition, the MOU was based on the erroneous conclusion that
     “…DPS is the agency responsible for the investigation of all criminal acts
     occurring within the Pentagon and other designated Department of Defense
     (DoD) buildings, both U.S. Government owned and leased, located within the
     National Capital Region which house U.S. Army personnel and activities…”
     Hence, we recommended that DPS pursue a complete MOU with USACIDC
     based on each agency’s actual jurisdiction and authority.

Follow-on Evaluation Results
     The Director, PFPA, partially complied with Recommendation A.2 to establish or
     update and revise MOUs with the DCIOs. The DPS now has MOUs with the
     Defense Criminal Investigative Service (DCIS) and Air Force Office of Special
     Investigations; however, DPS did not negotiate an MOU with the Naval Criminal
     Investigative Service (NCIS) and did not update the 12-year-old MOU with the
     USACIDC as recommended.

     Following our 1999 report, the Chief, DPS, entered into MOUs with the Director,
     DCIS (March 2001), and with the Commander, 33d Field Investigations
     Squadron, Air Force Office of Special Investigations (August 2000).
     Additionally, in July 1999, the Chief, DPS, corresponded with the Special Agent
     In Charge, NCIS Washington Field Office, proposing a MOU with NCIS. When
     the Special Agent In Charge declined in favor of a gentlemen’s agreement, the
     Chief, DPS, did not elevate the matter to the attention of NCIS Headquarters; the
     level at which MOUs are normally signed.

Follow-on Recommendation A.3.
     We recommend that the Director, Pentagon Force Protection Agency:

             a. Renegotiate and update the memorandum of understanding with the
     United States Army Criminal Investigation Command, based on each agency’s
     actual jurisdiction and authority, as previously recommended.

             b. Negotiate a comprehensive memorandum of understanding between
     the Director, Administration and Management, or the Director, Pentagon Force
     Protection Agency, and the Director, Naval Criminal Investigative Service.




                                         15
Management Comments and Our Evaluation
     Director, Administration and Management Comments. The Director
     concurred, advising that by July 31, 2003, the Director, PFPA, would send a letter
     to USACIDC requesting an update to the existing MOU and a letter to the
     Director, NCIS, requesting a comprehensive MOU.

     Evaluation Response. The management comments are responsive.
Prior Recommendation A.4.
     “The Chief, DPS, upon completing actions in response to Recommendations A.2
     and A.3 above, conduct training and take other actions as necessary to ensure that
     all DPS employees (police officers, investigators and security guards) are fully
     cognizant of, and thoroughly understand, their law enforcement and investigative
     authorities, particularly in reference to the different properties on which they
     operate.”

     The Director, Administration and Management, agreed and advised that DPS was
     implementing Recommendation A.4.

     We accepted the Director’s comments as generally responsive to
     Recommendation A.4. However, until actions were completed in response to
     Recommendations A.2. and A.3., we were not convinced that DPS training and
     other actions could be sufficiently detailed to ensure that DPS police officers,
     investigators, and security guards fully understood their authority. We therefore
     asked DPS to provide information on the specific training and other actions that it
     had taken or planned in response to this recommendation. Additionally, we
     requested actual or estimated completion dates for individual training and other
     actions and descriptions on how they addressed differing DPS authority at the
     various locations where DPS operates.

Follow-on Evaluation Results
     The Acting Director, PFPA, has not taken measures to fully implement
     Recommendation A.4. The law enforcement authority and jurisdiction training,
     related to MOUs and MOAs between DPS (or PFPA) and other law enforcement
     agencies with which DPS (or PFPA) works, remains inadequate. Numerous
     shortcomings in the training provided to DPS officers included the following:

          • Pre-Field Training and Evaluation Program: Authority and jurisdiction
     training is an 8-hour block of instruction during the 1-week program. The
     Virginia code, Federal, and District of Columbia codes are taught during this
     training block. The Maryland Code is not taught. Furthermore, the Cooperative
     Agreement with the Washington Metropolitan Police Department is the only
     MOU/MOA that is covered. DPS officers are taught that in Washington D.C., it
     is a statutory misdemeanor for a police officer not to make an arrest.21 In this
     regard, as discussed previously, the DPS enabling legislation limits DPS authority
     to DoD property. In reality, DPS officers are “police officers” only while on DoD
     property and performing official duties. Thus, they would not be subject to

     21
          DC Code § 5-115.03, “Neglect to make arrest for offense committed in presence.”


                                                16
     misdemeanor charges for not making an arrest on D.C. streets outside a DoD
     property. However, they are being trained to intercede in such civilian matters.22
     This training, therefore, could foster a complex, dangerous situation with
     potentially severe liability consequences for the Government (DoD) and DPS
     officers.

         • Field Training and Evaluation Program: Of the 26 task items required in
     the 12-week program, 6 items deal with authority and jurisdiction. These include
     authority and jurisdiction; criminal procedure; Title 32, Code of Federal
     Regulations; Title 41 Code of Federal Regulations; Virginia Annotated Code
     18.2; Virginia Annotated Code 46.2; and Title 18, United States Code. However,
     the Maryland Code and MOUs are not included. Additionally, DPS has not
     prescribed evaluation technique to measure an officer’s competence in the skill,
     knowledge, and abilities taught,23 although a team was in the process of
     developing one at the time of our review.

         • In-Service Training Program: The DPS training officer and the
     Commander, Support Services Branch, both reported that authority and
     jurisdiction was a core item for in-service training. Each officer is supposed to
     receive the training every 18 months, but this training was scaled back because of
     manning requirements and because of the Chief’s push to train officers to qualify
     for Master Patrol Officer upgrade, so they could receive increased pay. PFPA (or
     DPS) has not conducted in-service training since calendar year 2000.
     Furthermore, the October 2000 in-service training schedule did not include
     authority and jurisdiction. The Commander, Support Services Branch, also
     reported that the “Supervisory Forum” uses the same schedule as the in-service
     program, except that it also discusses leadership. As such, authority and
     jurisdiction are also not covered in that training program.

         • Master Patrol Officer Program: This program has a 2-hour block of
     instruction on authority and jurisdiction; however, it does not cover MOUs and
     MOAs.

     We concluded that authority and jurisdiction related training in DPS is deficient at
     all levels (basic entry, intermediate, and advanced). The complex DPS mission of
     protecting the Pentagon and 24 off-site locations in the National Capital Region
     could exacerbate the impact of this deficiency. Additionally, since the terrorists
     attack, the Acting Director, PFPA, has entered into the MOA with the County
     Board of Arlington County that agrees to allow DPS officers to act outside the
     limits of their authority and jurisdiction established in 10 USC 2674 (See
     Recommendation A.2.). Thus, at a time when training should have expanded to
     ensure that officers understood their authority and jurisdiction, training was
     curtailed.

Follow-on Recommendation A.4.
     We recommend that the Director, Pentagon Force Protection Agency:
     22
          The field training officer responsible for this training advised that students are told that a
          phone call to the Washington D.C. Metropolitan Police will satisfy the requirement to
          intercede. He does not tell students that they are not permitted to take other police actions.
     23
          CALEA Standard 33.4.2 requires the “…use of evaluation techniques designed to measure
          competency in the required skills, knowledge, and abilities.”


                                                   17
         a. Take the actions necessary to implement Prior Recommendation A.4.
     Initially, complete the required actions to implement Prior Recommendations A.2
     and A.3. Then, direct that all training (Pre-Field Training and Evaluation, Field
     Training and Evaluation, In-Service Training, Supervisory Forum, and Master
     Patrol Officer) be organized and conducted to ensure that all Pentagon Force
     Protection Agency personnel (police officers, investigators, and security
     personnel) understand their law enforcement and investigative authorities,
     particularly with regard to the different properties on which they operate.

        b. Provide oversight to ensure that all employees receive required training
     and that such training is tracked and properly recorded in training records.

         c. Complete the development of a measurement tool to ensure that new
     officers comprehend authority and jurisdiction, to include all MOUs and MOAs.

Management Comments and Our Evaluation
     Director, Administration and Management Comments
     (Recommendation A.4.a) The Director concurred. According to the Director,
     (1) the events of 9/11 and subsequent need to maintain a high level of security
     disrupted the training program, (2) PFPA is now conducting a comprehensive
     review of the agency's training requirements at all levels and then will develop a
     strategy to fulfill those requirements, (3) prior Recommendation A.4 has been
     used as a starting point for the training review, and (4) this is a long-term process
     with an estimated closure date of July 2004.

     With respect to prior Recommendation A.2, the Director advised that corrective
     action was underway. PFPA has moved beyond discussions to an interim stage
     and has developed an overarching antiterrorism/force protection plan for WHS-
     controlled assets throughout the National Capital Region. Relevant portions of
     that plan address both internal and external agency responses to contingencies.
     Supporting MOUs will be developed once the plan is coordinated with all
     responsible agencies.

     With respect to prior Recommendation A.3, the Director advised that MOUs
     exist with DCIS, USACIDC and AFOSI, and the Director, PFPA, will send letters
     to these agencies requesting updates (estimated completion date July 31, 2003).
     The Director, PFPA, will also send a letter to NCIS requesting an MOU to define
     NCIS authority, role and responsibility for conducting investigations on the
     Pentagon Reservation (estimated completion date July 31, 2003).

     With respect to prior Recommendation A.4, the Director advised that all
     Pentagon Police Department (PPD) officers have been given initial training and
     follow-on training is being incorporated into the PPD training plan.

     Evaluation Response. The management comments are responsive.

     Director, Administration and Management Comments
     (Recommendation A.4.b). The Director concurred, advising that PFPA is
     conducting a comprehensive review of the agency's training requirements at all
     levels and then will develop a strategy to fulfill those requirements. Prior
     Recommendation A.4 has been used as a starting point for the training review.
     This is a long-term process with an estimated closure date of July 2004.


                                           18
     Evaluation Response. The management comments are generally responsive, but
     do not specifically address the oversight mechanisms that PFPA has or will
     develop to track training and ensure proper recording in training records.
     Management comments on this final report should address these areas.

     Director, Administration and Management Comments
     (Recommendation A.4.c). The Director concurred, advising that PFPA is
     conducting a comprehensive review of the agency's training requirements at all
     levels and then will develop a strategy to fulfill those requirements. Prior
     Recommendation A.4 has been used as a starting point for the training review.
     This is a long-term process with an estimated closure date of July 2004.

     Evaluation Response. The management comments do not address the primary
     issue in our recommendation. We recommended that DPS develop a
     measurement tool to ensure its new officers comprehend their authority and
     jurisdiction, including their authority to use police powers under MOUs and
     MOAs with other law enforcement organizations. The issues involved in DPS
     jurisdiction and authority are complex, and it has been apparent throughout our
     involvement with the agency that many DPS officers do not fully comprehend
     their legitimate law enforcement authority in the various, different jurisdictions in
     which they work. Furthermore, in our view, recent actions purporting to give
     DPS officers authority in the District of Columbia and the Commonwealth of
     Virginian, coupled with questionable provisions in the MOU with Arlington
     County, greatly exacerbate the difficulties already inherent in understanding a
     DPS officer’s legitimate jurisdiction and authority. We did not identify a specific
     measurement tool in our recommendation because we would prefer for PFPA to
     develop and use the one it considers most appropriate. PFPA, for example, could
     adopt a “testing program” to rate a new officer’s understanding of jurisdiction and
     authority before assignment to full duty. Whatever the mechanism adopted,
     however, we believe it essential that PFPA support its officers by ensuring that
     they fully comprehend and understand the basis for their law enforcement
     authority at individual locations where their jurisdiction and authority differ. In
     commenting on this final report, PFPA should address this area in detail.

Prior Finding B. Organization and Management
            In the prior evaluation, we did not identify specific problems in the DPS
            organizational structure. However, the DPS management control program
            for its law enforcement operations did not include needed control
            mechanisms. Additionally, DPS managers did not always adequately
            pursue issues identified through their management control program. If
            DPS managers had applied common management controls, they could
            have avoided many of the operational and management problems
            discussed in the previous report.

Prior Recommendation B.1.
     “The Chief, DPS, take action to implement and ensure compliance with DoD
     internal management control programs and requirements.”

     The Director, Administration and Management, agreed and advised that DPS was
     already implementing Recommendation B.1.


                                          19
Follow-on Evaluation Results
     DPS does not currently have a viable management control program.

     The Chief, DPS, did comply with the management control program requirements
     established by the Management Support Division, RE&F, the former parent
     organization; however, these requirements alone were not sufficient to meet DoD
     management control program requirements as directed by DoD
     Directive 5010.38, “Management Control Program,” August 26, 1996. The
     Management Support Division program requirements entailed identifying
     assessable units within subordinate directorates (including DPS) and on a
     recurring 5-year cycle, conducting vulnerability assessments within those
     assessable units. The RE&F requirement for DPS involved five assessable units.
     Additionally, each year, each Director must provide the Director, RE&F, with a
     description of management control systems within the organization as input to the
     RE&F annual statement required under the Federal Manager’s Financial Integrity
     Act (FMFIA) of 1982.
     The DPS management control program that was outlined in General
     Order 1100.20, “Internal Management Control Program,” November 19, 1991,
     would have met program requirements had it been followed. General
     Order 1100.20 required the identification of assessable units24 and the conduct of
     vulnerability assessments by unit supervisors, with oversight at the branch level,
     as well as internal management control reviews by DPS inspectors. Additionally,
     General Order 1100.20 required the Deputy Chief, Law Enforcement Services, to
     advise the Chief annually by memorandum that the management control program
     was in place and functioning as intended.25 In September 1999, the Chief, DPS,
     rescinded General Order 1100.20, after he implemented General Order 1004.03,
     “Staff Inspections”, July 19, 1999. The Chief, DPS, established General
     Order 1004.03, in response to Recommendation E.4.26 He intended to provide an
     effective management control program by conducting an increased number of
     staff inspections and by implementing a self-inspection program. To accomplish
     this, he initially increased manpower in the Inspections Section; however, he later
     had to reassign those people to meet other operational needs. As a result, both the
     management control and the staff inspection programs remain ineffective.

Follow-on Recommendation B.1.
     We recommend that the Chief, Defense Protective Service:

               a. comply with the DoD Management Control Program requirements by;

                   (1) re-establishing written management control program guidance,
     similar to that outlined in General Order 1100.20, “Internal Management Control
     Program,” November 19, 1991; and


     24
          The number of assessable units within DPS is unknown, but estimated to be more than 20.
     25
          The Deputy Chief advised that he never sent formal memoranda to the Chief, despite the
          requirement.
     26
          Among other things, we recommended that the Chief, DPS, assign additional trained personnel
          to the Inspections Section.


                                                20
                 (2) involving managers at all levels in the program;

             b. provide training for all Defense Protective Service managers regarding
     the requirements of the DoD Management Control Program, Office of
     Management and Budget Circular A-123, “Management Accountability and
     Control,” June 21, 1995, and the Government Performance and Results Act,
     103 Pub. L. –62; 107 Stat. 285, which requires agencies to develop strategic
     plans, set performance goals, and report annually on actual performance
     compared to goals.

Management Comments and Our Evaluation
     Director, Administration and Management Comments. The Director
     concurred. According to the Director, PFPA published and disseminated a
     Management Control Program (MCP) Regulation dated January 30, 2003. The
     Regulation establishes policies and procedures for administering an MCP
     program. In February 2003, PFPA provided MCP training to all senior level
     directors, deputies and AU managers. The training covered a multitude of areas
     of Management Accountability and Control including, but not limited to: OMB
     Circulars A-123, 127, 130; GAO Standards for Internal Controls; the Financial
     Manager’s Financial Integrity Act; the management control process/review; risk
     assessment; reporting and correcting deficiencies, and the Government
     Performance and Results Act. Additional training will be provided to PFPA
     managers and supervisors as part of the standup of PFPA.

     Evaluation Response. The management comments are responsive.

Prior Recommendation B.2.
     “That the Chief, DPS, adopt and implement a strategic goals program that:

        •   has a firm nexus to WHS management priorities;

        •   includes customer satisfaction as a goal or objective;

        • includes a management process for formally reviewing accomplishments
     against stated goals, based on specific measurement criteria and data collection
     methods for the measurements; and

        • identifies and prioritizes key DPS processes supporting the organization’s
     core competencies, and defining the essential data required for process
     evaluations and the method(s) used to collect the essential data.”

     The Director, Administration and Management, agreed with the recommendation.
     According to the Director, “[a] strategic goals program already exists within DPS
     and the Real Estate & Facilities Directorate. DPS plans to develop a more
     encompassing, long range strategic plan during calendar year 1999.”

Follow-on Evaluation Results
     The Chief, DPS, did not implement Recommendation B.2. In 1999, the Chief,
     DPS, developed a strategic plan; however, a DPS strategic goals program was not


                                         21
     fully implemented. DPS does not have documentation demonstrating specifically
     how the strategic plan was created, implemented, or carried out. The first
     indication that DPS was involved in some type of strategic planning process
     occurred around September 2000, when DPS was identified as the lead agency for
     one objective and two Director’s activities under the RE&F strategic plan. DPS
     was active for these elements of the RE& F strategic plan from September 2000
     through January 2002, after which all activities under this plan ceased.

     The documents that we reviewed indicate that DPS management was not involved
     in the process of reviewing, recommending, or approving the actions that were
     taking place. Also, DPS did not have documentation or a measuring system in
     place to demonstrate how well DPS was accomplishing the assigned tasks.

     A PFPA strategic plan is currently under development. The Acting Director,
     PFPA, intends to establish a PFPA planning office and to consolidate plans and
     goals from all PFPA divisions into a single PFPA strategic plan.

Follow-on Recommendation B.2.
     We recommend that the Director, Pentagon Force Protection Agency, develop an
     overarching strategic plan based on the management priorities of the Pentagon
     Force Protection Agency and the Director, Administration and Management. We
     further recommend, that the Chief, Defense Protective Service, and other
     Pentagon Force Protection Agency directorates develop and implement separate
     strategic plans that:

           a. Are based on the principles established in the Government Performance
     and Results Act and have a firm nexus to Pentagon Force Protection Agency
     management priorities.

            b. Include customer satisfaction as a goal or objective.

            c. Include a management process for formally reviewing
     accomplishments against stated goals, based on specific measurement criteria and
     data collection methods for the measurements.

            d. Identify and prioritize key processes supporting the organization’s core
     competencies, and define the essential data required for process evaluations and
     the method(s) used to collect the essential data.

Management Comments and Our Evaluation
     Director, Administration and Management Comments (Finding). According
     to the Director, our comment that DPS ceased all actions on the strategic plan
     after January 2002, appeared to disregard the major impact the September
     terrorists attack and requirement for high security had on the organization. All
     assets were then focused on the primary function, protecting the Pentagon against
     further terrorist attacks.

     Evaluation Response. We did not ignore operating impacts resulting from the
     terrorists attack. We simply stated the fact that action on the strategic plan ceased
     after January 2002. As stated earlier, however, we believe that actions on many
     of our 1999 recommendations could have been completed in the more than


                                          22
     2 years before the terrorists attack. In fact, in response to follow-up inquiries,
     DPS had reported completing actions on all of our recommendations with the
     exception of one. Our follow-up evaluation showed that was not the case.

     Director, Administration and Management Comments
     (Recommendation B.2). The Director concurred, advising that PFPA is in the
     process of accomplishing a new comprehensive strategic plan with an expected
     completion date of September 30, 2003.

     Evaluation Response. The management comments are responsive.

Prior Finding C. Personnel
     In the previous evaluation, although we identified some exceptions, overall the
     DPS pre-employment and in-service employee screening processes were adequate
     and effective, as was the overall training program. We believed that some DPS
     staff should be classified as security guards rather than as police officers, because
     they were routinely assigned to fixed posts, performed security guard functions,
     and met the Office of Personnel Management (OPM) classification standards for
     GS-085 (security guard), not GS-083 (police officer). In responding to the draft
     and final evaluation reports, the Director, Administration and Management,
     disagreed, citing numerous criteria. Although we continued to believe that our
     recommendation had substantial merit, we decided not to pursue the issue into a
     resolution process because some of the Director’s counter arguments appeared to
     have at least some merit and because DoD was not incurring higher cost from
     classifying the individuals as police officers. See Appendix C for details.

     Additionally, while recognizing that many DPS police officers and criminal
     investigators were hired without being subject to a continuing physical fitness
     requirement, DPS needed to standardize its physical fitness requirements for non-
     emergency response team police officers. We believed DPS should either
     “grandfather in” these employees or reassign them to positions that did not require
     a high degree of physical fitness.

     Finally, DPS needed to develop procedures to ensure that it dispensed discipline
     fairly and consistently and that it also distributed employee overtime assignments
     equitably.

     Our recommendations, excluding Recommendation C.1, which concerned
     reclassifying police officers as security guards, are set forth below.

Prior Recommendation C.2.
     “The Chief, DPS, with WHS support and utilizing the recent OPM review of
     Federal Protective Service positions, determine whether DPS police officers are
     properly graded based on actual duties and responsibilities for their positions.”

     The Director, Administration and Management, agreed with the recommendation.
     According to the Director, the OPM review was completed but was of little or no
     value because it invalidated GSA’s reclassification of police officer positions to
     higher pay grades. The Director advised that DPS and GSA were involved in a



                                           23
     joint study, which was to be completed by August 31, 1999, looking at viable
     ways to assure proper pay grades for their police officers.

     We accepted the Director’s comments as responsive, provided:
                   “. . . the joint study resulted in actions that both complied with OPM
                   requirements and ensured proper grades based on actual duties and
                   responsibilities for DPS positions, as we recommended.”

Follow-on Evaluation Results
     Through efforts to increase officer salaries and, thereby, alleviate officer retention
     and morale problems, the Chief, DPS, properly addressed all facets of
     Recommendation C.2, including determining whether DPS police officers were
     properly graded based on actual duties and responsibilities and ensuring that any
     action complied with OPM requirements. The process DPS used to arrive at the
     current pay scale is noteworthy, not only because it met the intent of
     Recommendation C.2, but because it demonstrates the Chief’s determination to
     increase police officer pay to a level commensurate with those of other agencies
     in the National Capital Region.

     The Chief, DPS, did not use the OPM review of Federal Protective Service, as
     originally recommended, because it did not support the efforts to increase officer
     pay. In 1999, DPS requested a wage survey27 that would compare DPS salaries
     and benefits to similar police organizations in the National Capital Region.
     Unfortunately, a comparison of duties could not be completed because numerous
     organizations (non-Federal) had incomplete or nonexistent position descriptions.
     However, salaries were compared, and it was found that DPS had the lowest
     entry-level pay and the second lowest pay for journeymen and sergeant positions.
     The study compared 17 agencies, including DPS, for the journeyman position
     while the entry-level and sergeant positions compared 14 agencies, including
     DPS. This effort led DPS to implement a 10 percent retention bonus in October
     2000. DPS then made an effort to upgrade its officers to master patrol officers
     and began conducting back-to-back training classes. This effort resulted in
     training and certifying 51 master patrol officers. Concurrently, DPS started the
     process to propose legislation that would tie DPS pay scales to the United States
     Secret Service Uniform Division and the United States Park Police. When it
     appeared that the legislation was about to pass, the former Director,
     Administration and Management, tasked a committee to examine the DPS pay
     scale. The committee met three times. The members compared position
     descriptions and pay policies from all three agencies, developed a new pay scale,
     and developed a strategy to implement the new scale. The legislation passed on
     December 28, 2001. On January 14, 2002, the committee presented its
     recommendations to the former Director, Administration and Management, who
     immediately approved the new DPS pay scale, effective January 13, 2002.

Follow-on Recommendation C.2.
     None.

     27
          The Wage and Salary Division, Defense Civilian Personnel Management Service, conducted
          the survey, which was completed in September 2000.


                                                24
Prior Recommendation C.3.
     “The Chief, DPS, take actions to standardize DPS physical fitness requirements
     for non-EST28 police officers.”

     The Director, Administration and Management, agreed with the recommendation.
     According to the Director, DPS was standardizing physical fitness requirements
     for all newly employed non-emergency services team police officers, and this
     recommendation would be fully implemented by February 1, 2000.

Follow-on Evaluation Results
     On March 31, 2002, DPS implemented a standardized physical fitness-testing
     program for prospective DPS police officers. Current position vacancy
     announcements include successful physical fitness testing as a hiring criterion.
     Within the next year, the Chief, DPS, intends to implement a sustained physical
     fitness-testing program to be administered annually for officers hired under the
     current hiring program. There is no physical fitness standard for existing non-
     ERT DPS officers. They will not be required to undergo annual fitness testing
     because the Chief, DPS, believes the testing might adversely affect morale.

Follow-on Recommendation C.3.
     We recommend that the Director, Pentagon Force Protection Agency, continue
     working with the Office of the Under Secretary of Defense (Personnel and
     Readiness) to develop standard, core-level training standards and physical fitness
     requirements for civilian police officers and security guards employed throughout
     DoD and, when completed, adopt those standards for DPS police officers and
     security guards.

Management Comments and Our Evaluation
     Director, Administration and Management Comments. In the draft report, we
     recommend that the Chief, Defense Protective Service, formalize implementation
     of the physical fitness program requirements by developing a general order within
     90 days following receipt of the final evaluation report. The Director partially
     concurred. According to the Director, PFPA developed comprehensive physical
     fitness standards, which tie physical fitness and medical standards to the job
     elements in position descriptions for police officers. The standards and proposed
     position descriptions are in staffing with WHS. Once the WHS HRSC and
     General Counsel concur, PFPA will coordinate with the FOP bargaining unit.
     When that process is completed, the new program will be initiated. This process
     is tied to many variables, but it is PFPA’s intent to execute the new program as
     soon as possible. The Director did not include an estimated completion date for
     the actions, advising that establishing an artificial “no later than date” would serve
     little purpose and might not be achievable given union bargaining requirements.

     Evaluation Response. In addition to factors mentioned in the Director’s
     comments, in response to another evaluation report,29 the Office of the Under


     28
          Emergency Services Team.


                                           25
     Secretary of Defense (Personnel and Readiness) is leading an effort to develop
     standard, core-level training standards and physical fitness requirements for
     civilian police officers and security guards employed throughout DoD.30 PFPA is
     involved in this effort. In addition, current Administration efforts to amend the
     Civil Service requirements as they pertain to DoD could impact PFPA initiatives
     in this area. One potential impact under the proposed legislation is that PFPA
     might no longer be required to address changes in physical fitness requirements
     with union bargaining units. Due to these ongoing initiatives, it would not be
     appropriate for us to continue the recommendation in the draft report, which could
     place DPS at odds with the ongoing efforts to standardize police officer and
     security guard training and physical fitness requirements throughout DoD. We,
     therefore, have amended our recommendation in the final report. In commenting
     on the final report, the Director should address comments to the amended
     recommendation.

Prior Recommendation C.4.
     “The Chief, DPS, take action to ensure that supervisors who make overtime
     assignments do so equitably.”

     The Director, Administration and Management, agreed. According to the
     Director, although General Order 1300.17 already addressed this issue, DPS was
     studying the matter and would take appropriate steps to assure equitable overtime
     assignments.

Follow-on Evaluation Results
     The Chief, DPS, has put measures in place to ensure that overtime is distributed
     equitably; however, a DPS audit and an OIG DoD investigation provide
     indications that management controls with respect to overtime pay may be
     deficient.

     The December 29, 2000, negotiated labor agreement between DPS and the
     Fraternal Order of Police, stipulates the procedures for assigning officers
     overtime. Comparing overtime data from 1997-2000 (before the new agreement)
     with data from 2001-2002 showed that overtime is now more evenly distributed.
     Based on these data and because there is currently more overtime available than
     officers to work the time, equitable overtime distribution is no longer an issue.
     The current labor agreement seems to assure that the system will remain fair after
     PFPA manning reaches its increased authorized strength.

     A DPS officer has not filed a complaint or formal grievance dealing with
     overtime since the changes. However, an audit by DPS staff inspectors in
     calendar year 2000, and a preliminary OIG DoD evaluation in 2001,31 revealed
     29
          Report No. IPO 2002E004, “Evaluation of Installation-Level Training Standards for Civilian
          Police Officers (GS-0083) and Security Guards (GS-0085) in the Department of Defense,”
          December 20, 2002.
     30
          The new DoD-wide standards for physical fitness might well not include “grandfather
          provisions” excluding current officers from the requirements.
     31
          A DCIS criminal investigation was initiated based on information developed during the
          evaluation. Because the investigation limited the work that could be done on the evaluation,
          the evaluation was discontinued without a report being published.


                                                 26
     that DPS did not properly account for overtime hours worked. DPS inspectors
     uncovered numerous incidents, especially within the Special Operations Division,
     in which data from the daily detail sheets did not match data on the official time
     sheets. Although tasked by the Deputy Chief, the Commander, Operations
     Services Branch, did not respond with the results of corrective actions
     implemented in response to the aforementioned audit. The preliminary OIG DoD
     evaluation identified suspected improprieties. A subsequent DCIS and FBI joint
     criminal investigation led to a DPS employee being convicted for receiving
     $40,000 in fraudulent overtime pay.

Follow-on Recommendation C.4.
     We recommend that the Chief, Defense Protective Service:

            a. Revise and update General Order 2300.24, “Overtime Procedures,”
     November 30, 1994, to coincide with the December 29, 2000, union agreement
     regarding allocation of overtime hours.
             b. Provide recurring training to administrative duty officers and
     supervisors regarding their responsibilities to record overtime hours worked on
     daily detail sheets and employee time sheets, respectively.

            c. Implement a system of effective management controls as required by
     the Federal Manager’s Financial Integrity Act of 1982, to ensure that all overtime
     hours worked are accurately recorded.

             d. Direct that all managers promptly evaluate and determine proper
     actions in response to known deficiencies, reported audit and other findings, and
     related recommendations.

Management Comments and Our Evaluation
     Director, Administration and Management Comments
     (Recommendation C.4.a). The Director concurred, advising that GO 2300.24,
     “Overtime Procedures,” was being updated based on the union agreement
     provisions regarding allocation of overtime hours. Additionally, an SOP was
     being created, as well as an “Acknowledgement of Responsibilities” form that
     timekeepers would be required to sign (estimated completion date August 31,
     2003).

     Evaluation Response. The management comments are responsive.

     PFPA Comments (Recommendation C.4.b). The Director concurred.
     According to the Director, PPD timekeepers and first-line supervisors have been
     trained on responsibilities for recording overtime and filling out timesheets, and
     all new supervisors are trained on these responsibilities.

     Evaluation Response. The management comments are responsive.

     Director, Administration and Management Comments
     (Recommendation C.4.c). The Director concurred, advising that a new PFPA
     Time and Attendance Regulation was created to set up policies and procedures for
     all PFPA. Responsible personnel have been briefed and trained on the Regulation


                                          27
     and procedures. An IMC32 Assessable Unit manager was also appointed to
     monitor all timesheets and ensure that they are accurate and include proper
     documentation.

     Evaluation Response. The management comments are responsive.

Prior Recommendation C.5.
     “The Chief, DPS, take action to revise the current policy for internal affairs
     investigations, requiring direct internal affairs reporting to the Chief, DPS, and an
     alternative reporting mechanism, such as to the Director, RE&F, WHS, when
     internal affairs allegations involve the Chief, DPS.”

     Management Comments. The Director, Administration and Management,
     agreed. The Director advised that DPS was modifying General Order 1100.25, in
     this regard and would complete the review by March 31, 1999.

Follow-on Evaluation Results
     The Chief, DPS, incorporated the recommended changes into DPS General
     Order 1100.25, “Internal Affairs Investigations,” May 7, 1999; by requiring direct
     internal affairs reporting to the Chief, DPS, (through the Deputy Chief), and an
     alternative reporting to the Director, Real Estate and Facilities, WHS, when
     internal affairs allegations involve the Chief and/or Deputy Chief, DPS.
     However, General Order 1100.25 was replaced by PFPA General Order 9000.02,
     “Internal Affairs Investigations,” December 17, 2001, which does not include the
     recommended changes.

Follow-on Recommendation C.5.
     We recommend that the Director, Pentagon Force Protection Agency, revise the
     current policy for internal affairs investigations, to require direct internal affairs
     reporting to the Director, Pentagon Force Protection Agency.

Management Comments and Our Evaluation
     Director, Administration and Management Comments
     (Recommendation C.5). The Director concurred. The Director advised that,
     under the new PFPA organizational structure, the Director of Criminal
     Investigations and Internal Affairs reports directly to the Director, PFPA.

     Evaluation Response. The management comments are responsive. In
     commenting on the final report, the Director should provide a copy of the final,
     approved PFPA organizational structure.

Prior Recommendation C.6.
     “The Chief, DPS, take action to revise General Order 1300.10 to identify
     specifically the types of community relations events that the honor guard may

     32
          Internal Management Controls


                                            28
     support, and requiring these events to be selected in accordance with Federal law
     and DoD policy. General Order 1300.10 should set forth specific criteria for
     selecting and training team members, approving their participation in community
     events, and for funding participation. The policy should also include a follow-up
     reporting process that documents participation, costs, and the actual or anticipated
     Government benefits derived from the participation.”

     The Director, Administration and Management, agreed with the recommendation
     and advised that DPS would implement required changes immediately.

Follow-on Evaluation Results
     The Chief, DPS, published General Order 3076.02, “Utilization of the Ceremonial
     Unit,” May 1, 2000. As recommended, General Order 3076.02 identifies the
     types of community relation events the unit may support and sets forth specific
     criteria for selecting and training team members; approving their participation;
     and funding the participation. The policy establishes the requirement to document
     participation in events within 7 days following an event to the Commander,
     Special Operations Division; however, General Order 3076.02 does not require
     the after-action report to contain the nature of the event, the costs, or the actual or
     anticipated Government benefits derived from the participation.

     Although the Chief, DPS, revised General Order 3076.02 regarding use of the
     ceremonial unit and provided a copy to OIG DoD Audit Followup to satisfy
     follow-up reporting requirements, he did not disseminate General Order 3076.02
     to the Deputy Chief, the officer in charge, or the supervisory sergeant in charge of
     the ceremonial unit. Therefore, after action reports were not prepared.

     After learning of the requirement to prepare after action reports, as a result of our
     follow-on evaluation, the Deputy Chief, DPS, provided a historical compilation of
     events that the ceremonial team supported from March 2000 to June 2002. A
     review of this information indicates that the events aligned with the types of
     events the honor guard may legally support. The report did not include the costs
     or benefits derived.

Follow-on Recommendation C.6.
     We recommend that the Director, Pentagon Force Protection Agency:

             a. revise General Order 3076.02, “Utilization of the Ceremonial Unit,”
     May 1, 2000, to require after-action reports that contain the nature of the event,
     the costs, and the actual or anticipated Government benefits derived from the
     participation; and

             b. through a system of management controls, require that general orders
     are disseminated throughout the department and that affected work units comply
     with the requirements outlined therein.




                                           29
Management Comments and Our Evaluation
     Director, Administration and Management Comments
     (Recommendation C.5.a). The Director concurred, advising that the action
     would be accomplished not later than August 31, 2003.

     Evaluation Response. The management comments are responsive.

     Director, Administration and Management Comments
     (Recommendation C.5.b). The Director concurred and advised that a complete
     review of all General Orders would begin in July 2003. The revised products will
     be posted to the PFPA Intranet and paper copies are already available to the PPD.
     General Orders are to be followed by personnel in the affected work units and
     they are required to comply. Failure to comply becomes a supervisory issue for
     necessary reemphasis or disciplinary action.

     Evaluation Response. The management comments are responsive.

Prior Finding D. Operations
     Our previous evaluation of DPS law enforcement operations, including patrol,
     traffic, and fixed post operations; criminal investigations; and special operations,
     identified serious operational and management problems, some spanning all
     operational categories, and others isolated to a particular category or categories.
     Specifically, DPS had problems in weapons accountability and firearms
     qualification. We also noted deficiencies in protecting and preserving evidence
     and with oversight of confidential funds.

     DPS policies and procedures for criminal investigations were not completely
     effective, and the program was not subject to effective management oversight. As
     a result, the DPS Criminal Investigation Section did not produce results
     commensurate with its workload.

Prior Recommendation D.1.
     “The Chief, DPS, take action to expand the agency’s general orders to include
     policies and procedures for:
         • all DPS weapons, including specialized weapons not specifically assigned
     to individual officers, and specifically addressing the carrying of personal
     weapons on and off DoD properties in the National Capital Region; and

         • handling Grand Jury information, including specific procedures for
     receiving, processing, safeguarding and disposing of such information in
     accordance with the protection accorded Grand Jury information under Rule 6(e)
     of the Federal Rules of Criminal Procedure.”

     The Director, Administration and Management, agreed with the recommendation.
     The Director advised that the work dealing with DPS weapons was ongoing and
     would be completed by June 30, 1999. The portion dealing with Grand Jury
     information would be completed by October 31, 1999.



                                          30
Follow-on Evaluation Results
     In response to this recommendation, the Chief, DPS, published DPS General
     Order 1100.31,”Personal Weapons,” July 1, 1999, which prohibits carrying
     personal weapons onto the Pentagon Reservation.

     For details, regarding expansion of the agency’s general orders to include policies
     and procedures for specialized weapons not specifically assigned to individual
     officers, see the results of Recommendations D.2.

     The handling of Grand Jury evidence and information is now addressed in
     General Order 5061.01, “Evidence Management,” May 5, 2000; however, the
     procedures do not address the requirement to obtain a Rule 6(e) access letter from
     the Assistant United States Attorney before receiving grand jury evidence or
     information.

Follow-on Recommendation D.1.
     We recommend that the Director, Pentagon Force Protection Agency, revise
     General Order 5061.01, “Evidence Management,” May 5, 2000, to require that the
     evidence custodian obtain a Rule 6(e) access letter prior to receiving Grand Jury
     information and evidence.

Management Comments and Our Evaluation
     Director, Administration and Management Comments. The Director
     concurred, advising that the action should be completed by August 31, 2003.

     Evaluation Response. The management comments are responsive.

Prior Recommendation D.2.
     “The Chief, DPS, in concert with the WHS Property Management Branch, take
     action to standardize the accountability process for DPS weapons to conform to
     DoD policy. This effort should include an aggressive, thorough investigation to
     determine the total weapons for which DPS is accountable and the circumstances
     surrounding each missing or otherwise unaccounted weapon.”

     The Director, Administration and Management, agreed with the recommendation.
     According to the Director, the investigation that we recommended “has been
     completed and there are no missing or unaccounted weapons.” Further, the
     inventory that was completed when the original handguns and shotguns were
     transferred from General Services Administration (GSA) was faulty, but “there is
     currently an accurate inventory listing and the OSD Property Management Office
     verifies the inventory annually.”

Follow-on Evaluation Results
     In examining DPS efforts at implementing Recommendation D.2, and considering
     Senator Grassley’s interests in weapons accountability and the use of DPS
     weapons in crimes, we discovered violations of DoD Directive 5210.56, “Use of
     Deadly Force and the Carrying of Firearms by DoD Personnel Engaged in Law


                                         31
Enforcement and Security Duties,” November 1, 2001, including: DPS officers
do not store their weapons as required; and, the Chief, DPS, allowed a Service
member assigned to DPS to carry a private weapon for personal protection. These
issues are fully addressed in Part III, “Other Problem Areas,” of this report.

We conducted a 100 percent physical (hands-on) inventory and performed a
records reconciliation that accounted for all 640 current PFPA weapons.33
However, there were numerous problems with the PFPA weapons management
process, including the following:

    • Some DPS arms storage facilities did not meet the requirements of DoD
Manual 5100.76-M, “Physical Security of Sensitive Conventional Arms,
Ammunition, and Explosives,” August 12, 2000, and DoD Standard 6055.9-STD,
“Ammunition and Explosives Safety Standards,” July 1999, with regard to
restricted area warnings, use of access rosters, and posting of firefighting
symbols.

    • Three inoperable weapons were not marked or recorded as unserviceable,
and there was no effort to fix them, as required by WHS Administrative
Instruction 94, “Personal Property Management and Accountability,”
November 6, 1996, paragraph 6.4.1, which states, “The custodial (sic) and/or
subcustodian must ensure that all property assigned to the custodial area is in
serviceable condition and available for use.”

   • Three ceremonial rifles were leaning against the wall of the Remote
Delivery Facility arms room and were not secured in a weapons rack or metal
container as required by DoD Manual 5100.76-M, paragraph C.4.2.2.

   • On May 24, 2002, the clearing barrel at the Protective Services Unit (PSU)
was full of papers and rags, and in violation of General Order 1500.7, “Weapons
Accountability,” July 16, 1999, an officer stored his firearm34 loaded in the safe
while he was exercising.

    • The Smith and Wesson .38 and .357 caliber handguns that DPS turned in
to WHS Property Management Branch (PM) in April 2002 have not been
accounted for monthly, and when we conducted the 100 percent inventory, WHS
PM spent more than 20 minutes searching their vault before finding the weapons
in a cardboard box.

    • Reporting the status of DPS weapons to the DoD Small Arms Registry
(DoD Registry), via the Defense Property Accountability System (DPAS), is
faulty. The DoD Registry confirmed that DPS and WHS PM made numerous
mistakes for weapon turn-in with respect to proper documentation, weapon
nomenclature, national stock numbers, and military control numbers. This led to
the Fort Belvoir Serialization Officer and Anniston Army Depot reporting the
same weapons to the DoD Registry as being on-hand when they were actually at

33
     As discussed later, our efforts did not locate or account for six missing weapons, not on the
     current inventory that were not properly removed from the inventory prior to this follow-on
     evaluation. Once PFPA completes recommended actions with respect to these weapons, its
     inventory records will be as accurate as is currently possible for future weapons control and
     accounting.
34
     Sig Sauer, model P228, serial number B298435.


                                             32
Anniston Army Depot. DPS, in concert with the WHS PM, should continue the
reconciliation process with the Fort Belvoir Serialization Officer. They should
also work with DPAS personnel to ensure that the PFPA data system is properly
connected with DPAS for future entries.

    • Weapon procurement practices do not align with DoD Manual 5100.76-M,
paragraph C5.3.1.35 WHS PM and DPS do not have written guidance regarding
authorization documents, such as a “table of distribution and allowances,” that
specifies the types and quantities of weapons they are authorized.

    • DPS efforts to account for 12 weapons that had been listed as lost or stolen
since 1996 did not comport with DoD Manual 5100.76-M, paragraph C5.5, and
DoD Regulation 7000.14-R, “Financial Management Regulation,” April 1998,
volume 12, chapter 7.36 Four of these weapons are the Smith and Wesson
revolvers that we recommended DPS aggressively and thoroughly investigate to
determine the total weapons for which DPS was accountable and to determine the
circumstances surrounding each missing or otherwise unaccounted weapon.37
Contrary to management’s comments in response to our 1999 report, the
investigation was not completed as reported, and the four missing weapons
remain unaccounted.

    • Our review of five weapon theft investigations38 that were conducted by
the PFPA Criminal Investigation and Internal Affairs Directorate (CI/IAD)
revealed:

       - Three weapon thefts occurred since we published the previous
evaluation report in May 1999. In two instances, the DPS officer or investigator
was outside DPS jurisdiction and the weapons were not stored in accordance with
DoD policy. The third weapon was stolen from the DPS logistics section where
numerous unassigned weapons were stored in a manner that did not meet the
requirements for arms storage established by DoD Manual 5100.76-M.39




35
     “[t]he DoD Components shall establish procedures for item managers to ensure the adequacy
     of requisition verification of Category II-IV arms.”
36
     Six of these 12 weapons have been recovered and are back under Government control. Two
     other weapons (Beretta handguns) have been identified as stolen and have not been recovered.
37
     There were actually seven missing weapons, of which five were Smith and Wesson revolvers
     that we recommended DPS investigate in 1999. One .357 caliber, serial number D787912, was
     found in March 2002 in the DPS operations arms room in a drawer of a desk that was being
     moved to facilitate renovation. The investigation of this weapon did not meet requirements.
     The weapon’s loss was discovered in October 1996, but the DD Form 200, “Financial Liability
     Investigation of Property Loss,” was not initiated until December 1997, and reflects, “[i]tem
     does not exist due to transposition of ID numbers during inventory.” Additionally, according
     to a memorandum by the Commander, Support Services Branch, the Bureau of Alcohol,
     Tobacco, and Firearms reported this weapon as never being in the possession of the Federal
     Government. Furthermore, loss of this weapon was never entered into NCIC as required.
38
     These included case control numbers 97-1900; IA004-99; IA008-99; IA014-99; and IA010-
     2001.
39
     DPS management later moved the remaining unassigned weapons to a suitable arms storage
     facility.


                                            33
        - The investigative steps undertaken to resolve these thefts did not
comport with accepted standards for conducting criminal investigations.40 In
general, the investigations did not contain investigative plans; supervisory
guidance if provided was not documented; investigative efforts were not timely or
thorough; and reports of investigation or interim reports of investigation were not
well written and some were completed several months after the last pertinent
investigative step was taken.

        - Of the five cases reviewed, four were designated as internal affairs
(IA) cases; however, there was no documentation to indicate the cases were
initiated with the approval of the Chief, DPS, or his designee, as required by
General Order 1100.25, “Internal Affairs Investigations,” May 7, 1999, and
General Order 9000.02, “Internal Affairs Investigations,” December 17, 2001.

        - In two cases, the DPS law enforcement officers whose assigned
weapons were stolen were not properly listed in the internal affairs reports of
investigation. In case IA 010-2001, the suspect of the weapon theft was a civilian
and the officer whose weapon was stolen was categorized as a witness. Yet, the
officer was given a letter of warning because he did not properly secure the
weapon, and because of his association with a person of questionable character.
In case IA 008-99, an investigator whose assigned weapon was stolen was
categorized as a victim. He was given a letter of “caution and requirement” for
not properly securing his assigned weapon and not remaining armed while
performing duties as the on-call duty investigator. If the purpose of initiating
these two internal affairs investigations was to investigate possible misconduct by
the DPS law enforcement officer, and they later received corrective letters
because misconduct was substantiated, they should have been listed as suspects or
subjects in the respective internal affairs reports of investigation. In case IA 014-
99, the weapons custodian was found to have committed three administrative
violations, yet the person’s report status was listed as “other.”41

         - Disciplinary action noted during the reviews did not align with the
suggested disciplinary action established by WHS Administrative Instruction 8,
“Disciplinary and Adverse Actions,” August 17, 1981. Enclosure 2, “Guide to
Disciplinary Actions,” suggested discipline for the offense, “[u]nauthorized
possession of, use of, loss of, damage to, or willful destruction of Government
property, records, or information,” as ranging from a reprimand to removal from
employment for the first offense. In case IA 008-99, the investigator received a
“letter of caution and requirement.” In case IA 014-2001, the officer was given a
letter of warning.42Case number IA008-99 involved the theft (in September 1999)
of a CI/IAD investigator’s assigned weapon from his privately owned vehicle.
The IA supervisor conducted the investigation. We believe the Chief, DPS,


40
     President’s Council on Integrity and Efficiency, Executive Council on Integrity and Efficiency,
     “Quality Standards for Investigations,” September 1997
41
     To avoid confusion, in some instances it may be advisable to initiate both a criminal
     investigation (to concentrate on investigating the theft and recovering the weapon), and a
     separate internal affairs case to investigate administrative shortcomings or misconduct by DPS
     officers that contributed to the theft.
42
     On January 9, 2003 the Acting Director, PFPA, advised that this officer has since been
     dismissed from DPS. We determined that following the theft incident the officer was involved
     in subsequent misconduct.


                                            34
     should have assigned responsibility for this investigation outside the CI/IAD to
     avoid the appearance of a conflict of interest.

             - Most DD Forms 200, “Financial Liability Investigation of Property
     Loss,” were completed beyond the 30-day requirement, and when the block
     indicating “Negligence or Abuse Evident or Suspected,” was marked, “yes,” no
     financial accountability officer was assigned, and no one was held financially
     liable.

             - The MOU between the Director, WHS, and the Director, DCIS,
     effective March 30, 2001, requires that DPS investigators notify the DCIS Mid-
     Atlantic Field Office in the event of any reported theft or attempted theft of
     Government-owned weapons or ammunition. Our review of the DPS
     investigation of the November 15, 2001, theft of a DPS officer’s weapon from his
     residence did not reveal any indication that DCIS was notified as required.

         • The inventory process DPS and WHS PM uses for receiving new weapons
     is not the same as that dictated by DPS General Order 1500.7, “Weapons
     Accountability,” July 9, 1999. Even though we noted confusion concerning the
     exact procedures, it appears that a DPS and WHS PM joint inventory of newly
     acquired weapons is the norm; however, the primary custodian does not sign for
     newly acquired weapons until the next scheduled quarterly inventory. General
     Order 1500.7 also needs to address how quarterly inventories will be conducted to
     include specific wording that the “serial number” on the weapon must be
     physically examined. Lastly, General Order 1500.7 should specify who is
     responsible for entry and verification of newly acquired weapons into DPAS.

     See Appendix C for details.

Follow-on Recommendations D.2.
     We recommend that:

        a. The Director, Administration and Management:

           (1) Establish a recurring program to ensure that individuals responsible for
     weapons accountability are aware of their responsibilities as established by DoD
     Manual 5100.76-M, “Physical Security of Sensitive Conventional Arms,
     Ammunition, and Explosives,” August 12, 2000.

             (2) Establish procedures to ensure that Washington Headquarters Services,
     Property Management Branch, accurately and timely reports the Pentagon Force
     Protection Agency weapon inventory to the DoD Registry, as required by DoD
     Manual 4000.25-2-M, “Defense Logistics Management System,” September 19,
     2001, chapter C12, via the Defense Property Accountability System.

            (3) Take immediate steps to secure properly the excess Smith and Wesson
     .357 and .38 caliber weapons and turn them into the Anniston Army Depot.

             (4) Comply with DoD Manual 5100.76-M, DoD Manual 4000.25-2-M,
     and Army Regulation 710-3, “Asset and Transaction Reporting System,”
     March 31, 1998, by issuing guidance regarding the procurement of weapons. In
     particular, develop weapon procurement procedures that include steps for


                                         35
rejecting excess and unauthorized requisitions, and to require oversight,
verification of weapon shipments, Defense Property Accountability System data
entry, and custodian signature upon receipt.

   b. The Director, Pentagon Force Protection Agency:

        (1) Reopen the investigations into four missing revolvers and complete all
investigative leads involving the two stolen Beretta handguns. The investigations
should be conducted in accordance with DoD Manual 5100.76-M, paragraph C5.5
and DoD Regulation 7000.14-R, “Financial Management Regulation,” volume 12,
chapter 7 (emphasizing the proper completion of DD Forms 200, “Financial
Liability Investigation of Property Loss”). Furthermore, in accordance with DoD
Manual 5100.76-M, paragraph C7.6.3, ensure the local Federal Bureau of
Investigation field office and local law enforcement agencies, as appropriate, are
provided information pertaining to stolen weapons.

        (2) Comply with DoD Manual 5100.76-M, paragraph C7.5, by furnishing
the results of all stolen weapon investigations, as well as those of recovered
weapons, to the Director of Security, Office of the Assistant Secretary of Defense,
Command, Communications, Control, and Intelligence, Deputy Assistant
Secretary of Defense (Security and Intelligence Operations), (OASD (C3I),
DASD (S&IO)). Reports should include an analysis of the theft as well as actions
taken to prevent future incidents and should be presented at the next Physical
Security Review Board.

       (3) Inspect all arms storage facilities to ensure compliance with DoD
Manual 5100.76-M and DoD Standard 6055.9-STD, “Ammunition and
Explosives Safety Standards,” July 1999, giving particular attention to
requirements for restricted areas, use of access rosters, posting of firefighting
symbols, and ensuring the physical security of all weapons.

        (4) Revise General Order 1500.7, “Weapons Accountability,” July 16,
1999, in compliance with DoD Manual 5100.76-M, paragraph C5.3.2.1, regarding
quarterly inventory procedures that include serial number examination.

       (5) Develop procedures to ensure that all weapons are serviceable as
required by WHS Administrative Instruction 94, “Personal Property Management
and Accountability,” November 6, 1996.

       (6) During training, emphasize weapon safety and firearms storage
requirements to all Pentagon Force Protection Agency personnel.

        (7) Establish policy requiring that all investigators apply the “Quality
Standards for Investigations,” established by the President’s Council on Integrity
and Efficiency, and ensure that all investigations, including weapon theft
investigations, are properly planned, executed, supervised, and reported.

       (8) Through a system of management controls, ensure that:

            (a) All internal affairs investigations are properly initiated by the
Director, Pentagon Force Protection Agency, or the Chief, Defense Protective
Service, or his designee, and are unbiased and objective.




                                      36
                (b) In all instances involving the loss or theft of a Defense Protective
     Service weapon, a financial liability investigations of property loss is completed
     as required by Washington Headquarters Services Administrative Instruction 94,
     “Personal Property Management and Accountability,” November 6, 1996, and
     DoD Regulation 7000.14-R, “DoD Financial Management Regulation,” April
     1998, volume 12, chapter 7.

                 (c) Pentagon Force Protection Agency and Defense Protective Service
     supervisors comply with Administrative Instruction 8, “Disciplinary and Adverse
     Actions,” August 17, 1981, Enclosure 2, in all instances where disciplinary action
     is required.

                (d) The Defense Criminal Investigative Service is notified in all thefts
     or attempted thefts of Government-owned weapons or ammunition as required by
     the memorandum of understanding.

Management Comments and Our Evaluation
     Director, Administration and Management Comments
     (Recommendation D.2.a.1). The Director concurred, advising that PFPA had
     conducted the required training and was incorporating it into its annual training
     program.

     Evaluation Response. The management comments are responsive.

     Director, Administration and Management Comments
     (Recommendation D.2.a.2). The Director concurred, advising that PFPA, in
     conjunction with Washington Headquarters Services, was working to assume full
     accountability for and reporting of its weapons. As a former element of WHS,
     PFPA’s weapons are currently on its property books and under the WHS account
     in the Defense Property Accounting System (DPAS). WHS and PFPA have
     reconciled the current PFPA inventory and corrected all discrepancies between
     the WHS DPAS records and the component registry. The DPAS software now
     electronically updates the registry on a monthly or quarterly basis.

     As part of the PFPA standup process, PFPA has established its own property book
     and will be using DPAS as its electronic system of record. All current data within
     the WHS DPAS system will be electronically transferred, via the mainframe
     computer at the DFAS facility in Columbus Ohio, to the PFPA database. This
     will ensure data integrity within the property book and the component registry.

     The PFPA logistics staff is developing the following: property management
     policy and procedures; physical inventory requirements; reports of survey; outside
     organization reporting procedures; and excess property disposition instructions.
     These procedures will include all necessary steps to ensure physical inventories of
     all firearms are completed and reported to the registry on a scheduled basis.

     The following are the estimated completion dates:

     July 30, 2003: Publish PFPA Property Accountability Instructions

     August 31, 2003: Transfer weapons inventory and full responsibility to PFPA



                                          37
     Evaluation Response. The management comments are responsive.

     Director, Administration and Management Comments
     (Recommendation D.2.a.3). The Director concurred. According to the Director,
     the Smith and Wesson .357 and .38 caliber weapons are properly secured, under
     the control of, and reported to the registry by the Washington Headquarters
     Services Property Management Branch. PFPA is working with WHS to establish
     a turn-in schedule for these weapons.

     Evaluation Response. The management comments are responsive.

Prior Recommendation D.3.
     “The Chief, DPS, take action to establish management processes and monitoring
     systems as necessary to prevent lapses in DPS officer firearm qualification testing
     and preclude firearms access to those officers who do not qualify or who are
     otherwise barred from carrying a weapon.”
     The Director, Administration and Management, agreed and advised that
     procedures existed, all officers qualified with their weapons twice annually, and
     weapons were not issued to officers who did not qualify.

     We accepted the comments as generally responsive, but pointed out that these
     procedures existed at the time of our fieldwork, but they were not being fully
     enforced and DPS did not have a monitoring system to aid enforcement. We also
     pointed out that DPS management would benefit from a monitoring system to
     permit ready determinations of dates on which officers (1) last qualified to carry a
     weapon, (2) must re-qualify to maintain weapon carrying status, and (3) when
     appropriate, were denied weapon carrying status because they did not meet
     requalification requirements or another condition warranting withholding a
     weapon from the officer. We asked the Director to address the monitoring issue
     or describe other actions completed since our fieldwork, to preclude the types of
     enforcement lapses we had identified.

     The DPS response to Audit Followup indicated:
                “One individual is responsible for ensuring that there are no lapses in
                DPS officer firearm qualifications and for denying access to firearms to
                those officers who do not qualify. The Branch commander has
                reviewed the procedures with this individual. All officer records for
                firearms training are up to date and proper procedures are being
                followed.”

Follow-on Evaluation Results
     The mechanism to track weapons qualifications still needs improvement. In
     particular, five violations of DoD Directive 5210.56, paragraph E1.1.4 need to be
     addressed: three unqualified PFPA personnel were found to be carrying firearms
     on duty (one of which was detected and corrected by PFPA prior to this review);
     the Chief, DPS, had direct access to a weapon, but had not qualified; and another
     officer, who had custody of his weapon, was on extended leave out of the area
     when his qualification lapsed.



                                              38
As for specialized weapons qualifications, DPS had extreme difficulty getting
officers to the classroom and to the firing range, because of manning requirements
both before and after the September 11, 2001, terrorists’ attack on the Pentagon.
This situation has hampered DPS’ ability to perform its mission in the event of
increased force protection conditions. On September 11, 2001, when the
terrorists’ attack occurred, DPS had only one officer from the DPS Operations
Services Branch qualified on the MP5 submachine gun. From September 13,
2001, to January 25, 2002, DPS manned numerous posts with officers armed with
MP5 submachine guns, which they were not qualified to carry.

The lack of specialized weapons qualifications was also found with the firing
instructors who did not fire for instructor qualification on a yearly basis. As a
result, there currently is no method, such as a qualification roster or a weapons
card, to ensure that people are actually qualified before being issued an MP5
submachine gun.43 DoD level guidance does not address initial and continuing
certification standards for firearms instructors.

Specialized weapon qualification and tracking were also problems for the DPS
Special Operations Branch. The DPS training officer did not track specialized
weapon qualifications for ERT or PSU. These sections conducted their own
weapons training. The training officer did not know what course of fire they
used. ERT uses the same course of fire as the rest of DPS, but PSU developed its
own course of fire, with no record of approval by the training officer. We also
identified three PSU officers who had not qualified on the MP5 submachine gun,
one of whom had an MP5 stored in his assigned safe.

Although DPS currently has a “do not carry list” that identifies officers who are
unqualified or on light-duty, DPS has not established formal procedures to
maintain the list. Discrepancies existed on the do not carry list that were caused
by problems associated with maintaining the qualification database. Some
officers were told that they needed to qualify when they already had qualified;
one officer was placed on the “do not carry list,” even though he was qualified;
and two unqualified officers44 were not placed on the list when they should have
been. Additionally, the DPS training officer was unaware that the general order
on semi-annual qualifications had been revised in October 2000, eliminating the
exception for majors and above to qualify annually, rather than semiannually. As
a result, the Commander, Operations Services Branch, did not qualify and was not
placed on the “do not carry list.” We believe that responsibility for maintaining
the weapons qualifications database should rest with firing range personnel. They
appear to be best resourced to accomplish timely and accurate database
maintenance. The training officer should emphasis requirements to the officers
and ensure they maintain their weapon qualifications. An on-line database would
assist management in providing the necessary oversight.


43
     DoDD 5210.56, E1.1.5 states, “Procedures shall be established to ensure that any individual
     being issued a firearm has written authorization in effect before the actual issuance of the
     weapon.” Furthermore, E1.1.4 states, “...all authorizations to carry firearms by personnel shall
     be in writing, signed by the appropriate authorizing official, and issued only to personnel who
     satisfactorily have completed qualification training, proficiency testing, and use of deadly
     force training within the preceding 12 months.”
44
     One of these officers was a Reservist called to active duty, and did not have immediate access
     to DPS weapons.


                                             39
     PFPA has no policy guidance on adding personnel, who for various reasons are
     not suited to carry firearms, to the “do not carry list.” This became evident when
     DPS management allowed an officer to continue to bear firearms after numerous
     incidents of misconduct that led to the initiation of an adverse personnel action to
     terminate his employment. No DoD policy exists regarding suitability to carry
     firearms based on conduct, physical capabilities, or mental or emotional factors.

     Additionally, DPS general orders and standard operating procedures lack
     guidance in other issue areas, including:

         • Arming, use of force, and weapon qualification procedures for the Service
     members and civilian security specialist that the Chief has authorized to bear
     firearms.

        • Ensuring people are qualified and have a need to be armed before a
     weapon is issued.

        •   Annual use of force training for specialized weapons.

        •   Post-certification training requirements for firearm instructors.

     Finally, on October 30, 2001, the Deputy Chief, Security Services Division,
     signed an authorization letter, in which 10 of the 25 people authorized to carry
     firearms, including the Deputy Chief, had not qualified. As a result of the
     September 11, 2001, terrorists attack on the Pentagon, the Chief, DPS, delegated
     arming authority, as dictated by DoD Directive 5210.56, “Use of Deadly Force
     and the Carrying of Firearms by DoD Personnel Engaged in Law Enforcement
     and Security Duties,” to the Deputy Chief, Security Services Division.

Follow-on Recommendation D.3.
     a. We recommend that the Under Secretary of Defense for Intelligence develop:

         (1) policy and procedure that preclude arming DoD personnel determined to
     be unsuitable because of physical, medical, mental health, or performance related
     reasons; and

         (2) minimum standards for training, certification, and qualification of firearm
     instructors.

     b. We recommend that the Director, Pentagon Force Protection Agency:

         (1) establish policy requiring all personnel who do not qualify, including
     activated Reserve members, to be placed on the “do not carry list” and, while
     protecting the privacy of the people on the list, ensure this list is available to
     personnel responsible for issuing weapons and developing duty rosters;

        (2) comply with DoD Directive 5210.56, “Use of Deadly Force and the
     Carrying of Firearms by DoD Personnel Engaged in Law Enforcement and
     Security Duties,” November 1, 2001, paragraph E1.1.4, to ensure that only
     qualified personnel are authorized to bear firearms;




                                           40
         (3) authorize only qualified personnel to bear firearms, and ensure that
     authorization letters have expiration dates;

         (4) revise the general orders dealing with arming, use of force, and weapon
     qualification to include Service members, security specialists, and other personnel
     that the Director, Pentagon Force Protection Agency, deems necessary to bear
     arms, including procedures to verify currency of qualifications and the need to
     bear arms before weapon issuance;

        (5) develop policy guidance and training on use of force continuum for
     specialized weapons;

        (6) formalize weapon courses of fire, and provide oversight to ensure that all
     Pentagon Force Protection Agency elements use only approved courses of fire for
     specialized weapons qualification;

        (7) formalize procedures for the “do not carry list”;

         (8) examine the process of scheduling Pentagon Force Protection Agency
     personnel for weapon qualification training to eliminate inadvertent qualification
     lapses--a weapons qualification schedule developed by the training section
     working in concert with operations, and posted well in advance, should facilitate
     the process;

        (9) streamline the process for maintaining the weapons qualification database;

         (10) revise procedures for tracking special weapons qualification,
     expeditiously train an adequate number of officers to staff posts for
     contingency/crisis situations, and continually monitor the number of qualified
     officers to ensure they remain mission capable; and

         (11) maintain qualification rosters for all weapons, including specialized
     weapons, in the arms room to facilitate issuance of weapons to qualified
     personnel only, especially when responding to increased force protection
     conditions.

Management Comments and Our Evaluation
     USDI Comments (Recommendation D.3.a). The USDI concurred and advised
     that necessary policy would be developed for inclusion in DoDD 5210.56. The
     expected publication date was August 30, 2003.

     Evaluation Response: The management comments are responsive.

     Director, Administration and Management Comments
     (Recommendation D.3.b.1). The Director concurred, advising that PFPA will
     incorporate policy for placing personnel who do not qualify with their PFPA
     weapon on a “do not carry list” in GO 1005.03, “Semi-Annual Weapons
     Qualification.” This will include identifying the proper personnel who will be
     allowed to have access to the list. Additionally, an SOP will be developed that
     includes specific procedures for maintaining this list. These documents and
     procedures will be updated, established and implemented by August 31, 2003.



                                          41
Evaluation Response. The management comments are responsive.

Director, Administration and Management Comments
(Recommendation D.3.b.2). The Director concurred and advised that all PFPA
employees authorized to carry a firearm are now qualified on that firearm.

Evaluation Response. The management comments are responsive.

Director, Administration and Management Comments
(Recommendation D.3.b.3). The Director concurred in part. The Director
agreed that authorization letters should be issued to qualified personnel, but did
not agree with the expiration date requirement, claiming that it would place a
logistical and administrative burden on the branch. According to the Director,
Pentagon police officers qualify twice annually with their issued handguns and
quarterly with the sub-machine gun, and it would be more beneficial to pull a few
individual’s letters if they failed to qualify and reissue to them on a case by case
basis rather issuing approximately 600 letters 6 times a year.

Evaluation Response. We appreciate the Director’s desire to limit the
administrative burden involved in issuing authorization letters. However, we
have no basis to assume that PFPA management controls would operate
effectively to ensure only qualified personnel are armed. The reality is that DPS’
controls have not been effective in precluding unqualified personnel from being
armed. The situation was serious during our initial evaluation and continued
3 years later during our follow-on evaluation. In our view, the potential liability
associated with this condition far outweighs the administrative burden involved in
monitoring the expiration of authorizations to carry firearms. We expect an
aggressive, robust program to monitor authorizations and deny access to firearms
when the authorization expires. We found no such program. Our concern is
increased by the organization’s practice of allowing officers to take home
Government weapons contrary to law and departmental directive. Without a
program that actively surveils firearms authorizations, it is not reasonable for
PFPA to expect an armorer or supervisor to ensure a police officer is qualified to
carry a specific Government weapon. Therefore, we ask the Director to
reconsider his position in responding to this final report.

Director, Administration and Management Comments
(Recommendation D.3.b.4). The Director concurred, advising that GO 1005.03
“Semi-Annual Weapons Qualifications” will be updated to include procedures for
arming, use of force, and weapon qualification for all appropriate PFPA
employees. This will be completed by August 31, 2003.

Evaluation Response. The management comments are responsive.

Director, Administration and Management Comments
(Recommendation D.3.b.5). The Director concurred, advising that GO 1005.03
“Semi-Annual Weapons Qualifications” and GO 100.07 “Use of Force” would be
updated to include policy guidance and training requirements for specialized
weapons, and would be completed by August 31, 2003.

Evaluation Response. The management comments are responsive.

Director, Administration and Management Comments
(Recommendation D.3.b.6). The Director concurred, advising that a SOP and


                                     42
lesson plan were being developed to address specialized weapons qualification.
The estimated completion date for the SOP and lesson plan is August 31, 2003.

Evaluation Response. The management comments are responsive.

Director, Administration and Management Comments
(Recommendation D.3.b.7). The Director concurred, advising that a SOP would
be developed to include specific procedures for maintaining the “do not carry
list.” This SOP will be established and implemented by August 31, 2003.

Evaluation Response. The management comments are responsive.

Director, Administration and Management Comments
(Recommendation D.3.b.8). The Director concurred, advising that a SOP was
being developed to address weapons training. Personnel will be scheduled by
name and within the prescribed time to eliminate “lapses.” This SOP will be
established and implemented by August 31, 2003.

Evaluation Response. The management comments are responsive. The new
SOP, together with authorization letters with clear expiration dates, should
preclude future qualification lapses as have existed during each of our DPS
evaluations.

Director, Administration and Management Comments
(Recommendation D.3.b.9). The Director concurred. According to the Director,
the current filing system and software program is being reviewed. PFPA is
procuring new training-tracking software and adding additional staff for data
entry and record keeping to the Training Branch. The estimated completion date
for this project is undetermined due to the uncertainty of the procurement process.

Evaluation Response. The management comments are responsive. In
responding to this final report, PFPA should include an estimated completion date
for these actions. We understand that procurement process uncertainties preclude
giving an actual future date, but they do not preclude giving a reasonable estimate
that could be adjusted later as necessary.

Director, Administration and Management Comments
(Recommendation D.3.b.10). The Director concurred, advising that GO 1005.03
“Semi-Annual Weapons Qualifications” will be updated to include procedures for
tracking special weapons qualifications and training all PPD officers on these
weapons. The estimated completion date for the updates to this GO is August 31,
2003.

Evaluation Response. The management comments are responsive.

Director, Administration and Management Comments
(Recommendation D.3.b.11). The Director concurred, advising that a SOP was
currently under development to address a “do not carry” list. Additionally, the
training program currently under development includes specialized weapons
qualifications for all PPD personnel. The estimated completion date for the SOP
is August 31, 2003.

Evaluation Response. The management comments are responsive.



                                    43
Prior Recommendation D.4.
     “The Chief, DPS, take action to adopt and implement an evidence program that, at
     minimum, prescribes standards and procedures for:

         • assessing and certifying individual qualifications for an evidence
     custodian and formally appointing the custodian;

         • limiting access to evidence holdings to the evidence custodian and other
     designated and authorized DPS officials with specific access requirements;

         • transferring to the evidence custodian all physical and other evidence
     collected, seized or otherwise obtained by all DPS personnel in connection with
     any law enforcement or criminal investigative case;

         • collecting, marking, preserving, packaging, labeling, and storing evidence,
     including blood, body fluids, and other hazardous materials;
        • temporary evidence transfers to prosecutors, forensics laboratories, and
     others when necessary and appropriate;

         • special security and control over sensitive evidence, such as cash, jewelry,
     firearms, or drugs;

         • conducting physical inventories annually and whenever an evidence
     custodian is replaced to ensure that evidence seized, collected, or otherwise
     obtained in connection with DPS law enforcement and criminal investigative
     cases is accounted for in the inventory;

         • initiating investigative or other action as appropriate to resolve any
     discrepancy in the evidence identified in a physical inventory;

         • returning or disposing of evidence within 6 months, or another justifiable,
     reasonable time period after prosecution or other legal requirements have been
     satisfied; and

        • inspecting the evidence program at least annually to assess compliance
     with the prescribed program standards and procedures.”
     The Director, Administration and Management, agreed and advised that DPS was
     revising its General Order dealing with evidence custody and control, and
     expected to implement the revision by October 31, 1999. Further, a standard
     operating procedure was being developed for the DPS Evidence Custodian and
     the Federal Bureau of Investigation would conduct training.

Follow-on Evaluation Results
     In response to Recommendation D.4, DPS developed General Order 5061.01,
     “Evidence Management,” May 5, 2001 and Standard Operating Procedure
     (SOP) 516.01, “Evidence Management and Storage Procedures,” May 22, 2001.
     We compared each item that we recommended with the general order
     requirements and standard operating procedure to determine whether the
     requirements we recommended were actually adopted. We then determined


                                          44
whether they were actually implemented. Overall, DPS only implemented 3 of
the 10 requirements. The continuing problem areas are:

    • Assessing and certifying individual qualifications for an evidence
custodian and formally appointing the custodian. Neither General Order 5061.01
nor SOP 516.01 addresses individual qualifications for the position.

    • Transferring to the evidence custodian all physical and other evidence
collected, seized, or otherwise obtained by all DPS personnel in connection with
any law enforcement or criminal investigative case. General Order 5061.1 states:
                   “The evidence will then be presented to the Evidence Custodian on
                   the SD 558 (Evidence/Property Receipt Form) and recorded in the
                   evidence logbook. The evidence custodian will ensure that all
                   proper packing requirements are met prior to receiving any
                   evidence from the officer or investigator or placing those items
                   into the evidence room for safekeeping.”

Despite this requirement, we identified numerous discrepancies (see
Recommendation D.5. for details) because the evidence custodian continued to
accept evidence items from temporary storage without reviewing the SD
Form 558 and evidence items with the seizing official.45

    • Collecting, marking, preserving, packaging, labeling, and storing
evidence, including blood, body fluids, and other hazardous materials. General
Order 5061.01 and Standard Operating Procedure 516.01 do not specifically
address hazardous materials.

   • Temporary evidence transfers to prosecutors, forensics laboratories, and
others when necessary and appropriate. General Order 5061.01 includes
procedures on how to process SD Form 558 and the evidence log. However, the
procedures do not:

          -    Require identifying the person responsible for submitting the evidence.

       - Include methods for packaging and transmitting evidence to the
laboratory.

       - Identify the documentation required to accompany evidence when
transmitted.

          -    Require receipts to ensure chain of custody evidence.

          -    Require laboratory results to be submitted in writing.
45
     We first compared PFPA against CALEA standards since the 1999 report used these standards
     as the baseline. However, we also looked at established accepted practices that have been
     formalized by the Services. For consistency, we always reference the Army standard, Army
     Regulation 195-5,”Evidence Procedures,” August 28, 1992. This is not to say that other
     Service guidance is lacking. Army Regulation 195-5, paragraph 2-4, requires that evidence
     will be secured in temporary storage until the seizing official personally releases the evidence
     to the evidence custodian. Additionally, Army Regulation 195-5, paragraph 2-3e, requires the
     evidence custodian to review the evidence custody document submitted with the evidence and
     have the submitting agent correct and initial all errors when possible.


                                             45
A procedure was in place to hand-carry items to the local Drug Enforcement
Administration (DEA) laboratory. General Order 5061.01 also addressed how
firearms and ammunition will be packaged for transmittal. However, the
guidance does not cover how other types of evidence will be packaged, or include
transmittal procedures (courier or mail, or documentation requirements) for
evidence being transmitted to agencies other than DEA.46

Also, in April 2000, DPS inspectors recommended creating and using a five-copy
version of SD Form 558;47 however, the recommendation was not implemented.
We agree that DPS should use a multi-copy evidence custody form. The
procedure would enhance the evidence custodian’s ability to provide copies of
evidence receipts to the seizing official for filing with the official case and
investigative reports. It would also allow the original evidence receipt to
accompany evidence sent for laboratory analysis or judicial proceeding, while
maintaining a file copy.

    • Conducting physical inventories annually and whenever an evidence
custodian is replaced to ensure that evidence seized, collected, or otherwise
obtained in connection with DPS law enforcement and criminal investigative
cases is accounted for in the inventory. This recommendation combined two
CALEA standards, as follows:

          -   CALEA standard 84.1.6 (b) mandates:
                      “. . . [a]n inventory of property occurs whenever the person
                      responsible for the property and evidence control function is
                      assigned to and/or transferred for the property and evidence
                      control function is assigned to and/or transferred from the
                      position and is conducted jointly by the newly designated
                      property custodian and a designee of the CEO to ensure that
                      records are correct and properly annotated.”

The DPS General Order requires a joint inventory by the newly assigned evidence
custodian and the court liaison sergeant, which satisfies the CALEA standard.
However, the DPS guidance does not require the presence of the outgoing
evidence custodian. The outgoing custodian must also be present because he/she
must sign the forms releasing the evidence to the new custodian in order to
maintain chain of custody for evidence purposes.48
        - CALEA standard 84.1.6 (c) requires, “an annual audit . . . by a
supervisor not routinely or directly connected with control of property.” General
Order 5061.01 requires an annual audit by the court liaison sergeant to verify
evidence control. However, this requirement does not meet the standard because
the court liaison sergeant directly supervises the evidence custodian and is also
the assistant evidence custodian.49


46
     Army Regulation 195-5, paragraph 2-7, “Temporary Release of Evidence,” provides specific
     procedures for this process.
47
     DPS 2000 Annual Evidence Accountability Inspection, April 27, 2000.
48
     The Army has very detailed instructions in AR 195-5, 3-2b(4)c, covering this procedure.
49
     “The Standards Manual of the Law Enforcement Agency Accreditation Program, 4th Edition,”
     January 1999, the Commission on Accreditation of Law Enforcement Agencies, Inc.


                                          46
         • Initiating investigative or other action as appropriate to resolve any
     discrepancy in the evidence identified in a physical inventory. Neither General
     Order 5061.01 nor Standard Operating Procedure 516.01 includes such a
     requirement.

         • Returning or disposing of evidence within 6 months, or another justifiable,
     reasonable time period after prosecution or other legal requirements have been
     satisfied. Standard Operating Procedure 516.01 requires evidence that the
     Assistant United States Attorney approves for release or destruction will be
     processed in accordance with General Order 3031.15, “Lost and Found Property,
     Final Disposition.” General Order 3031.15 has been renumbered as 1800.8, “Lost
     and Found Property, Final Disposition,” July 21, 1997; however, the Standard
     Operating Procedure does not reflect this change. Neither General Order 1800.8
     nor Standard Operating Procedure 516.01 includes a time constraint for returning
     or disposing evidence. Additionally, General Order 1800.8 pertains to lost and
     found property, not evidence.

Follow-on Recommendation D.4.
     We recommend that the Director, Pentagon Force Protection Agency, revise
     General Order 5061.01, “Evidence Management,” May 5, 2001, and Standard
     Operating Procedure 516.01, “Evidence Management and Storage Procedures,”
     May 22, 2001, to include procedures for:

         a. Assessing and certifying individual qualifications for the evidence
     custodian, to include specific qualification, training, and experience requirements.

         b. The evidence custodian to personally receive all evidence from the seizing
     official and physically review each piece of evidence obtained to ensure that all
     items turned in to the evidence custodian are properly recorded on the
     accompanying SD Form 558, “Evidence/Property Custody Document.”

        c. Specifying hazardous materials storage and handling requirements.

        d. Transmitting evidence to entities other than the Drug Enforcement
     Administration. Procedures should include the physical wrapping of evidence,
     required transmittal documentation, and the requirements for transporting via the
     U.S. Postal Service or another approved carrier.
         e. Using a five-copy version of the SD Form 558, “Evidence/Property
     Custody Document,” as recommended in the Defense Protective Service annual
     evidence accountability inspection, conducted in calendar year 2000.

        f. Conducting a joint inventory when the evidence custodian changes,
     requiring both the old and new custodians to be present for the inventory and sign
     SD Forms 558, “Evidence/Property Custody Document,” thereby maintaining
     proper chain of custody over evidence.

         g. An annual audit of evidence conducted by a supervisor not routinely or
     directly connected with control or oversight of the evidence storage process.

         h. Investigative or other action as necessary to resolve any discrepancy in
     evidence accountability.


                                          47
         i. Returning or disposing of evidence within 6 months, or another justifiable,
     reasonable time period after prosecution or other legal requirements have been
     satisfied.

Management Comments and Our Evaluation
     Director, Administration and Management Comments
     (Recommendation D.4.a). The Director concurred and advised that the change
     would be accomplished not later than August 30, 2003.

     Evaluation Response. The management comments are responsive.

     Director, Administration and Management Comments
     (Recommendation D.4.b). The Director did not specifically concur or
     nonconcur, but advised that the Evidence Custodian (EC) had been directed to
     review all evidence entering storage in the Evidence Room (ER). According to
     the Director, there is only one EC assigned to PFPA PPD at this time and it is
     impossible for that individual to be on duty at all times. Therefore, another
     person will be identified, trained and assigned to assist. Supervisors of PPD
     personnel collecting evidence have been directed to conduct supervisory
     inspections of evidence and EPCDs prior to submission to the ER or Temporary
     Evidence Storage Safes.

     Evaluation Response. The management comments are generally responsive. As
     stated previously, the Army requires that evidence be secured in temporary
     storage until the seizing official personally releases the evidence to the evidence
     custodian. We endorse this practice. Procedures can be established whereby
     seizing officials can secure their evidence in temporary storage and relinquish it to
     the evidence custodian at their first opportunity, e.g., day shift personnel can turn-
     in their evidence immediately; swing shift officers could relinquish evidence at
     the beginning of their shift the next duty day; mid-shift officers could relinquish
     evidence before departing at the completion of their shift. Special provisions
     should be established for evidence obtained and stored in temporary storage
     during weekends to ensure it is relinquished personally to the evidence custodian
     on Monday. In commenting on the final report, the Director should include an
     estimated completion date for assigning the back-up evidence custodian. The
     Director should also identify the date on which the supervisory inspection process
     was implemented.
     Director, Administration and Management Comments
     (Recommendation D.4.c). The Director concurred, advising that GO 516.01 and
     SOP 516.01 will be revised not later than August 30, 2003, to identify specific
     measures for safeguarding hazardous material stored either in the ER or at a
     separate site when not feasible to store in the PFPA ER.

     Evaluation Response. The management comments are responsive.

     Director, Administration and Management Comments
     (Recommendation D.4.d). The Director concurred, advising that GO 516.01 and
     SOP 516.01 would be revised not later than August 30, 2003, to include specific
     measures for wrapping and transporting evidence through the U.S. Postal Service
     or other approved carrier.



                                           48
     Evaluation Response. The management comments are responsive.

     Director, Administration and Management Comments
     (Recommendation D.4.e). The Director concurred without further comment.

     Evaluation Response. The management comments are responsive. In
     commenting on the final report, the Director should include an estimated
     completion date for the action.

     Director, Administration and Management Comments
     (Recommendation D.4.f). The Director concurred, advising that GO 516.01 and
     SOP 516.01 would be revised not later than August 30, 2003, to direct a
     100 percent joint inventory by the outgoing and incoming ECs. The results will
     be annotated on each SD Form 558 on hand during the inventory.

     Evaluation Response. The management comments are responsive.

     Director, Administration and Management Comments
     (Recommendation D.4.g). The Director concurred, advising that GO 516.01 and
     SOP 516.01 would be revised not later than August 30, 2003, directing that a
     disinterested supervisor conduct an annual audit of the evidence room in the
     presence of the EC.

     Evaluation Response. The management comments are responsive.

     Director, Administration and Management Comments
     (Recommendation D.4.h). The Director concurred without further comment.

     Evaluation Response. The management comments are responsive. In
     commenting on the final report, the Director should include an estimated
     completion date for the new policy and procedures.

     Director, Administration and Management Comments
     (Recommendation D.4.i). The Director concurred without further comment.

     Evaluation Response. The management comments are responsive. In
     commenting on the final report, the Director should include an estimated
     completion date for the new policy and procedures.

Prior Recommendation D.5.
     “The Chief, DPS, require an immediate physical inventory of evidence in DPS’
     possession and determine whether:

       • evidence known to have been collected can be accounted for in the current
     DPS inventory; and

         • individual current inventory items may have lost their utility as evidence
     for prosecutions.

     DPS should return current inventory items that are determined to have lost their
     utility in prosecutions to the owners or custodians, or dispose of those items, as
     appropriate.”


                                          49
     The Director, Administration and Management, agreed and advised that the
     inventory we recommended had been completed and proper evidence disposition
     had occurred.

Follow-on Evaluation Results
     On March 24, 2000, DPS inventoried the DPS evidence holdings and reported
     that the agency had accounted for all items of evidence. During June 2002 we
     conducted a 100 percent inventory, which identified numerous shortcomings.
     There were 62 cases involving one or more items of evidence, and a total of
     474 items in the evidence room. However, the officers or investigators who
     seized the evidence listed only 380 items on SD Forms 558, “Evidence/Property
     Custody Document,” as being taken into evidence. We noted discrepancies in
     over 50 percent of the cases. Furthermore, we could not locate three items of
     evidence. See Appendix G for details.

     As a result of the above discrepancies, we evaluated the entire PFPA evidence
     program using the policies and procedures in General Order 5061.01, “Evidence
     Management,” May 5, 2001, and Standard Operating Procedure 516.01,
     “Evidence Management and Storage Procedures,” May 22, 2001. We also
     assessed how well PFPA guidance covered required standards.50 Utilizing the
     aforementioned standards, we noted the following shortcomings:

         • PFPA guidance does not require the evidence custodian to check and
     inventory each piece of evidence in sealed bags51 before accepting it.
     Additionally, we found that the evidence custodian does not open and check paper
     bags of evidence, which have been sealed and taped shut by the seizing officer.
     General Order 5061.01 does require that, “. . . all proper packing requirements are
     met prior to receiving any evidence from the officer or investigator . . . ,” but does
     not mandate any accountability standard.52

        • The combination locks on containers, within the evidence room, were
     overdue for changing. They were last changed on November 14, 2001. General
     Order 5061.01 requires that combinations locks will be changed semi-annually.

         • The evidence custodian advised that the keyed locks for temporary storage
     lockers are changed every 6 months. SOP 516.01 directs that the locks will be
     changed quarterly.
        • The majority of evidence, including drugs, was packaged correctly;
     however, we found bloody clothing sealed in a plastic bag. The section of
     General Order 5061.01 pertaining to blood and bodily fluids states that items
     containing blood will be packaged in a paper bag after thorough air-drying.

     50
          We first compared the PFPA against CALEA standards since the 1999 report used these
          standards as the baseline. However, we also looked at established accepted practices that have
          been formalized by the Services. For consistency, we always referenced the Army standard,
          AR 195-5. This is not to say that other Services guidance is lacking.
     51
          Excluding fungible or other evidence in transparent heat-sealed bags.
     52
          CALEA Standard 84.1.1, Property and Evidence Control, mandates, “...A written directive
          establishes procedures for receiving all in-custody and evidentiary property obtained by
          employees into the agency control…” Guidance can also be found in AR 195-5, 2-3(e).


                                                 50
    • SOP 516.01 requires using the “Pentagon Incinerator Burn,” and
“Incinerator Evidence” forms for destruction of evidence. The evidence
custodian and assistant advised that they had never heard of these two forms.
They use DD Form 2843, “Classified Material Destruction Record,” to record all
evidence destruction.

    • We could not confirm that items recorded as having been destroyed were
actually destroyed, because the certifying witness did not observe the destruction.
SOP 516.01 states that the destruction form must have three signatures: evidence
custodian; DPS supervisor; and heating plant representative. None of the forms
contained three signatures. Forms reviewed had the evidence custodian’s printed
information and a signature at the bottom, which was supposed to be an employee
of the heating plant. Additionally, during discussions with the primary and
assistant evidence custodian, information was disclosed that the certifying witness
on the SD Form 558, “Evidence/Property Custody Document” on occasions,
never went to the burn facility to witness the destruction. The evidence custodian
admitted that the certifying witnesses on some SD Forms 558 did not actually
observe the destruction. Further, the heating plant representative sees only a bag
containing multiple items being destroyed. The evidence custodian advised that
the heating plant representative does not actually see the SD Form 558 or verify
the items are those listed on a particular SD Form 558. Additionally, the evidence
custodian stated that some of the witness signatures on the SD Forms 558 came
from DPS personnel in other sections who also did not personally observe the
destruction of the evidence on the SD Form 558, which they certified. The
evidence custodian said he thought the form only needed a destruction witness
signature by someone not associated with the evidence section, not someone who
actually witnessed the destruction.53

    • The evidence custodian was not properly completing the disposal section
of SD Forms 558. We reviewed several SD Forms 558 for completion of items
10 through 12,54 which cover the final disposition process. This review disclosed
that item 10 was not filled out completely on any of the forms. Furthermore,
based on DPS guidance, an evidence disposal list will be sent to the Assistant
United States Attorney for disposition approval. However, in the forms reviewed,
the evidence custodian signed item 11 as the final disposal authority without any
reference to the Assistant United States Attorney approving the destruction.
General Order 5061.01, “Evidence Management,” requires “[a]ny additional
information authorizing the disposition of that evidence will be attached to the
SD 558 and will be a part of completed evidence file.”

    • On numerous occasions, evidence was not removed from the temporary
storage lockers within 24 hours as required by SOP 516.01.

   • During the course of our inventory we found a computer disk labeled
“CONFIDENTIAL” in an unlocked evidence container, within the evidence vault.
The classification of the disk is listed on the seizing officer’s report; however, it

53
     That PFPA officers would sign SD Forms 558 as witnesses, when in fact they did not witness
     destruction of evidence, is quite disturbing. These would appear to be false official statements
     in violation of 18 U.S.C. 1001.
54
     SD Form 558, Item 10 lists the final disposition action, Item 11 describes final disposition
     authority, and Item 12 identifies the witness to the evidence destruction, as well as their
     signature.


                                             51
     was not listed on the SD Form 558. The evidence custodian did not have a
     security safe available to store classified evidence. This discrepancy was reported
     to PFPA senior management for a security investigation as required by DoD
     Regulation 5200.1-R, “Information Security Program,” January 1997.

Follow-on Recommendation D.5.
     We recommend that the Director, Pentagon Force Protection Agency, take action
     to:

        a. Correct all discrepancies identified during our inventory listed in
     Appendix D, and do so within 30 days following receipt of the final evaluation
     report;

         b. Revise Standard Operating Procedure 516.01, “Evidence Management and
     Storage Procedures,” May 22, 2001, to require face-to-face verification and
     correction of discrepancies, between the evidence custodian and the seizing
     official of all evidence listed on SD Forms 558. The evidence custodian should
     check and inventory each piece of evidence in sealed bags (except for transparent
     heat sealed bags containing fungible evidence) before accepting it, to include
     paper bags of evidence, which have been taped shut.

        c. Ensure all evidence is removed from temporary storage within 24 hours as
     required by Standard Operating Procedure 516.01, “Evidence Management and
     Storage Procedures,” May 22, 2001.

        d. Change all combinations semi-annually as required by General Order
     5061.01, “Evidence Management,” May 5, 2000, and temporary storage locks
     quarterly as required in Standard Operating Procedure 516.01 “Evidence
     Management and Storage Procedures,” May 22, 2001.

         e. Implement a training program for all Pentagon Force Protection Agency
     law enforcement personnel regarding the collection, preservation, receipt, and
     turn-in of evidence.

        f. Properly destroy or return all evidence as required by Standard Operating
     Procedure 516.01, “Evidence Management and Storage Procedures,” May 22,
     2001, when evidence no longer has utility for investigation or prosecution.
        g. Ensure witnesses properly observe the destruction of evidence.

         h. Conduct an investigation to determine if the evidence custodian and other
     DPS officers improperly destroyed evidence and made false statements in
     violation of Section 1001, Title 18, United States Code.

        i. Certify the destruction of evidence by using the proper forms.

        j. Properly complete items 10-12 of SD Forms 558, “Evidence
     Property/Custody Document,” to record the disposal of evidence.

        k. Obtain a General Services Administration approved storage container for
           evidence that may contain classified Defense information.



                                         52
Management Comments and Our Evaluation
     Director, Administration and Management Comments
     (Recommendation D.5.a). The Director concurred without further comment.

     Evaluation Response. The management comments are responsive.

     Director, Administration and Management Comments
     (Recommendation D.5.b). The Director concurred without further comment.

     Evaluation Response. The management comments are responsive.

     Director, Administration and Management Comments
     (Recommendation D.5.c). The Director concurred without further comment.

     Evaluation Response. The management comments are responsive.
     Director, Administration and Management Comments
     (Recommendation D.5.d). The Director concurred without further comment.

     Evaluation Response. The management comments are responsive.

     Director, Administration and Management Comments
     (Recommendation D.5.e). The Director concurred without further comment.

     Evaluation Response. The management comments are responsive.

     Director, Administration and Management Comments
     (Recommendation D.5.f). The Director concurred without further comment.

     Evaluation Response. The management comments are responsive.

     Director, Administration and Management Comments
     (Recommendation D.5.g). The Director concurred without further comment.

     Evaluation Response. The management comments are responsive.

     Director, Administration and Management Comments
     (Recommendation D.5.h). The Director concurred without further comment.

     Evaluation Response. The management comments are responsive.

     Director, Administration and Management Comments
     (Recommendation D.5.i). The Director concurred without further comment.

     Evaluation Response. The management comments are responsive.

     Director, Administration and Management Comments
     (Recommendation D.5.j). The Director concurred without further comment.

     Evaluation Response. The management comments are responsive.




                                      53
     Director, Administration and Management Comments
     (Recommendation D.5.k). The Director concurred and advised that PFPA now
     has a GSA-approved safe for storing classified Defense evidence.

     Evaluation Response. The management comments are responsive.

Prior Recommendation D.6.
     “The Chief, DPS, take action to align actual evidence custodian duties and
     responsibilities with the position designated as having those duties and
     responsibilities.”

     The Director, Administration and Management, agreed and advised that DPS
     would take the action recommended in conjunction with its actions in response to
     Recommendation D.4. above.

Follow-on Evaluation Results
     The Chief, DPS, took the necessary action to align actual evidence custodian
     duties and responsibilities with the position designated as having those duties and
     responsibilities.

Follow-on Recommendation D.6.
     None.

Prior Recommendation D.7.
     “The Chief, DPS, issue policy for DPS criminal investigators that includes:

        •    criteria for initiating, continuing, and suspending investigations;

         • sharing relevant information from investigative reports with appropriate
     DoD managers responsible for the personnel or property involved in DPS
     criminal investigations;

         • procedures for identifying, collecting, and reporting investigative case
     results (from which goals and objectives should be formulated and tracked),
     including:

             -   number of indictments;

             -   number of convictions,

            - fine, penalty, and restitution amounts collected for the Government,
     and whether the amount was collected through criminal, civil, or administrative
     means;

             - fine, penalty, and restitution amounts collected for non-Government
     parties, and whether the amount was collected through criminal, civil, or
     administrative means;



                                           54
             - the value of Government property recovered as a result of criminal
     investigations;

            - the value of property recovered for non-Government parties as a result
     of criminal investigations;

               -   number of cases resolved; and,

               -   case timeliness.”

     The Director, Administration and Management, agreed. The Director advised that
     the work would be completed by October 31, 1999.

Follow-on Evaluation Results
     The PFPA CI/IAD needs to improve its policy guidance regarding the
     documentation of supervisors’ decisions to initiate, suspend, or close
     investigations, and requiring coordination with DoD managers responsible for the
     personnel or property in PFPA criminal investigations. Additionally, the software
     system the CI/IAD uses to track cases needs improvement.

     Our discussion with the Supervisory Criminal Investigator indicates that CI/IAD
     investigators use a “solvability” form to make decisions on which complaints and
     allegations will be opened and kept active. Further, after the investigator
     completes the initial leads, the team leader decides whether to continue the
     investigation.55 The team leader also manages and prioritizes the team’s assigned
     cases. He also reported that the team leaders document all investigative case
     review guidance in writing, either in the case file, on a separate note, or via
     e-mail.

     There is no policy regarding the documentation of supervisors’ decisions to
     initiate, suspend, or close investigations. These decisions, according to the
     supervisor, are recorded in the case file and on the “solvability” form.56 The
     decisions made by management are based on the manager’s training and
     experience, and include solvability factors, including, witness availability, suspect
     identification, distinguishable modus operandi, identifiable property, patterns of
     activity, the presence of physical evidence, and investigative leads.
     We did not find written policy concerning the sharing of relevant information
     from investigative reports with appropriate DoD managers responsible for the
     personnel or property involved in DPS criminal investigations. As a practical
     matter, CI/IAD personnel talk with affected DoD managers and notify them
     regarding the status or inactivation of investigations.

     With regard to procedures for identifying, collecting, and reporting investigative
     case results, the relational database file (Paradox) that CI/IAD uses is not
     configured to break the assigned data fields into smaller sub-sections. They do
     not have anyone trained to generate queries and/or reports, and the software is not
     55
          In accordance with CI/IAD Policy Memorandum Number 2, Daily Case Incident Report and
          Team Leader Procedures, October 27, 2000.
     56
          We did not validate the reported documentation practices through a review of open and closed
          case files.


                                                 55
     installed on a network available to all investigators and investigative supervisors.
     These deficiencies reduce the capability to manage and account for cases, as well
     as to perform crime analysis and criminal intelligence operations.

     The current system does not allow for tracking the timeliness of investigative
     effort or investigative reporting. This must be done manually by reviewing
     individual case files.

Follow-on Recommendation D.7.
     We recommend that the Director, Pentagon Force Protection Agency:

        a. Establish written policy

              (1) requiring the documentation in case files of supervisors’ decisions to
     initiate, suspend, or close investigations; and
             (2) requiring coordination with DoD managers responsible for the
     personnel or property in Pentagon Force Protection Agency criminal
     investigations; and

         b. purchase a commercial case management software package, as well as
     training, to enable supervisors to capture and use the previously recommended
     statistical data.

Management Comments and Our Evaluation
     Director, Administration and Management Comments
     (Recommendation D.7.a.1). The Director concurred and advised that existing
     General Orders and SOPs were being updated to reflect this recommendation.
     These documents will be updated by July 30, 2003.

     Evaluation Response. The management comments are responsive.

     Director, Administration and Management Comments
     (Recommendation D.7.a.2). The Director concurred without further comment.
     Evaluation Response. The management comments are responsive.

     Director, Administration and Management Comments
     (Recommendation D.7.b). The Director concurred and advised that PFPA was
     reviewing vendor-based programs to determine which best-suited CIIA needs.
     This is expected to be completed NLT August 30, 2003.

     Evaluation Response. The management comments are responsive.

Prior Recommendation D.8.
     “The Chief, DPS, take action to identify a reasonable and appropriate caseload for
     a DPS criminal investigator and then adjust staffing for the Criminal
     Investigations Section accordingly. This caseload should be based on the
     environment in which DPS operates, including provisions in Memoranda of


                                          56
     Understanding or operating agreements with other Federal or civilian criminal
     investigative and law enforcement organizations.”

     The Director, Administration and Management, agreed. The Director advised that
     DPS had taken steps to implement corrective action. According to the Director, at
     that time, DPS had seven criminal investigators and each investigator was
     handling an appropriate caseload.

Follow-on Evaluation Results
     In response to Recommendation D.8., the Chief, DPS, increased manning and
     established appropriate caseloads. Standard Operating Procedure CI-900.02,
     “Criminal Investigations and Internal Affairs Case Assignment Procedures,”
     September 4, 2000, limits each investigator to 15 active case files; investigative
     gaps in each case should not exceed 7 days. The Supervisory Criminal
     Investigator advised that he established the caseload per investigator in
     September 2000, based on benchmarking DCIS and NCIS caseloads, as well as
     the experience level of his field investigators and what he felt they could manage.

Follow-on Recommendation D.8.
     None.

Prior Recommendation D.9.
     “The Chief, DPS, determine whether the problem with prosecutors accepting
     investigative cases from certain criminal investigators has continued despite the
     Supervisory Criminal Investigator’s intermediary actions and, if so, take action to
     resolve the problem. At management’s discretion, a criminal investigator may be
     transferred to a different job series with the same journeyman grade level.”

     The Director, Administration and Management, agreed with the recommendation,
     but advised that the cause of the problem no longer existed. According to the
     Director, DPS took steps to improve both investigative techniques and reports.
     Further, the intermediary actions previously in effect were no longer necessary,
     and prosecutors now deal directly with DPS investigators.

Follow-on Evaluation Results
     The relationship between CI/IAD investigators and the Special Assistant U.S.
     Attorney who supports them appears to be appropriate. The intermediary actions
     undertaken appear to have resolved prior relationship problems.

Follow-on Recommendation D.9.
     None.




                                          57
Prior Recommendation D.10.
     “The Chief, DPS, either eliminate the current confidential fund and disburse the
     cash holdings, or issue guidance on properly using confidential funds and
     maintaining the account.”

     The Director, Administration and Management, agreed and advised that the
     confidential fund had been eliminated.

Follow-on Evaluation Results
     Through coordination with the Accounting Officer, Budget and Finance
     Directorate, WHS, we verified that in August 1998, the Chief, DPS, returned the
     confidential funds in their entirety ($1,000.00) in order to effect account closure.
     The funds were subsequently returned to the U.S. Treasury on August 11, 1998.

Follow-on Recommendation D.10.
     None.

Prior Recommendation D.11.
     “The Chief, DPS, take action to implement a general order specifying procedures
     for scheduling and posting duty assignments, including rotation requirements.”

     The Director, Administration and Management, agreed. The Director advised that
     a new SOP would be completed by August 31, 1999, and would include
     procedures for scheduling and posting duty assignments, including rotation
     requirements, with an overall goal of maintaining maximum flexibility within
     permissible limits. We asked for a copy of the SOP upon completion.

Follow-on Evaluation Results
     Contrary to management’s comments, the Chief, DPS, did not implement
     Recommendation D.11, establishing a general order to specify procedures for
     scheduling and posting duty assignments, including rotation requirements.57
     In November 1999, the Director, Administration and Management, responded to
     an OIG DoD Audit Followup Directorate inquiry, advising that:
                   “Standard Operating Procedure No. OB-12 includes procedures for
                   scheduling and posting duty assignments. Rotations are supported to
                   the maximum extent possible, as long as the officer has the required
                   certifications, e.g. to operate booth equipment or direct traffic. The


     57
          “Evaluation of the Defense Protective Service,” page 58, “DPS does not have a general order
          or other policy establishing standard procedures for officer assignments, and many DPS
          officers believe they are treated unfairly in the assignment process. Our employee survey
          (Appendix C) showed, for example, that 79.4 percent of DPS officers (excluding supervisors)
          do not believe they are treated equally with respect to assignments. This issue was also
          mentioned during our interviews with DPS personnel.”


                                                58
                   union has not brought the issue of rotations to DPS management, as of
                   this date, in the weekly union negotiations meetings.”

     Our subsequent review of SOP No. OB-12 reveals that it does not address
     procedures for assigning officers to specific posts or rotating personnel among
     positions (except with regard to assigning personnel to overtime hours).
     Moreover, this SOP existed when the former Director, Administration and
     Management, responded to the previous report and advised that a new SOP would
     be created. Accordingly, the November 1999 response contradicts the earlier
     comments and indicates the promised action was not completed.

     The Commander, Operations Services Branch, believes watch commanders need
     sufficient latitude to get the right people assigned to high visibility posts, and
     those requiring little supervision into the patrol squad. Since he had not received
     grievances or complaints, he intends to continue the current system.

     Although no standard exists, we believe it is important to rotate officers between
     patrol and static posts to enhance skills, ensure alertness, and avoid stagnation and
     boredom.

     As previously reported, the existing officer assignment practice cannot ensure
     consistency, which means that some officers could be treated unfairly in the
     assignment process. We reiterate our prior position “that a law enforcement
     agency should have a single method for determining days off and for assigning
     officers to shifts, beats, and posts. This standard is encouraged because a uniform
     procedure helps ensure impartiality in the assignment process.”58

Follow-on Recommendation D.11.
     We recommend that the Chief, Defense Protective Service, adopt policy in a
     general order that:

         a. includes specific procedures for scheduling and posting duty assignments,
     including rotation requirements;

         b. includes information on how officer career progression depends upon or
     relates to the level of difficulty involved in the officer’s duty assignments;

          c. identifies the need to maintain officer alertness, as well as proficiency on
     all required tasks, in making duty assignments; and

         d. recognizes the Defense Protective Service retains final authority over
     officer assignments (shifts, posts, and patrols) as necessary to ensure effective
     coverage and accountability, despite scheduled duty assignments and rotation
     requirements.

Management Comments and Our Evaluation
     Director, Administration and Management Comments
     (Recommendation D.11.a – d). The Director partially concurred. According to
     58
          Chapter 41, paragraph 41.1.2, “Standards for Law Enforcement Agencies, The Standards
          Manual of the Law Enforcement Agency Accreditation Program,” January 1999.


                                               59
    the Director, PFPA believes that an SOP, rather than a GO, is appropriate for
    instructions on scheduling and posting duty assignments, including rotation
    requirements, and specific procedures are already in place. The Administrative
    Desk Officer (ADO) completes a detail sheet one day in advance. The sheet is
    reviewed by the Administrative Supervisor and sent to the Administrative
    Lieutenant for signature. The final version is approved by the Watch Commander
    and given back to the ADO. The Administrative Supervisor approves any last
    minute change. It is up to the Relief Watch Commander to determine the needs of
    the respective shifts, to match the criticality of the various posts with the proper
    personnel, and to schedule the officers accordingly. These procedures are not
    explained in the SOP, but will be added.

    Officers assigned to more difficult assignments must successfully complete PFPA
    training requirements, be certified in proper systems, and be in physical shape
    required to perform the unique duties. New officers can work on any rotation due
    to a more robust Field Training Program ensuring they are fully trained in all
    systems.

    Regarding officer alertness and proficiency on required tasks, PPD makes every
    effort to match officers with their desired assignments and rotates assignments to
    prevent tedium and monotony. Extensive training ensures that officers are
    proficient in their duties. SOP OB-12 will be revised by July 31, 2003.

    Evaluation Response. The management comments are responsive. However,
    we encourage DPS to ensure that its guidance fully addresses subparts b and d of
    our recommendation.

Prior Finding E. Operations Support
    We previously found the following shortcomings in certain key operations
    support areas:

        • “[p]olicy documents did not adequately define the community that DPS
    serves, and DPS had not adequately defined either its customers or their needs;
        • DPS did not have a policy covering crime analysis, and its crime analysis
    reports (which were one individual’s work) were not based on multi-jurisdictional
    trends and patterns that could affect DPS’ operations;

        • DPS did not proactively contact other organizations to either share
    information on criminal activities or to solicit input on how DPS could improve
    the services it provides;

       • delays in the internal affairs function hamper personnel discipline
    procedures and cause employees to believe that DPS personnel procedures are
    unfair or do not work properly; and

        • DPS had an inspections program that is not fully effective in identifying
    operating problems; moreover, it did not receive sufficient management attention
    to produce corrections when inspections identify problems.”




                                         60
Prior Recommendation E.1.
     “The Chief, DPS, take action to:

        • identify DPS customer and community needs through surveys and
     community relations programs;

           •   adopt an agency-wide goal of satisfying customer and community needs;
     and

           •   amend DPS general orders to incorporate and emphasize this new goal.”

     The Director, Administration and Management, agreed and advised that DPS had
     adopted a goal of customer satisfaction and attention to community needs;
     surveys were ongoing and follow-up calls were taking place; and DPS was
     involved in community relations programs, where appropriate. The Director also
     advised that, as each DPS General Order was revised, the General Order was
     reviewed to see where customer satisfaction and attention to community needs
     could be emphasized.

Follow-on Evaluation Results
     Information provided by the Director, Administration and Management, to Audit
     Followup indicated that:
                  “Calls for law enforcement assistance are directed to the
                  communication center. Recent results from customer service surveys
                  are extremely positive. DPS personnel will also receive training in
                  customer service. DPS has requested that training be tailored to DPS
                  concerns and DPS unique situations. Also, plan to place a more
                  generic customer satisfaction survey on RE&F’s web site, which may
                  give DPS additional feedback.”

     Although the information that the Director, Administration and Management,
     provided to the OIG DoD Audit Followup Directorate, indicated that customer
     service surveys were ongoing and follow-up calls were taking place, the Chief,
     DPS, did not conduct surveys to identify customer and community needs. The
     Chief, DPS, did develop and administer one informal survey to assess customer
     satisfaction with DPS police service. The informal survey conducted by DPS
     personnel consisted of telephone calls to complainants and victims of
     50 randomly selected calls for service during a 4-month window in either 1999 or
     2000. The Chief, DPS, intends to conduct additional informal customer
     satisfaction surveys to gauge the level of customer satisfaction, as opposed to
     conducting formal statistically valid surveys.

     The chief has emphasized to officers, through training and newsletters, the
     importance of customer service. As a result, DPS is involved in a number of
     community relations programs, including: using the DPS ceremonial unit at
     community events; various crime prevention activities, including using the
     McGruff “take a bite out of crime” dog; fingerprinting children; providing
     officers and crime prevention information at community events; the annual
     Pentagon crime prevention display; and preparing instructional videos on
     evacuation safety and building security procedures. DPS also publishes The


                                              61
     Shield magazine periodically. Customer service has also been improved at the
     Pentagon Pass Office, with reduced waiting times, quicker customer-focused
     service, and a professional décor.

     The Chief, DPS, included customer satisfaction in the September 2000 strategic
     plan. Goal 1 is to:
                “[p]romote DPS as the Customers’ Provider of Choice for Security
                Services; Assess Customer Satisfaction with Services Provided.”
                Objectives for Goal 1 include: ensure all DPS employees receive initial
                customer services training; to implement means for customers to
                provide feedback on services provided by all DPS officers during
                Fiscal Year 2000-2001; to continue customer service awareness
                through periodic training between Fiscal Years 2002-2005; to evaluate
                feedback from customers during FY 2000-2001; and to implement
                procedures to objectively gather data, evaluate responses, and use to
                make positive changes in how DPS conducts its business.”

     We verified that from January through April 2001 approximately 60 percent of
     DPS personnel attended specialized customer relations training provided by
     “International Leadership Development Consortium, Inc., Towson, Maryland.

     On June 29, 2001, the Web-based “interactive customer evaluation” (ICE)
     program was implemented for RE&F, which included DPS. RE&F started the
     program as a customer service initiative. Since implementation, ICE has received
     more than 60 comments related to DPS services. The customer comments vary
     and include simple questions, pointing out safety problems, complaining about
     how long it took to get a building pass, and praising DPS police officers for their
     actions. The RE&F directorate's points-of-contact evaluate ICE comments, and
     then provide feedback to the respondents. RE&F advertises ICE through building
     circulars, newspapers, posters, electronically, etc.

     Information provided by the Chief, DPS, in the Audit Followup’s tracking system
     reflected, “[a]s each DPS GO is revised, it will be reviewed to see where customer
     satisfaction and attention to community needs can be emphasized.” DPS
     managers provided conflicting information regarding the status of this action and
     could not provide any revised general orders to support the information provided
     to follow-up. The DPS manager responsible for revising and consolidating DPS
     general orders was not aware of this requirement.

Follow-on Recommendation E.1.
     We recommend that the Director, Pentagon Force Protection Agency, take action
     to:

        a. Identify Pentagon Force Protection Agency and Defense Protective
     Service customer and community needs through statistically valid surveys.

         b. Conduct statistically valid sample surveys to measure the level of
     customer satisfaction in response to the goals and objectives in the strategic plan.
     It may be advisable to hire a professional contractor to complete the surveys.
     These surveys should be performed on a periodic basis.




                                             62
         c. Advertise Defense Protective Service involvement in the “interactive
     customer evaluation” program through Web-based hyperlinks, brochures,
     business cards, posters, building circulars, and other viable means.

        d. Amend Defense Protective Service and Pentagon Force Protection Agency
     general orders to incorporate and emphasize the goal of satisfying customer and
     community needs.

         e. Establish written policy to formalize requirements and responsibilities for
     the community relations program to ensure it operates effectively to meet the
     needs of the agency, as well as the community it serves.

Management Comments and Our Evaluation
     Director, Administration and Management Comments
     (Recommendation E.1.a – e). The Director concurred. According to the
     Director, as part of its Strategic Planning Process, PFPA is developing a customer
     satisfaction evaluation and outreach program that will achieve the
     recommendations’ intent and satisfy GPRA needs.

     Evaluation Response. The management comments are generally responsive, but
     lack specificity that focuses on the Pentagon community. In responding to the
     final report, PFPA should provide details on the new program, including current
     status and estimated implementation date.

Prior Recommendation E.2.
     “The Chief, DPS, take action to formalize crime statistics development and
     reporting, based on collecting and analyzing DPS crime statistics and relevant
     statistics from other law enforcement organizations in the National Capital
     Region.”

     The Director, Administration and Management, agreed. The Director advised that
     statistics were being developed, analyzed, and reported monthly.

Follow-on Evaluation Results
     The Chief, DPS, did not formalize crime statistics development and reporting,
     based on collecting and analyzing DPS crime data, and relevant statistics from
     other law enforcement organizations in the NCR, as recommended and as
     previously suggested by the Director, Administration and Management. DPS still
     lacks written policy regarding the analysis and publication of crime data, and
     crime data sharing with other police agencies in the NCR. Current DPS crime
     statistics do not reflect multi-jurisdictional trends and patterns that could affect
     PFPA operations.

     We previously reported that the DPS criminal investigations section collected and
     reported monthly crime statistics. The Commander, Operations Services Branch,
     watch commanders, and other supervisors used these reports to advise officers
     about recent crimes and trends, and to reassign personnel based on reported
     trends. DPS management also attached these reports to a daily newsletter “Roll
     Call,” which is available to all DPS officers. Our follow-on evaluation indicates


                                          63
     that the CI/IAD has not prepared monthly reports regarding crime trends since we
     completed our prior evaluation. In June 2002, the CI/IAD began collecting and
     analyzing DPS crime statistics to again publish the monthly reports; however, the
     data in these reports are limited to property crimes only.

     The Commander, Communications and Records Branch, a trained crime analyst,
     does the majority of crime statistics reporting at DPS. One of the commander’s
     many responsibilities is to provide daily crime summaries to the operations staff,
     as well as to DPS senior management. Operations managers use the daily
     summary reports in responding tactically to prevent and suppress criminal
     activity. The commander publishes an annual report of criminal activity and other
     significant incidents.

     Additionally, the PFPA AT/FP division analyzes suspicious activity reports
     prepared by DPS officers. They in turn brief the officers regarding their findings,
     as well as other intelligence received. They also provide terrorist threat
     information to the Air Force Office of Special Investigations,59 for further
     analysis and dissemination.

     The data necessary to support a viable criminal intelligence operation appears to
     be contained in the Incident Crime Information System; however, its use is
     sporadic.

Follow-on Recommendation E.2.
     We recommend that the Director, Pentagon Force Protection Agency, take action
     to:

         a. Prescribe written policy for crime statistics development and reporting,
     based on collecting and analyzing Defense Protective Service crime statistics and
     relevant statistics from other law enforcement organizations in the National
     Capital Region, as outlined in the Commission on Accreditation for Law
     Enforcement Agencies, Inc., standards.

         b. Establish a central crime analysis office within the Pentagon Force
     Protection Agency capable of supporting overall agency needs, including Defense
     Protective Service operations, criminal investigations, staffing and planning,
     antiterrorism/force protection, security services, community relations, and crime
     prevention.

Management Comments and Our Evaluation
     Director, Administration and Management Comments
     (Recommendations E.2.a & b). The Director concurred, advising that PFPA
     was in the process of establishing a more robust capability in this area. Whether it
     will be a stand-alone office or part of another has not yet been determined.

     Evaluation Response. The management comments are responsive, but not
     sufficiently specific. In commenting on the final report, PFPA should include
     greater detail on the actions planned, including the estimated completion date.

     59
          The executive agent for the Office of the Secretary of Defense for counterintelligence matters.


                                                  64
Prior Recommendation E.3.
     “The Chief, DPS, take action to:

         • establish formal guidelines for the DPS Shooting Board, including
     whether the Shooting Board has decision-making or advisory authority, when it
     must be convened, criteria for its membership, and the coordination required with
     individual DPS operating elements, such as Internal Affairs.

        • modify current general orders to include specific time targets for
     completing internal affairs and related administrative actions. The modifications
     should allow time extensions from specified targets when justified, but should
     require documented reasons for the delay.”

     The Director, Administration and Management, agreed. The Director advised that
     a general order was being developed to establish formal guidelines for the DPS
     Shooting Board and the general order would be completed no later than
     September 30, 1999. The Director also advised that General Order 1100.25,
     “Internal Affairs Investigations, May 7, 1999, included specific time targets for
     completing internal affairs and related administrative actions.

     We asked the Director to provide a copy of General Order 1100.25 and the new
     General Order establishing guidelines for the DPS Shooting Board.

Follow-on Evaluation Results
     The Chief, DPS, established guidelines for DPS internal affairs investigations in
     General Order 9000.02, “Internal Affairs Investigations,” December 17, 2001.
     The general order established specific time targets for completing internal affairs
     investigations, but did not address criteria and justification for time extensions.
     Pending revision of General Order 9000.02, the Commander, CI/IAD published
     CI/IAD Policy Memorandum #4, June 14, 2002, which established criteria for
     extensions and the justification required.

     The Chief, DPS, issued draft General Order 9000.03, “Discharge of Firearm by
     DPS Personnel and Subsequent Action,” as formal guidelines for the DPS
     shooting board. As recommended, the draft General Order specifies that the
     board has advisory authority, when it must be convened, and the coordination
     required within DPS entities. However, it did not establish board membership
     criteria. The Commander, CI/IAD, subsequently developed enclosure 1 to draft
     General Order 9000.03 that specifies who shall select the board chairman and
     members, and specifies criteria for board chairmanship and membership.
     Paragraph 30 of the draft General Order requires that the Deputy Chief, Law
     Enforcement Services, select the board chairman; however, enclosure 1 states
     “[t]he Assistant Chief, DPS, Law Enforcement Directorate from either the DPS
     Law Enforcement Operations or Support Services Branch, or from the CI/IA
     Directorate, will select the Chairman.”

Follow-on Recommendation E.3.
     We recommend that the Director, Pentagon Force Protection Agency, further
     revise:


                                          65
              a. General Order 9000.02, “Internal Affairs Investigations,”
     December 17, 2001, to include specific criteria and justification for internal
     affairs investigation time extensions.

            b. Draft General Order 9000.03, “Discharge of Firearm by DPS
     Personnel and Subsequent Action,” prior to publishing in final form, to eliminate
     any confusion regarding selection and membership criteria for board
     chairmanship and membership.

Management Comments and Our Evaluation
     Director, Administration and Management Comments
     (Recommendation E.3.a). The Director concurred, advising that the GO would
     be revised, with an estimated completion date of September 30, 2003.

     Evaluation Response. The management comments are responsive.
     Director, Administration and Management Comments
     (Recommendation E.3.b). The Director concurred, advising that the GO would
     be revised, with an estimated completion date of September 30, 2003.

     Evaluation Response. The management comments are responsive.

Prior Recommendation E.4.
     “The Chief, DPS, take action to assign additional personnel to the Inspections
     Section and:

         • ensure the additional personnel are trained on implementing inspections
     policy and adhering to policy requirements during inspections;

         • ensure that senior managers give the inspections program higher priority,
     closer supervision, and act on inspection findings;

         • consider relocating the Inspections Section to the Pentagon where the staff
     would be closer to most DPS personnel, and through better staff and management
     interaction, could better identify inspection needs; and

         • amend General Order 1100.22, “Line Inspection,” November 10, 1992,
     establishing clear standards and procedures for file maintenance and retention,
     and management reporting.”

     The Director, Administration and Management, agreed. According to the
     Director:

        • “adequate additional personnel have been added to the inspections cadre
     and properly trained in their duties;

         • senior managers now hold periodic meetings to assure inspections are
     receiving proper priority, and annual inspections have been scheduled;

         • DPS considered relocating the Inspections Section to the Pentagon, but
     determined the new emphasis on internal inspections made the move unnecessary;


                                          66
        • the personnel who monitor contracts, however, have been moved to the
     Operations Division; and

         • before April 30, 1999, General Order 1100.22 will be amended to
     establish clearer standards and procedures for inspection file maintenance and
     retention, and management reporting.”

     We asked the Director to provide a copy of amended General Order 1100.22.

Follow-on Evaluation Results
     During 1999, in response to Recommendation E.4., the staff inspections section
     was established under the direction of a captain and staffed with a lieutenant and a
     sergeant. Later that year, the Chief, DPS, reassigned the captain as a watch
     commander. The lieutenant was promoted and then reassigned in January or
     February 2002, to fill a watch commander vacancy. The sergeant was promoted
     and reassigned during January or February 2001, to the AT/FP division. Another
     sergeant was assigned to the inspection section in December 2001. When this
     follow-on evaluation began, he was the only staff inspector assigned.
     Furthermore, the lone inspector is not dedicated to inspections and expends a
     great deal of time performing community relations and crime prevention
     activities, as well as recruiting. Newly hired patrol officers awaiting training
     occasionally augment the inspections function. At the time of our follow-on
     evaluation, a summer-hire administrative clerk also staffed the section.

     Three of the four individuals assigned to the staff inspections section since
     May 1999, were adequately trained to conduct inspections. The current inspector
     completed the U.S. Army Inspector General Course in February 2002.

     The projected inspection schedules for calendar years 2000 through 2002 indicate
     that since January 1, 2000, DPS has completed only 5 of the 46 staff inspections
     scheduled. They covered evidence accountability, overtime procedures, radio and
     pager accountability, and weapons accountability in both 2001 and 2002.60 In
     2000 they scheduled 10 inspections and completed 2; in 2001 they scheduled 18
     and completed 2, and in 2002 they scheduled 18 and thus far have completed one
     (on weapons accountability). We could not determine why these ambitious
     schedules are advanced and approved by the Chief, DPS.
     We also previously recommended that the Chief, DPS, consider relocating the
     inspections section to the Pentagon where the staff would be closer to most DPS
     personnel, and through better staff and management interaction, could better
     identify inspection needs. The management comments indicated that DPS
     considered relocating the inspections section to the Pentagon but determined that
     the new emphasis on internal inspections made the move unnecessary. When
     interviewed, the chief stated that he did not see relocating the inspections section
     as critical to their success, not to mention Pentagon space constraints.

     In June 2001, DPS inspectors attempted to initiate a self-inspection program.
     DPS commanders would establish checklists based on requirements outlined in
     DoD, WHS, and DPS policies affecting their areas of responsibility. The use of

     60
          Although specifically requested, we did not receive either the 2002 weapons or evidence
          inspections.


                                                 67
     the checklists would allow managers to effectively inspect their own areas. DPS
     inspectors would then review and affirm that self-inspections were accomplished.
     They were not able to implement the program because inspections staffing was
     reduced.

     In response to Recommendation E.4, General Order 1100.22, “Line Inspection,”
     was amended indicating that files would be maintained in accordance with
     Administrative Instruction 15, “Office of the Secretary of Defense Records
     Management Administrative Procedures and Records Disposition Schedules,”
     August 11, 1994. The General Order reflects that an active file will be kept for
     one calendar year, an inactive file for one additional calendar year, and files will
     be destroyed after two calendar years. A review of Administrative Instruction 15,
     paragraph 217-02, requires the following disposition for line inspection records:
     “cut-off annually, and destroy after one year.” This means that files generated
     during calendar year 2002 are cut off on December 31, 2002, and will be
     destroyed in January 2004.

     The Acting Director, PFPA, advised that he intends to establish an oversight
     organization manned with a major, a captain, a lieutenant, and a GS-080, Security
     Specialist (grade GS11-13). They would inspect the entire agency to include
     DPS, and the AT/FP division to ensure compliance with a whole series of DoD
     antiterrorism regulations and standards, and to ensure that the AT/FP division has
     contingency plans for all the buildings under their responsibility. They would
     also have one person responsible for ensuring that management controls are in
     place.

Follow-on Recommendation E.4.
     We recommend that the Director, Pentagon Force Protection Agency,

            a. Follow through with the Acting Director’s stated intention to establish
     an oversight organization staffed by senior officers and a security specialist that
     are capable of inspecting the entire Pentagon Force Protection Agency.

             b. Identify key organizational components that require periodic staff
     inspection, and establish a realistic inspection schedule to enable inspection of
     those components once every 3 years.
             c. Tailor the goals of the inspection program to reflect those developed
     by the organization’s strategic goals and management control programs.

            d. Implement a self-inspection program as a way to supplement the
     capabilities of the inspection section and to enhance the organization’s
     responsiveness to the management control program.

Management Comments and Our Evaluation
     Director, Administration and Management Comments
     (Recommendations E.4.a – d). The Director concurred, advising that PFPA was
     in the process of establishing an Inspections Section to accomplish
     standardization within operational aspects of the PPD and PFPA. This section, in
     conjunction with other PFPA initiatives such as the IMC Program and an



                                          68
Administration and Logistics Assistance and Review Program, will give PFPA
ample self-inspection capability.

Evaluation Response. The management comments are responsive. In
commenting on the final report, PFPA should detail specific actions and include
estimated completion dates for each.




                                   69
Part III. Senator Grassley’s Concerns
    At the request of Senator Charles E. Grassley, Ranking Member, U.S. Senate
    Committee on Finance, we expanded this follow-on evaluation to include:

        A. National Crime Information Center (NCIC) checks for DPS officers hired
    since 1998, and private security guards employed at DoD sites under DPS
    cognizance;

         B. an examination of DPS background check procedures and policies; and,

       C. accountability of DPS weapons and, a determination as to whether any
    missing DPS weapon had been used in a crime.

A. National Crime Information Center Checks
    We performed NCIC checks on all DPS police officers and security guards (law
    enforcement personnel) as part of our previous evaluation of DPS. For the current
    follow-on review, 297 DPS personnel were hired between January 1, 1998, and
    May 14, 2002.61 No current or former DPS officer had a criminal record that
    would disqualify the individual from employment as a police officer.62 DPS is in
    compliance with Public Law 106-554, App C, Subchapter VII, Section 7371,
    entitled, “Mandatory removal from employment of law enforcement officers
    convicted of felonies” (5 U.S.C. 7371).

    In addition, 406 private security personnel were working at 10 contractor firms
    that support the DPS law enforcement and security mission. Complete review
    and verification of NCIC results disclosed that one individual had a felony
    conviction, and one individual had a domestic assault conviction. The DPS
    contract services representative advised that the employment of the individual
    with the domestic assault conviction was terminated in November 2002.
    Additionally, the security guard with the felony conviction had transferred to
    another contract at another Federal agency. We notified the other Federal agency
    as well as the Bureau of Alcohol, Tobacco and Firearms regarding the possible
    violation of law.

    On January 9, 2003, we contacted the GSA Office of Federal Protective Service,
    regarding GSA procedures for clearing contract guard personnel for permanent
    hire and arming. The GSA representative advised that when his office receives an
    application from the hiring contract company, the applicant is fingerprinted and
    an initial NCIC check is conducted. If the NCIC check contains no disqualifying
    information, the company is given a pre-employment favorable certificate for the
    applicant. The applicant’s fingerprints are then sent to the FBI for a criminal
    history check. When the FBI results are received, GSA determines the applicant’s

    61
         During the prior evaluation of DPS we conducted NCIC checks on all DPS officers hired
         before January 1, 1998.
    62
         This includes convictions for misdemeanor domestic assault, as defined in the domestic
         violence amendment to the Gun Control Act of 1968 (18 U.S.C. 922(d)(9) and (g)(9)),
         commonly known as the “Lautenberg Amendment.”


                                               70
     suitability for hire. If suitability is approved, a final suitability certificate for hire
     is forwarded to the hiring company.

     When queried about the arming of new hires, the GSA representative told us that
     the security companies were responsible for sending a letter to his office
     requesting that the security guards be given firearms qualification training. Upon
     completing the GSA training, GSA clears the individual for arming by the
     security company. The GSA representative further advised that records indicate
     that the security guard that we identified as a felon had completed the GSA
     firearms course and was qualified by GSA to carry a firearm. The GSA
     representative advised that GSA reviewed the file, was aware of the criminal
     record, and determined that the security guard could attend the firearms training
     course. The GSA representative further advised that the security guard with the
     domestic assault conviction had not received a final suitability certificate and had
     not received firearms training from GSA.

B. Compliance with Background Check Requirements
     We reviewed 48 randomly selected DPS law enforcement applicant personnel
     files for the period 1999 through 2002 (12 per year). The DPS background
     investigations and the DoD security clearance background investigations
     conducted on those applicants satisfied the elements in DPS policy. Several of
     the applicants in the files that we reviewed were denied employment because of
     adverse criminal histories, driving records, or previous employer comments when
     appropriate. We did not find noncompliance problems now or since our last
     evaluation.

     DPS policies63 require a background investigation as detailed in DoD Regulation
     5200.2-R, “Personnel Security Investigation,” February 23, 1996, of job
     applicants for law enforcement positions. Requirements include checks of
     criminal history (NCIC), military history (if applicable), driving record history,
     employment references, and suitability for a security clearance. Grounds for
     nonselection include a felony conviction, multiple misdemeanor convictions, a
     court-martial conviction, multiple nonjudicial punishments (Article 15) under the
     Uniform Code of Military Justice, unsatisfactory driving record, and employment
     references, or matters precluding a security clearance.

C. DPS Weapons Concerns

Accountability of DPS weapons
     We conducted a comprehensive review of DPS weapons management procedures
     and weapons accountability. There were significant problems regarding the DPS
     weapons management process as noted in our discussions and recommendations
     regarding Prior Recommendation D.2, on pages 28 through 35. Additionally,
     investigations related to the loss of several weapons were not conducted in
     accordance with the standards established in DoD Manual 5100.76-M and DoD

     63
          DPS General Order 1300.23, “Conditions of Employment and Selection Standards for Police
          Officer Applicants,” January 19, 1993, and Standard Operating Procedure 594-01, “Conditions
          for Employment,” July 1, 2001.


                                                71
     Regulation 7000.14-R, as well as the “Quality Standards for Investigations,”
     established by the President’s Council on Integrity and Efficiency (PCIE).

DPS Weapon Used in the Commission of a Crime
     One DPS weapon was used in the commission of a crime; however, the
     circumstances surrounding the recovery of one additional stolen DPS weapon is
     also noteworthy.

     A DPS 9mm Beretta handgun stolen from a DPS officer’s residence in Maryland
     on November 15, 2001, was recovered on March 5, 2002, by the Washington
     Metropolitan Police Department, Washington, D.C. The recovery of the weapon
     occurred during the arrest of a 23-year-old male who had this weapon loaded with
     16 rounds, concealed on his person, while selling drugs to an undercover police
     officer.64

     A DPS 9mm Beretta handgun that was stolen from the DPS operations arms room
     in March 1995 was recovered in October 1998, during a police drug raid at a
     residence in Martinsburg, West Virginia.




     64
          This incident brought to our attention that DPS personnel deviated from the DoD weapons
          storage policy.


                                                72
Part IV. Other Problem Areas
             There were other specific instances involving deviations from Federal law
             and DoD policy associated with the requirements for DoD law
             enforcement personnel. This included storing weapons in designated
             control points upon completing tours of duty, using only Government
             weapons during the performance of official duties, and obtaining Secretary
             of Defense approval to use Government vehicles for domicile-to-duty
             transportation.


   A. Take-Home Weapons Practice
   According to the Chief, DPS, soon after the terrorists attack on the Pentagon, the
   Director, WHS orally authorized all DPS law enforcement officers to transport
   their assigned Government-owned 9mm handguns to their residences for storage
   purposes, to ensure that DPS officers would be armed and ready for duty upon
   arrival at the Pentagon. Since that time, the Chief, DPS, has continued this
   practice, even though it exceeds the arming authority established in Section 2674,
   Title 10, United States Code, “Operation and control of Pentagon Reservation and
   defense facilities in National Capital Region,” and violates DoD
   Directive 5210.56, “Use of Deadly Force and the Carrying of Firearms by DoD
   Personnel Engaged in Law Enforcement and Security Duties,” November 1, 2001.

   This matter came to our attention while reviewing documentation that DPS
   provided in support of the follow-on evaluation. A Prince George’s County
   Police Department report documented the theft of a DPS officer’s assigned
   weapon from his residence in Maryland on November 21, 2001. The Chief, DPS,
   told us that in response to his request, the former Director, WHS (now deceased),
   allowed DPS officers to store their weapons at their residences, based on
   difficulties that some officers experienced trying to access the Pentagon’s DPS
   operations armory. These difficulties occurred immediately following the
   terrorists attack on the Pentagon, as well as some weeks earlier when a fire
   generated smoke in the Pentagon and reportedly blocked access to the armory.

   We also determined that no weapon safety lock65 had been issued to the officer
   whose weapon was stolen, although weapon safety locks had been issued to some
   DPS officers around October 15, 2001. In response to the theft of the weapon,
   during January 2002, the Chief, DPS, purchased and issued locking storage
   boxes66 and published General Order (Interim Guidance), "Carrying and Securing
   Government Weapons and Ammunition From Residence to Duty Station or
   Official Travel,” which, "…authorizes off-duty officers to carry their duty
   weapons to and from home during their commutes, rather than store their




   65
        Required by DoD Directive 5210.56, paragraphs 4.1. and E1.1.7.
   66
        DD Form 1262, Administrative Service Request, number RPO – 02 – 072, reflects the
        purchase of 350 gun lockboxes at a cost of $15,732.50 to support this unauthorized take-home
        weapons program.


                                               73
weapons at the DPS Armory," and requires DPS officers to proceed home by the
most direct route.67

The OIG DoD “Evaluation of the Policies and Practices of the Defense
Organizations Employing Criminal Investigators with Respect to Control Over
Firearms,” March 2003, documents that since November 1999, the Chief, DPS,
granted a written exception68 to the DoD weapon storage policy for DPS criminal
investigators, which became standard operating procedure.69 Similarly,
publication of this policy occurred within weeks following the theft of an on-call
duty investigator's weapon, which he stored improperly in his private vehicle
while he socialized in Washington, DC.

Under the governing statute (10 U.S.C. 2674), the Secretary of Defense has the
authority to appoint personnel to perform law enforcement and security functions
for “…property occupied by, or under the jurisdiction, custody, and control of the
Department of Defense, and located in the National Capital Region....” Those
personnel “may be armed with appropriate firearms required for personal safety
and for the proper execution of their duties, whether on DoD property or in travel
status.”70 DPS law enforcement powers, described as that of sheriffs and
constables, is limited to “…property occupied by, or under the jurisdiction,
custody, and control of the Department of Defense, and located in the National
Capital Region.” This statute also limits the authority to bear arms to the
geographic area specified in the statute. The governing statute grants no law
enforcement authority and/or authority to carry weapons to PFPA personnel in an
off-duty status.

In a separate and broader statute, Section 1585, Title 10 United States Code,
“Carrying of Firearms,” states:
              “Under regulations to be prescribed by the Secretary of Defense,
              civilian officers and employees of the Department of Defense may
              carry firearms or other appropriate weapons while assigned
              investigative duties or such other duties as the Secretary may prescribe”

The law serves as the basis for DoD Directive 5210.56, which establishes policy
for arming law enforcement and security personnel DoD-wide. The Directive
also controls DoD weapons storage policies, and precludes DoD law enforcement
and security personnel from storing Government-owned weapons at their
residences, with certain exceptions. Paragraph E1.1.6, states:
              “Firearms shall be returned to a designated control point on completion
              of the assignment for storage and accountability in accordance with

67
     The Chief, DPS, issued the interim guidance pending a legal review by WHS OGC attorneys
     of the draft policy guidance regarding the practice.
68
     RE&F-DP-OI memorandum, Subject: Designated Criminal Investigations Firearm’s
     Custodian, November 29, 1999.
69
     Standard Operating Procedure CI-900.03, “DPS Criminal Investigators Take Home Weapons
     Procedures,” November 22, 1999.
70
     Because 10 U.S.C. 2674, provides no law enforcement authority or authority to carry weapons
     when PFPA (DPS) personnel are off-duty or outside the National Capital Region, travel status
     is interpreted to mean travel between DoD property occupied by, or under the jurisdiction,
     custody, and control of the Department of Defense, and located in the National Capital Region.


                                            74
              Component procedures. The Secretaries of the Military Departments
              and the Inspector General, Department of Defense may authorize
              exceptions to this requirement for the DCIOs.”71

The position that WHS OGC articulated during the fieldwork interviews
associated with this follow-on evaluation, was that DoD Directive 5210.56 did not
apply, because DoD Directive 5110.4, “Washington Headquarters Services
(WHS),” October 19, 2001, delegates authorities that flow from 10 U.S.C. 2674,
to the Director, WHS, and those authorities are independent of DoD
Directive 5210.56. However, when we checked DoD Directive 5110.4, we noted
the Directive delegates the Secretary of Defense's responsibility “to prescribe
such rules and regulations as the Secretary considers appropriate to ensure the
safe, efficient, and secure operation of the Pentagon Reservation,” and requires
that actions taken by the Director, WHS, to align with existing DoD policies,
Directives, and Instructions.

In summary, 10 U.S.C. 2674 is the basis for arming PFPA law enforcement
personnel while on duty at DoD property in the National Capital Region or
traveling between such properties. However, once outside that very limited
jurisdiction, the authority to carry firearms is controlled by 10 U.S.C 1585 and the
implementing regulatory guidance in DoD Directive 5210.56. The Director,
Administration and Management, in responding to the related OIG DoD
“Evaluation of the Policies and Practices of the Defense Organizations Employing
Criminal Investigators with Respect to Control Over Firearms,” (draft version),
did not concur with the recommendation in that report to take immediate action to
ensure PFPA criminal investigators’ firearms were returned to a designated
control point at the end of their duty shifts in accordance with DoD
Directive 5210.56. The Director commented that our recommendation is not a
requirement of DoD Directive 5210.56, and that PFPA is currently in compliance
with the plain and reasonable interpretation of DoD Directive 5210.56.

Paragraph 4 of DoD Directive 5210.56 prescribes DoD policy to limit and control
the carrying of firearms by DoD military and civilian personnel. It establishes
that DoD personnel regularly engaged in law enforcement or security duties shall
be armed. In addition, safety lock devices and instructions for their proper use
shall be provided with all firearms issued to such personnel who have been
authorized to retain firearms at their residence or non-government locations.
Paragraph 4 does not establish who may grant such authorization; however, it
states that enclosure 1 of the Directive establishes procedures regarding
authorization to carry and the carrying of firearms. Importantly, paragraph
E1.1.2. states, “[a]n authorization to carry firearms may be granted to personnel
authorized to be engaged and in fact engaged in (emphasis added) the following
activities…” citing specific law enforcement and security actions common to
maintenance of law and order, national security, and guarding prisoners.

With regard to returning weapons to a “designated control point” for storage and
accountability upon completion of assignment, and what personnel constitute
those “DoD security and law enforcement personnel” who have been authorized

71
     The DCIOs (Defense Criminal Investigative Organizations) are defined in DoD
     Directive 5210.56 as the Air Force Office of Special Investigation, the Defense Criminal
     Investigative Service, the Naval Criminal Investigative Service, and the US Army Criminal
     Investigation Command.


                                            75
to retain such firearms at their residence or non-government locations, a
representative of the proponent for DoD Directive 5210.56 (Assistant Secretary of
Defense, Command, Control, Communications and Intelligence (C3I)), wrote on
May 21, 2002:
           “As regards paragraphs E1.1.6 and E1.1.7 (of DoD Directive 5210.56),
           DoD security and law enforcement personnel are interpreted to mean
           members (investigators) of the DCIOs. Installation security guards and
           police are not permitted to take their issued weapons home, and
           component heads (including the Director, Administration &
           Management (WHS) do not have authority to grant such practice. If an
           installation commander wants to allow his installation law enforcement
           and security personnel to take their government weapons home, he/she
           must submit a request up the chain of command for approval and
           forwarding to C3I for decision.”

Additionally, in a August 27, 2002 memorandum, Subject: “Defense Protective
Service (DPS) Weapons Storage and Accountability- Follow-on Evaluation of the
DPS (project No. 2002COO2),” the proponent stated:
           “The Director, WHS, and the Chief, DPS, are not permitted to
           permanently deviate from DoDD 5210.56 requirements. Nor is any
           other DoD Component. When relief is necessary from DoD policy
           requirements, the affected Component must formally request an
           exception to policy from the OSD office responsible for the policy in
           question. Such a request must, of course, state the rationale for the
           exception and the adverse effect on mission performance should the
           request be denied.”

Because the Director, Administration and Management, is sanctioning off duty
DPS officers to carry Government-owned handguns, loaded with Government-
issued ammunition, into the adjacent civilian communities where they carry no
police power or authority, we believe this practice raises significant liability
concerns and is tantamount to arming private citizens. As demonstrated by the
aforementioned November 2001 theft from the officer’s residence, things can and
do go wrong. In that particular instance, a drug dealer was carrying the stolen
DPS weapon, loaded with DPS ammunition, when he was arrested in
March 2002, after selling narcotics to a Washington Metropolitan Police
Department undercover officer.

Certain DPS officers carry Government weapons during official Government
travel outside the National Capital Region (NCR). Three DPS weapons were
stolen in February 2003, when DPS officers traveled to Fort Lewis, Washington,
where the DPS officers were recruiting DPS candidates. DPS Interim General
Order 0000, “Carrying and Securing Government Weapons and Ammunition
from Residence to Duty Station or Official Travel,” paragraph 3.a. makes
reference to official travel outside the NCR where authorization to carry duty
weapons has been granted and provides instructions regarding security of those
weapons. Interim General Order 0000 does not specify the conditions when such
authorizations may be granted or who may approve such authorizations. Again,
10 U.S.C. 2674 provides no authority for PFPA law enforcement and security
personnel to travel armed outside the National Capital Region. Accordingly, the
Director, PFPA, must rely on the guidance specified in DoD Directive 5210.56, to
allow PFPA personnel to travel armed outside the National Capital Region. As


                                        76
     previously stated, that Directive requires DoD law enforcement and security
     personnel to in fact be engaged in specified law enforcement and security duties
     in order to be armed. Therefore, it is incumbent on the Director PFPA to ensure
     specific law enforcement and security missions necessitate armed travel outside
     the National Capital Region.

Recommendation A.
     We recommend that the Director, Administration and Management, and the
     Director, Pentagon Force Protection Agency, take immediate action to abide by
     the provisions of:

        1. Section 2674, Title 10, United States Code, “Operation and control of
     Pentagon Reservation and defense facilities in National Capital Region,”
     regarding the arming of Pentagon Force Protection Agency personnel while off-
     duty, and during official travel outside the National Capital Region, and
         2. DoD Directive 5210.56, “Use of Deadly Force and the Carrying of
     Firearms by DoD Personnel Engaged in Law Enforcement and Security Duties,”
     November 1, 2001, regarding the storage of weapons at designated control points.

Management Comments and Our Evaluation
     Under Secretary of Defense for Intelligence Comments. On behalf of the
     Under Secretary, the Associate Director of Security concurred, advising that
     PFPA should take action to comply with DoD 5100.76-M regarding the security
     of DoD issued weapons, and DoDD 5210.56 regarding the storage of weapons at
     designated control points. The Associate Director also advised:
                “. . . this office is coordinating a change to DoDD 5210.56 that clearly
                prohibits DoD security and law enforcement personnel (excluding
                DCIO personnel) from taking government issued weapons home after
                their tours of duty.”

     Evaluation Response. The management comments are responsive. We
     encourage the Under Secretary’s office to proceed with the planned change to
     DoDD 5210.56 as quickly as possible to discontinue the substantial liability risks
     inherent in the current PFPA take-home weapon practice.

     General Counsel of the Department of Defense Comments. The General
     Counsel concurred, based on supporting the Deputy General Counsel (Inspector
     General) review of the draft report.

     Evaluation Response. The General Counsel comments are responsive.

     Director, Administration and Management Comments
     (Recommendation A.1 & 2). The Director nonconcurred. According to the
     Director, this finding is based on an improper and incomplete reading of DoD
     Directive (DoDD) 5210.56, as well as both 10 U.S.C §2674 and 10 U.S.C §1585,
     and is antithetical to the authorities and responsibilities of the Secretary of
     Defense to provide for the physical security, protection and readiness required for
     literally hundreds of DoD activities throughout the National Capital Region in full



                                              77
accord with these authorities. The draft report also, in part, mischaracterizes or
misunderstands the position of the Office of General Counsel, WHS.

Simply stated, this is a policy matter. It is the Deputy Secretary of Defense who
approved the policy contained in this Directive. In our view, the reasonable
interpretation of DoDD 5210.56, as it is currently written, is that Component
Heads, including the Director of PFPA, and ultimately the DA&M for both PFPA
and OSD elements, have been delegated the authorities contained in that
Directive. This includes authorization for transport and storage of duty weapons
and authorization to report armed to various assigned duty locations in accordance
with DoDD 5210.56, and with “component procedures” promulgated there under.
We see no authority reserved or implied in the Directive for OUSD (C3I) to
“grant a waiver” to the policies in the Directive. Therefore, should the provisions
of DoDD 5210.56 remain of concern to your office, or should the Department
wish to prospectively effect the policy purported by this finding in the Draft
Report, the proponent should seek a formal change to the subject Directive. The
proponent would be required to seek such formal change because only the
Secretary or Deputy Secretary of Defense may change the provisions of
DoDD 5210.56.

PFPA remains in compliance with the legal and policy requirements of
DoDD 5210.56. On its face, the authorities and responsibilities assigned under
the Directive with respect to “Carrying of Firearms” are broadly vested in
Component Heads as defined in the Directive. This clearly includes the Director,
PFPA and the Director, DA&M for OSD as well as PFPA. To parse out the
section on “returning firearms to a designated control point” while ignoring the
meaning of the remainder of that Directive (where authorization for residential
storage of duty firearms “by DoD security and law enforcement personnel” [and
not merely DCIOs] is contemplated in numerous places) is simply not a sound or
appropriate analysis.

Essentially, the Draft report erroneously relies on part of ¶E1.1.6 of Enclosure 1
of DoDD 5210.56 as conclusive of its position, while failing to address other parts
of the Directive (as well as sound rules of construction) that need to be reconciled
with that section. Both the sections preceding and following ¶ E1.1.6 are
especially necessary and instructive in understanding, in part, the PFPA
application of the Directive.

¶E1.1.6 states that, “Firearms shall be returned to a designated control point on
completion of the assignment for storage and accountability … in accordance
with component procedures.” It seems plain that “the assignment” referred to in
E1.1.6 is a direct reference to the previous section ¶E1.1.5. For instance, that
section in part refers to “the duration of specific assignments or threats” for
which personnel are given authorization to carry firearms for “personal
protection.” Thus, it is clear that in this circumstance, weapons must be turned in
when the limited specific assignment or threat is over. In this case there is no
continuing authorization beyond a limited “assignment.” This can be contrasted to
the first sentence of ¶E.1.1.5, which provides that “DoD military and civilian
personnel regularly assigned to law enforcement or security duties may be given
continuing authorization to carry firearms….”. Here, “assignment” is more open-
ended and contemplates a continuing authorization. Thus, the phrase “the
assignment” must be read in context when applied in ¶E.1.1.6. Another way to
view this is that ¶E.1.1.6 does not by its plain words require weapons to be
returned at the end of each “shift” or “duty” or “day” but instead uses the term


                                     78
“assignment” as used in the section immediately preceding. Thus, in accordance
with component procedures, once PFPA officers are properly authorized to carry
duty weapons and are authorized in writing to transport such weapons to and from
their duty stations, they are still on their “assignment” under the Directive until
they are no longer assigned security or law enforcement duties in accordance with
component procedures. (Emphasis added)

Furthermore, the section that follows is instructive. ¶E.1.1.7, specifically refers to
“DoD security or law enforcement personnel, who have been authorized to retain
such firearms at their residence…”. This plainly is not limited to DCIOs, who
surely are not the only “security or law enforcement personnel” in DoD.
Otherwise, if the policy was as purported in the Draft report, ¶E1.1.7 would say
“DCIOs” authorized to retain such firearms at home….”. Thus, the narrow
reading of DoDD 5210.56 in the Draft Report is not tenable and cannot obviate
the reasonable interpretation of this authority by the current D, A&M, the
previous D, A&M (D.O. Cooke), the current Director of PFPA, as well as the
Office of General Counsel, WHS.

Compliance with 10 U.S.C. § 2674

Finally, the draft report makes a curious argument limiting the Secretary in his
exercise of 10 USC §2674 responsibilities to provide for the security for DoD
facilities in the NCR, and concluding that he cannot authorize security and law
enforcement officers to carry arms such that officers can report to the various
NCR duty locations armed. We believe that the authorization in 10 USC §
2674 (b) to arm the law enforcement and security personnel necessary “for the
proper exercise of their duties” places such discretion in the hands of the
Department absent any law to the contrary. We see nothing in the statute that
would so limit the Department’s authority to achieve a central purpose of the
statute - to provide for the security for the Pentagon Reservation and for the
hundreds of DoD facilities in the NCR.

In addition, a legal opinion of the Office of General Counsel, WHS dated
January 28, 2003, provides further analysis and is attached for your information.
Should you have any further questions on these issues, please feel free to contact
the Office of General Counsel, WHS at (703) 693-7374.

PFPA actions subsequent to September 11, 2001.
As stated above, PFPA is currently in compliance with the plain and reasonable
interpretation of DoDD 5210.56. However, recognizing the seriousness of the
responsibilities and authorities with regard to the carrying of firearms under 10
USC § 2674 and 10 USC §1585, and DoDD 5105.68, the D, A&M and Acting
Director, PFPA, have been undertaking a comprehensive review of PFPA’s
firearms practices and policies (including whether or not, and under what
circumstances, to continue its current authorizations for transport and storage of
assigned duty weapons). PFPA is currently putting into place updated
comprehensive written policies and guidelines consistent with all legal and policy
requirements of these serious responsibilities.

We are pleased to report that PFPA has made substantial progress in
implementing new stringent and comprehensive written safeguards and
procedures, and in implementing a new training program, with respect to
authorization, transport and residential storage of PFPA-issued duty weapons.


                                      79
Such written policies and strict guidelines include a new PFPA General Order
(proposed General Order 1005.07 entitled “Carrying and Securing Government
Weapons and Ammunition between Duty Station and on Official Travel”)
covering duty weapon transport and storage practices and policies, and an
accompanying “Acknowledgement of Responsibilities” to be executed by all
officers and investigators authorized to transport and store duty weapons. This
new General Order with “Acknowledgement of Responsibilities” will go into
effect as soon as our bargaining obligations are complete in accordance with
DoDD 5210.56. In addition, PFPA is implementing a mandatory ongoing training
program on firearms duties and responsibilities with respect to home transport and
storage of duty weapons. PFPA conducted comprehensive new training of almost
all PFPA officers concerning the revised General Order on May 8 and 9, 2003,
and will complete training of the remaining officers by the end of May 2003.
This comprehensive program, with its significant accountability and procedural
safeguards, should serve as a model for any DoD component with authorized
transport and home storage of duty weapons.

In conclusion, I assure you that the Director, A&M and the Director, PFPA take
very seriously our responsibilities as set forth under DoDD 5210.56 and
DoDD 5105.68. We have determined that residence-to-duty transport of firearms
by selected PFPA personnel is essential to the effective accomplishment of
PFPA’s mission. In order to exercise the significant responsibilities of PFPA
under DoDD 5105.68 regarding the safety, security, law enforcement, anti-
terrorism and force protection of Defense Department facilities in the National
Capital Region (which includes the Pentagon Reservation as well as the numerous
DoD occupied facilities throughout the National Capital Region), the Director,
PFPA has determined that there is an operational requirement for most PFPA
officers to report to assigned duty locations armed and ready to react to any
situation that presents itself. This determination is supported by the Director,
A&M and updates and improves upon the prior emergency determination of the
former Director, WHS, authorizing DPS officers to report to duty armed after the
terrorist attacks of September 11, 2001.

Other matters in this finding.

The draft report indicates that PFPA had three firearms “reported stolen” during a
recruiting trip “for which the carrying of firearms was not authorized.” This
statement is inaccurate and misleading. Although three PFPA weapons were
stolen while being transported via commercial airline, the transport was in full
accord with DoDD 5210.56 section 4.3. The weapons were subsequently
recovered in the home of an airline employee, and federal criminal action is
underway. PFPA’s proposed General Order 1005.07 (currently awaiting review
by the union) entitled “Carrying and Securing Government Weapons and
Ammunition between Duty Station and on Official Travel,” also specifies the
conditions when such authorizations may be granted and who may approve such
authorizations, in compliance with DoDD 5210.56.

Finally, the Draft Report, at page 68 first full paragraph, also mistakenly
misinterpreted the position of the Office of General Counsel, WHS, when it stated
that the Office of the General Counsel “articulated” that DoDD 5210.56 did not
apply to PFPA officers. On the contrary, this has always been clear that from
OGC that the Directive does apply to PFPA officers as well do the authorities of
both 10 USC §§ 2674 and 1535. The Office of General Counsel’s position on this



                                    80
issue is clearly stated in the January 28, 2003 legal opinion. Indications to the
contrary should be removed from the final report.

Evaluation Response. We do not agree with the PFPA position. If
DoDD 5210.56 were open to the type of interpretation that PFPA is attempting to
apply, it would not have been necessary for the Directive to specifically identify
the four DoD components with take home weapons authority.72 Furthermore, the
PFPA position completely ignores the fact that the action it has taken under its
erroneous interpretation has resulted in improperly arming individual police
officers and investigators who have law enforcement authority only when on duty
at a DoD installation. As we pointed out in the draft report, allowing these
individuals to carry their duty weapons to and from work is tantamount to arming
civilians. This means that these individuals may be violating individual state law
while traveling armed through various jurisdictions to and from their residences.
The PFPA position also ignores the unnecessary risks to safety and security for
weapons, and the potential liability to both the individuals and the Government,
that its current practice poses. As for the PFPA disagreement with our view that
DPS officers were not authorized to transport firearms on a trip to recruit
perspective employees, the regulatory paragraph cited in the disagreement is
predicated on “when personnel must carry firearms aboard aircraft.” We do not
agree that recruiters must carry weapons to recruit perspective employees, and
recruiting perspective employees is not one of the reasons for carrying firearms
authorized by the directive. Overall, we do not believe there is any legitimate
basis for the PFPA position, and that the agency should take immediate action to
comply with current DoD policy. In commenting on this final report, the
Director, Administration and Management, should advise us as to the date on
which the Pentagon Force Protection Agency has or will begin complying with
the weapons storage requirements in DoD Directive 5210.56.

USDI Comments. The Office of the Under Secretary of Defense for Intelligence
(USDI), which is now proponent for DoDD 5210.56, concurred with our finding
and recommendation. In addition to concurring that PFPA should take action to
comply with the current policy, USDI advised it was coordinating a change to
DoDD 5120.56 to clearly prohibit DoD security and law enforcement personnel
(excluding DCIO personnel) from taking Government-issued weapons home after
their tours of duty.




72
     Unlike PFPA police officers and investigators, DCIO Special Agents are law enforcement
     officers 24 hours a day and either on duty or available for duty. PFPA officers are also unlike
     civilian police officers, whom are sworn law enforcement officers with authority to enforce
     law within their jurisdictions 24 hours a day. PFPA officers are police officers only while on
     duty at a DoD facility in the National Capital Region.


                                             81
     B. Carrying of a Private Weapon by a Service
        Member
               The Chief, DPS, without proper authority authorized an active duty
               Service member assigned to DPS to carry a personal firearm for personal
               protection while off-duty and traveling between the Service member’s
               domicile and duty location. In at least two instances, the Service member
               carried the private weapon while in a duty-status, in violation of DoD
               Directive 5210.56, paragraph E.1.1.9.73

     Following the terrorists’ attack on the Pentagon, and in response to a perceived
     threat, the Chief, DPS, authorized an active duty Service member assigned to DPS
     to carry a personal firearm for personal protection. For several months the
     Service member carried the weapon on his person in a concealed manner,
     between his residence in Herndon, Virginia, and his place of duty with DPS at the
     Navy Annex in Arlington, Virginia. The practice continued until May 31, 2002,
     when DPS made an on-the-spot correction by terminating the practice after we
     questioned its propriety in light of DoD policy. This practice is not consistent
     with DoD Directive 5210.56, paragraph E1.1.3.74 DoD Directive 5210.56 makes
     no provision for the carrying of firearms (Government issued or personal) by DoD
     military and civilian personnel for personal protection in the contiguous United
     States.

     The Chief, DPS, informed us that the Service member carried the weapon only in
     an off-duty capacity while in transit between home and work, and not while on
     duty. However, we noted in official DPS training records that the Service
     member had qualified with the weapon in April 2002, and he carried the weapon
     to the weapons inventory that we conducted at the Pentagon on May 31, 2002.
     During both of these instances the Service member was on duty.

     In addition, we reviewed DPS General Order 1000.8, “Use of Force,” July 30,
     1996, which states, “[w]hile on duty DPS police officers shall carry only DPS
     issued weapons and ammunition.” Officers are defined as GS-083 and GS-1811
     employees. The general order does not address the Service members assigned to
     PFPA.

Recommendation B.
     We recommend that the Director, Pentagon Force Protection Agency:

         1. comply with the provisions of DoD Directive 5210.56, “Use of Deadly
     Force and the Carrying of Firearms by DoD Personnel Engaged in Law
     Enforcement and Security Duties,” November 1, 2001, with regard to the carrying
     of firearms and ammunition by DoD personnel; and

     73
          “[o]nly Government-owned and issued weapons and ammunition are authorized to be carried
          by DoD personnel while performing official duties.”
     74
          “DoD military and civilian personnel may be authorized to carry firearms for personal
          protection in overseas areas when the DoD Component headquarters intelligence center
          identifies a credible and specific threat against DoD personnel in that regional area. Firearms
          shall not be issued indiscriminately for that purpose.”


                                                  82
       2. revise Defense Protective Service general orders to account for the Service
     members now assigned to the Pentagon Force Protection Agency.

Management Comments and Our Evaluation
     Director, Administration and Management Comments (Recommendation B.a
     & b). The Director concurred, advising that PFPA would revise its GOs to
     include Service members assigned to PFPA. The estimated completion for the
     revisions was September 30, 2003.

     Evaluation Response. The management comments are responsive.




                                        83
     C. Improper Domicile-to-Duty
        Transportation
            Between September 12, 2001, and August 27, 2002, numerous PFPA
            personnel used DPS Government vehicles to travel between home and
            their place of duty without Secretary of Defense approval as required by
            Federal law and DoD policy.

     The Acting Director, PFPA, advised that as a result of the circumstances created
     by the terrorists attack on the Pentagon, the former Director, WHS, verbally
     authorized him to allow DPS personnel to use DPS Government vehicles to travel
     between their homes and their places of duty. We estimated that the number of
     PFPA personnel using Government vehicles for domicile-to-duty transportation
     may have exceeded 20, including the chief and deputy chief, and there is some
     evidence that even the security services division may have used Government
     vehicles.

     Our evaluation developed substantive information that the Chief, DPS, probably
     knew as early as December 2001, that Secretary of Defense approval of the
     practice in question was doubtful; however, the practice continued until
     August 27, 2002. The Acting Director, PFPA said that as part of his August 2002
     review of programs implemented following the terrorists’ attack on the Pentagon,
     he stopped the domicile-to-duty transportation practice on August 27, 2002.
     Despite the Acting Director’s order, we observed a DPS officer’s assigned
     Government vehicle parked at the officer’s residence at 1:48 AM, September 6,
     2002.

     On November 26, 2002, we provided the Director, Administration and
     Management, with the information pertaining to PFPA domicile-to-duty
     transportation practices citing Section 1344, Title 31 United States Code,
     “Passenger Carrier Use,” and DoD Instruction 4515.7, “Use of Motor
     Transportation and Scheduled DoD Bus Service in the National Capital Region,
     July 31, 1985.” We requested that he initiate an inquiry into the circumstances
     surrounding the unauthorized domicile-to-duty transportation to determine
     whether the use of Government vehicles by PFPA personnel violated law or
     policy. We asked that he consider the manner in which the practice was initiated;
     the length of time it continued; the use of required documentation, including logs
     and records; the number of vehicles and personnel involved and the resulting
     costs; and efforts undertaken to formalize the practice within DPS. Finally, we
     asked that he provide us the results of the inquiry, including conclusions, and
     decisions and rationale concerning administrative or disciplinary actions.

Recommendation C.
     We recommend that the Director, Administration and Management, establish
     management control procedures to ensure that all Pentagon Force Protection
     Agency personnel comply with Federal law and DoD Regulation 4500.36-R,
     “Management, Acquisition and Use of Motor Vehicles,” March 1994, regarding
     the use of Government vehicles for domicile-to-duty transportation.




                                         84
Management Comments and Our Evaluation
     Director, Administration and Management Comments (Finding C). The
     Director nonconcurred. According to the Director, the Chief, DPS, did not know
     that Secretary of Defense approval was doubtful. The concern of further terrorist
     attacks and for the need to return to the Pentagon at all hours went well beyond
     December 1, 2001.

     Evaluation Response. As indicated above,
                On November 26, 2002, we provided the Director, Administration and
                Management, with the information pertaining to PFPA domicile-to-
                duty transportation practices citing Section 1344, Title 31 United States
                Code, “Passenger Carrier Use,” and DoD Instruction 4515.7, “Use of
                Motor Transportation and Scheduled DoD Bus Service in the National
                Capital Region, July 31, 1985.” We requested that he initiate an
                inquiry into the circumstances surrounding the unauthorized domicile-
                to-duty transportation to determine whether the use of Government
                vehicles by PFPA personnel violated law or policy. We asked that he
                consider the manner in which the practice was initiated; the length of
                time it continued; the use of required documentation, including logs
                and records; the number of vehicles and personnel involved and the
                resulting costs; and efforts undertaken to formalize the practice within
                DPS. Finally, we asked that he provide us the results of the inquiry,
                including conclusions, and decisions and rationale concerning
                administrative or disciplinary actions.

     As yet we have not received a response to our request for the results of the
     inquiry. In our correspondence we included a December 14, 2001 e-mail that
     included the Chief, DPS, as an addressee that contained the opinion of a
     representative of the WHS/GC stating,
                …you should be citing DoD publication 4500.36-R, Management,
                Acquisition, and Use of Motor Vehicles instead of the GSA regs. Also,
                this is definitely not a "pilot program," and if the number of vehicles
                changes, it's going to go down (not up). I get the impression from
                reading your draft memos that someone has misled you about how the
                Department (and Congress, for that matter) views take-home vehicle
                programs. It's probably enough for me to simply say that DPS will be
                lucky if the Secretary approves even the current request for twelve
                people.

     This was the basis for our statement that, “the Chief, DPS, probably knew as early
     as December 2001, that Secretary of Defense approval of the practice in question
     was doubtful.” We did not interview the Chief, DPS, regarding the e-mail but
     referred the matter to management for action. The Director, Administration and
     Management, should provide the results of the inquiry including conclusions, and
     decisions and rationale concerning administrative or disciplinary action, as
     requested.

     Director, Administration and Management Comments (Recommendation C).
     The Director concurred, advising that PFPA is developing the Agency Vehicle
     Program and the PFPA Regulation on the management, care, maintenance,
     allocation, assignments, and operation of assigned vehicles has been developed


                                              85
and is in coordination. The regulation clearly defines and identifies the policy,
procedures and responsibilities associated with the Vehicle Program. The
regulation is expected to be published not later than August 30, 2003 and will be
distributed throughout PFPA. All PFPA employees operating or managing
vehicles will be required to read, acknowledge, and comply with the regulation.
PFPA has established vehicle assessable units (AUs) with assigned AU managers
as part of its recently expanded and improved Management Control Program
(MCP). These AUs will be regularly reviewed as part of the PFPA MCP
processes.

Evaluation Response. The management comments are responsive.




                                    86
Appendix A. Scope and Methodology
     This evaluation focused on whether DPS implemented or adequately addressed
     the recommendations in evaluation report no. 9950006F, “Evaluation of the
     Defense Protective Service,” May 14, 1999. We also incorporated the items of
     concern to Senator Grassley as part of our evaluation process. We began by
     comparing our prior recommendations with the information in Audit Followup’s
     Audit Recommendation Tracking System to determine what information DPS
     provided to satisfy Audit Followup’s requirements. We then reviewed the
     information provided by DPS to determine the extent that it satisfied the intent of
     our recommendations. This provided a baseline to establish a comprehensive
     work plan when combined with Senator Grassley’s concerns. We reviewed DPS
     policies and practices regarding hiring and retaining police officers and security
     guards, as well as contracting private security guards, to determine whether the
     processes were adequate to identify individuals with felony records. We
     examined DPS practices in arming police officers and security guards to
     determine whether they comply with existing statutes and regulations. We
     completed an inventory of all DPS weapons to determine whether they have
     accounted for all missing and unaccounted weapons, and to determine whether
     they have full and effective controls over their weapons inventory. We completed
     NCIC checks on missing or unaccounted DPS weapons to determine whether they
     were used in the commission of a crime. We reviewed evidence management
     procedures to include collection, documentation, marking, temporary and long-
     term storage, physical security, temporary transfers, evidence custodian
     qualifications, inspection and inventory procedures, disposal and return; and we
     completed a 100 percent inventory of the DPS evidence repository.

Prior Coverage
     During the last 5 years, in addition to the “Evaluation of the Defense Protective
     Service,” May 14, 1999, the OIG DoD has issued one report discussing DPS.
     Unrestricted OIG DoD reports can be accessed at
     http://www.dodig.osd.mil/dcis/cipo/evals.htm. Additionally, in 1990 the OIG
     DoD issued an inspection report regarding the Washington Headquarters Services.

Inspector General of the Department of Defense
     IG DoD Report No. 2002C001, “Evaluation of the Policies and Practices of the
     Defense Organizations Employing Criminal Investigators with Respect to
     Controls Over Firearms,” March 28, 2003.

     IG DoD Inspection Report, “Washington Headquarters Services,” January 23,
     1990, described various operational and organizational problems that either
     resulted from or followed the GSA delegation of authority to DoD. The DPS
     operational problems that were identified included weakened building security,
     excessive overtime, discipline issues, and inadequate personnel management and
     training. Organizational problems included fragmentation, duplication of effort,
     and overlap in WHS directorates or operations, including security. These
     problems were generally attributed to inadequate planning and preparation for the
     approximately tenfold increase in size resulting from the assumption of
     responsibilities formerly administered by GSA. The 1990 inspection found
     specific problems with DPS overtime, which were described as follows:


                                         87
          “...[d]elays in hiring caused extensive vacancies in the DPS, which
          resulted in excessive overtime, improper use of personnel, and . . .
          [DPS not performing] the assigned mission. For example, the DPS was
          unable to perform some administrative functions such as writing . . .
          general orders and standard operating procedures...

          ...DPS was using over 5,000 hours of overtime in a pay-period, with
          some employees working over 80 hours of overtime per pay period.
          Because of the large overtime requirement, the DPS was not requesting
          overtime in the prescribed manner, i.e., personnel listed by name and
          position. Furthermore, employees were working overtime and taking
          annual leave in the same pay-period, a practice not normally allowed
          under OSD Administrative Instruction 28, Overtime, Administrative
          Workweek, and Prescribed Hours of Duty of Civilian Employees.
          However, with the severe personnel shortages and continuing mission
          requirements, managers could not exclude employees who took annual
          leave from working overtime for the entire pay period.”

The OIG DoD recommended that DPS improve its controls on overtime approval
and usage. WHS concurred and indicated that DPS had formulated new
procedures for projecting and controlling its overtime.




                                      88
Appendix B. Details Regarding Prior
            Recommendation C.1. to Reclassify
            Fixed-Post DPS Officers as Security
            Guards
   OIG DoD previously recommended that the Chief, DPS, with WHS support, take
   action to reclassify as GS-085 (security guard) those GS-083 (police officer)
   positions used to staff fixed posts on a nonrotating assignment basis; and
   determine whether all DPS fixed posts should be staffed with GS-085 security
   guards, rather than GS-083 police officers.

   The Director, Administration and Management, disagreed with our
   recommendation. According to the Director, nothing would be gained from
   reclassifying those officers who normally staff fixed posts and the action would
   have a severe impact on morale, which DPS management has worked long and
   hard to repair. The Director advised that if the officers were reclassified, they
   would retain their current pay levels and most likely would file grievances or
   other complaints against the reclassifications. The Director also advised that DPS
   had studied this issue many times and concluded that it was in the best interest of
   both DPS and Pentagon employees for all DPS officers to be classified as GS-083
   Police Officers. As further support for this position, the Director advised:

      • Personnel in the GS-085 (Security Guard) series cannot be graded any
   higher than pay grade GS-05, and it is difficult to recruit and motivate able
   employees for positions in this series. It is more desirable to have young, quality
   employees (like those who can be recruited for the GS-083 series) guarding the
   doors at the Pentagon.

       • Unlike the GS-083 series, there is no viable training for GS-085s.
   Employees in the GS-083 series receive extensive training and are ready and able
   to react to any eventuality that might present itself. A recent example was an
   incident at the Pentagon Mall Entrance where a properly trained police officer
   was able to thwart a possibly-disastrous circumstance, largely because of his
   training.
       • Having all officers working in the same series allows for greater flexibility
   in assignments. Rotating officers to different duties allows for training and
   keeping current in all aspects of the job.

       • The White House and Capital are both protected by forces made up
   entirely of GS-083s. Department of Defense employees in the National Capital
   Region certainly deserve no less protection.

   Our draft version of the “Evaluation of the Defense Protective Service”
   recognized some of these reasons for staffing DPS with GS-083 police officers
   and not hire GS-085 security guards, and we fully understood these reasons.
   However, these reasons do not justify misclassifying actual employee positions.
   As discussed in our draft report, at the time of our fieldwork, DPS had at least
   30 GS-083 police officers who were not routinely rotated to police officer duties,
   and instead, were used to staff fixed-post (security) positions. In addition,


                                        89
although contrary to its general policy, DPS had 10 GS-085 security guards who
had been reclassified into those positions after they were unable to successfully
complete basic police officer training at the Federal Law Enforcement Training
Center. This factor operated against the rationale for the DPS hiring policy at that
time. Furthermore, as discussed in our draft report, DPS police officers are
subject to general civil service retirement (30 years service and 55 years old), and
DPS needed to provide for its aging police officers. Finally, as pointed out in our
draft report, the employee survey that we conducted identified a morale problem
among older police officers assigned to fixed-post positions and younger, more
physically capable police officers. Accordingly, while we fully understood and
appreciated the reasons for the Director’s nonconcurrence with our
recommendation, we could not accept those reasons and asked the Director to
reconsider the position in responding to our final report.

The Director in responding to the final report stated that the assessment resulted
from their determination that trained police officers are required because the
Pentagon symbolizes the DoD and is an obvious focus for terrorist groups and
disgruntled persons. Further, policing a large reservation such as the Pentagon is
very similar to policing a small city. The Pentagon is also susceptible to other
threats, for example, hostage situations, bombings, and biological and chemical
threats. Only police officers, as opposed to security guards, receive the training
necessary to respond to bomb, biological, and chemical threats, and to deal with
psychologically dysfunctional persons and hostage situations.




                                     90
Appendix C. Details Regarding Weapons
            Accountability
     Because of its magnitude, we separated the task of assessing DPS weapons
     accountability into the following categories: conducting the inventory; verifying
     the inventory; examining the accountability process; and the status of lost, stolen,
     or recovered weapons.

1. Conducting the inventory.
     As requested by Senator Grassley, and to determine whether DPS could account
     for their assigned weapons, we conducted a 100 percent inventory of the 640
     weapons assigned to DPS. In doing so, we physically compared the serial
     numbers of all weapons on-hand (either issued to DPS employees, or stored in
     DPS arms storage facilities), against the master weapon inventory lists provided
     by DPS and WHS Property Management.75 We accounted for all 640 weapons.

     We spent considerable time around the arms rooms, and even though a systematic
     approach was not used to evaluate physical security and weapons safety, we did
     make the following observations:

          a. Physical Security. DPS arms storage facilities did not always meet the
              requirements of DoD Manual 5100.76-M, “Physical Security of Sensitive
              Conventional Arms, Ammunition, and Explosives,” August 12, 2000; and
              DoD Standard 6055.9-STD, “DoD Ammunition and Explosives Safety
              Standards,” July 1999, with regard to restricted areas, use of access
              rosters, and posting of firefighting symbols. For example, the DPS
              operations armory (Pentagon room 2E165B) was not marked as a
              restricted area in accordance with DoD Manual 5100.76-M, paragraph
              C2.4. There was no authorized unaccompanied personnel access roster,
              as required by DoD Manual 5100.76-M, paragraph C2.6.1. On June 6,
              we inquired about an access list, and a list dated June 6, 2002, signed by
              the Watch Commander-First Relief, who is not responsible for the
              weapons, was provided. This is contrary to paragraph C2.6.1, which
              states, “Persons authorized unaccompanied access will be authorized in
              writing by the head of the Arms, Ammunition, and Explosives (AA&E)
              activity.” Also, the rubber matting in the safe drawer that holds the MP5s
              was decomposing and getting in the barrels and the sights of the weapons.

          b. Safety. The protective services unit was lax regarding weapons safety
              requirements. Their clearing barrel was full of papers and rags and could
              not be properly used. These housekeeping methods suggest that proper
              weapons clearing practices may not be routinely followed. Additionally,
              on May 24, 2002, an officer left his loaded duty weapon in the Protective
              Services Unit safe while doing physical fitness training. Storing loaded


     75
          When the two lists were compared for discrepancies, only one was found. The WHS PM did
          not have the 37mm Gas Launcher, serial number DO1475, on their list because they failed to
          verify their list when they switched to the Defense Property Accountability System database.


                                                 91
               weapons violates established safety procedures and DPS General Order
               1500.7.

          c. Security of weapons. On May 30, 2002, we inventoried the remaining
              ceremonial rifles. There were a total of 11 weapons in the room, but 3
              (096927, 296958, and 3742247) were not stored in accordance with DoD
              Manual 5100.76-M, paragraph C.4.2.2. They were left lying against the
              wall and were not secured in a weapons rack or metal container. No
              unaccompanied access list was present. One ceremonial weapon had a
              partially obliterated serial number caused by pitting that has occurred
              over the years. On the weapon list provided by WHS PM, the serial
              number reflected is 512532; however, we could not distinguish the “3” in
              the number. WHS PM did not bring this to the attention of the DoD
              Registry as required by DoD Manual 4000.25-2-M, “Defense Logistics
              Management System,” September 19, 2001, paragraph C12.2.3.

          d. There were three unserviceable weapons (one was assigned to the firing
             range and the other two were unassigned). Two had inoperable slides.
             These weapons were not marked or recorded as unserviceable.
             Administrative Instruction (AI) 94, 6.4.1, requires that the custodian
             and/or subcustodian ensure that all property assigned to the custodial area
             is in serviceable condition and available for use.

2. Verifying the inventory.
     Because of the accountability problems identified in the “Evaluation of the
     Defense Protective Service,” May 14, 1999, we verified the accuracy of the
     master weapon inventory list. This entailed detailed coordination with the DoD
     Registry. We requested a listing of both active and inactive weapons that DPS
     had reported to the DoD Registry. Additionally, DoD Registry personnel
     attempted to ascertain whether DPS had reported lost, stolen, or recovered
     weapons, as required by DoD 4000.25-2-M, paragraph C12.2.8, and DoD
     Manual 5100.76-M, paragraph C7.6.1. During this process, we learned that Fort
     Belvoir reports the status of the DPS weapons to the DoD Registry. However,
     this reporting process was inaccurate because DPS had not provided weapon
     information to Fort Belvoir since 1999 and also because Fort Belvoir did not
     conduct annual reconciliation as required by DoD 4000.25-2-M, paragraph
     C12.5.2.10.

     Because of the aforementioned problems related to DoD Registry reporting, we
     acquired all shipping, transfer, and turn-in documents in order to recreate a master
     weapon inventory list. However, as stated in the 1999 report, acquiring GSA and
     the U.S. Park Service transfer documents was futile. As such, we chose to use the
     July 1996 DPS inventory for comparison against their November 1996
     inventory76 and our June 2002 inventory as a baseline. Additionally, because
     DPS did not have all the shipping documents, we contacted weapon
     manufacturers (Beretta-U.S.A., Sig Arms, and Heckler & Koch (H&K)), and the
     Bureau of Alcohol, Tobacco and Firearms to obtain a list of all weapons DPS has
     ever acquired. We compared this information with weapons that were turned in to
     the Anniston Depot and subsequently verified by the DoD Registry. As a result

     76
          In November 1996, WHS PM and DPS conducted their first-ever joint inventory.


                                               92
     of these actions, we are relatively certain that the Berettas, Sig Sauers, and H&Ks
     are accounted for. However, we cannot say the same for the Smith and Wessons.
     It appears that the Smith and Wesson revolvers that were present in 1996 are also
     accounted for. We accounted for all Smith and Wessons listed as being on-hand
     in the July and November 1996 inventories. However, because of problems that
     existed prior to 1996, to include flawed inventories, lack of transfer documents,
     and no joint inventory between DPS and WHS PM being conducted since the
     formation of DPS in 1987 until November 1996, we cannot say that Smith and
     Wessons were not lost prior to 1996.

3. Process for procuring weapons, turning in weapons, and
   conducting inventories
     DPS lacks a consistent procurement process. DPS does not have any specific
     guidance, such as a table of distribution and allowances, regarding the types and
     quantities of weapons they are authorized. The 280 unassigned handguns in its
     inventory suggest an inefficient process. DoD Manual 5100.76-M, paragraph
     C5.3.1, mandates that “the DoD Components shall establish procedures for item
     managers to ensure the adequacy of requisition verification of Category II-IV
     arms. Such procedures shall include positive steps for rejecting excess and
     unauthorized requisitions.” Not only does the number of weapons raise concerns
     but also the type of weapons being acquired. Although there is no DoD standard
     to guide procurement of specific models of weapons, the last requisition of
     Beretta 9mm handguns included both the 92D and 92FS models. These two
     models are similar; however, the safety mechanisms are different and could
     confuse an officer forced to use a different model in an emergency.

     The process used by DPS and WHS PM is different from that required by General
     Order 1500.7, “Weapons Accountability,” July 16, 1999. Despite some confusion
     as to the exact procedures, it appears that a joint DPS and WHS PM inventory of
     newly acquired weapons was the norm. General Order 1500.7, should be
     rewritten to delineate where the weapons should be shipped to, how the joint
     inventory is to be conducted, who is responsible for entering newly acquired
     weapons into DPAS, and who shall verify it. It should also specify that the
     primary and sub-weapon custodians must sign for weapons immediately after the
     serial numbers are verified. Currently, the primary custodian does not sign for the
     new weapons until the next scheduled quarterly inventory. Lastly, General Order
     1500.7 needs to address how inventories will be conducted. Specific wording
     should be included to ensure that the “serial number” is visually examined.

     The DoD Registry confirmed that numerous mistakes were made with respect to
     erroneous national stock numbers and military control numbers, as well as non-
     existent shipping documents during DPS weapon turn-ins. This resulted in the
     Fort Belvoir Serialization Officer (DPS weapons account) and the Anniston Depot
     reporting the same weapons as being on-hand, when they were actually at the
     Anniston depot.

     A lack of knowledge of applicable guidance and regulations also contributed to
     the PFPA weapon accountability problems. Notwithstanding the listing of the
     applicable reference material in the “Evaluation of the Defense Protective
     Service,” numerous weapon custodians claimed ignorance to basic procedures
     because they lacked training. DoD Manual 5100.76-M, paragraph C2.1.6,


                                          93
     requires training for all individuals responsible for the accountability of Arms,
     Ammunition & Explosives (AA&E) to ensure that they are aware of their
     responsibilities.

4. Status of lost, stolen, and recovered weapons.
                  DPS WEAPONS LISTED AS LOST OR STOLEN SINCE 1996

    MANUFACTURER             MAKE&           SERIAL            CURRENT              ENTERED IN
                             MODEL#          NUMBER77          STATUS               NCIC
    S&W                      Revolver/65     2D46532           Unknown              Yes, but cancelled
                                             (ALC2D46532)
    S&W                      Revolver/65     6K93569           Unknown              No
    S&W                      Revolver/65     D787912           Found Mar 2002       No
    S&W                      Revolver/10     ALC5571           Unknown              No
    S&W                      Revolver/10     BBD9167           Unknown              No
    Mossberg                 12 Gauge        USO8905           Anniston Depot       No
                             Shotgun         (USO9805)         has weapon.
    Springfield              1903            646790            Found. DPS has       Yes
                                                               weapon.
    Beretta                  92 D            BER175757Z        Found during         Yes
                                                               raid. DPS now
                                                               has weapon.
    Beretta                  92F             BER011918Z        Found. DPS has       N/A
                                                               weapon.
    Beretta*                 92D             BER000676         Found drug bust.     Yes
                                                               DC Metro police
                                                               has weapon
    Beretta*                 92F             BER011837Z        Unknown              Yes
    Beretta*                 92D             BER127159Z        Unknown              Yes
     (*Determined to be missing since publication of the 1999 report)

     Twelve weapons that have been listed as lost or stolen since 1996 are reflected in
     the Table above. We have accounted for 6 of the 12 listed weapons. Of the
     remaining six unaccounted weapons, four are the Smith and Wesson revolvers78
     that we previously recommended that DPS aggressively and thoroughly
     investigate to determine the total weapons for which DPS is accountable and to
     determine the circumstances surrounding each missing or otherwise unaccounted
     weapon. The management response to our prior report, states, “The Director,
     Administration and Management, agreed. The investigation that we


     77
          Some entries have two serial numbers because PFPA and WHS/PM were uncertain on some
          serial numbers.
     78
          There were actually five missing S&Ws that we recommended be investigated, but one .357
          caliber revolver, serial number D787912, was found in March 2002 in the Operations Arms
          Room in a drawer of a desk that was being moved to facilitate renovation. The investigation of
          this weapon was substandard. The weapon’s loss was discovered in October 1996, but the DD
          Form 200 was not initiated until December 1997 and says, “[i]tem does not exist due to
          transposition of ID numbers during inventory.” Additionally, according to a memorandum by
          the Support Services Branch Commander, the ATF reported this weapon as never being in the
          possession of the Federal government. Furthermore this weapon was never entered into NCIC.


                                                 94
recommended has been completed and there are no missing or unaccounted
weapons.”

To the contrary, the Chief, DPS has not accounted for all weapons. In fact, the
effort to locate these weapons did not comport with guidelines set forth in DoD
Manual 5100.76-M, paragraph C5.5, which states, “…no AA&E loss shall be
attributed to an accountability or inventory discrepancy unless determined
through investigation that the loss was not the result of theft.” Additionally, DoD
Regulation 7000.14-R, “Financial Management Regulation,” volume 12, chapter
7, calls for an inquiry that,
               [s]hall be initiated immediately after discovery of the loss, damage, or
               destruction. This inquiry shall be an informal proceeding designed to
               determine the facts and circumstances leading to the loss, damage, or
               destruction. At a minimum, this inquiry should identify: what
               happened, how it happened, where it happened, who was involved,
               when it happened, and any evidence of negligence, willful misconduct,
               or deliberate unauthorized use or disposition of property.

From examining the DPS Supervisory Criminal Investigator’s October 1999
weapon accountability report and the Support Services Branch Commander’s
December 1999 memorandum to the Chief, DPS (one contradicts the other), it
appears that based on conversations with the Supervisory Criminal Investigator,
they were only concerned with the lost Beretta (serial number BER175757Z) and
did not take steps to investigate the missing Smith and Wessons in spite of DoD
guidelines. For example, according to the Supervisory Criminal Investigator’s
memorandum, two Smith and Wesson revolvers were never sold to the Federal
Government. The memorandum did not reconcile that assertion with the fact that
both weapons were signed for in 1992 by the DPS primary weapon custodian, as
well as the sub-custodian. Eventually, in March 2002, one of the two weapons, a
Smith and Wesson .357 caliber revolver (serial number D787912), was found in
the operations arms room in a drawer of a desk. Furthermore, despite this weapon
being found, the DPS leadership did not re-examine the aforementioned weapon
issues.

The circumstances surrounding the recovery/accounting of the remaining
weapons are described below:

BER175757Z. This 9mm loss was discovered in March 1995 when a DPS officer
reported to work and discovered that his assigned weapon was missing from the
operations arms room. Although the loss was discovered in March 1995, the
criminal investigation was not initiated until July 1997, and the DD Form 200,
“Financial Liability Investigation of Property Loss,” was not initiated until
December 1997. The West Virginia State Police seized this weapon during a drug
related raid on a Martinsburg, West Virginia, residence on October 15, 1998.

BER000076. This 9mm was reported as stolen on November 15, 2001, when a
female acquaintance stole a DPS officer’s assigned weapon, with magazine and
ammunition, from his residence in Capital Heights, Maryland.79 The officer did
not have a gun safety lock as required by DoD Directive 5210.56. Maryland’s
79
     As detailed in Part IV of this report the Chief, DPS, citing verbal permission from the former
     Director, WHS allowed DPS officers to take their weapons home in response to the terrorist
     attack.


                                             95
Prince George’s County Police failed to enter the weapon into NCIC. This
mistake was eventually caught and corrected by a DPS criminal investigator on
April 24, 2002. The investigator then waited until May 22 to request an “off-line”
NCIC search. During June 2002, DPS received the results of this search and
learned that on March 6, 2002, the Washington D.C. Metropolitan Police
Department (MPD) made an NCIC inquiry about the weapon. This followed an
arrest by an MPD narcotics officer on March 5, 2002, of a 23-year-old male
selling drugs who had this weapon loaded with 16 rounds concealed on his
person.

USO9805. The shotgun was listed as missing on June 21, 1994, and the financial
liability investigation of property loss was initiated on December 9, 1997. The
financial liability investigation states, “[d]ue to an ineffective inventory process at
the time of the noted loss, possession or transfer to DPS could not be determined.”
Additionally, the Support Services Branch Commander’s memorandum states that
the manufacturer confirmed that this weapon never existed. As such, he assumed
that the serial number was transposed, but he never took steps to verify his
assumption. Our inquiry to the DoD Registry on June 5, 2002, disclosed that on
December 3, 1990, DPS submitted paperwork to the DoD Registry to change the
serial number of USO8905 to USO9805 because the numbers had been
transposed. This weapon (USO9805) was among 23 weapons turned-in to
Anniston Depot in March 2000. Lastly, the DoD Registry advised that USO8905
actually did exist and belonged to a Navy unit.

646790. This ceremonial weapon’s loss was discovered in February 1999, but the
DD Form 200, “Financial Liability Investigation of Property Loss,” was not
initiated until April 1999. On May 4, 1999, an ERT officer found the weapon in
the ERT equipment storage cabinet shortly after it became known that an
investigation was being conducted for the missing weapon.

BER011918Z. On August 24, 1996, a DPS officer discharged this weapon at the
clearing barrel. The officer stated that there was something wrong with the
weapon because he had not squeezed the trigger and the weapon fired anyway.
On the same date, a DPS investigator took charge of the weapon and sent it
Potomac Arms Company, Alexandria, Virginia, for testing. On June 12, 1997, a
DPS lieutenant while conducting a 100 percent inventory went to the investigator
to report that the weapon could not be found. The investigator then called the
company and found that the weapon was still there.

In our previous evaluation we recommended, “The Chief, DPS, in concert with
the WHS Property Management Branch, take action to standardize the
accountability process for DPS weapons to conform with DoD policy.” In spite
of our recommendation, three weapons have been stolen since publishing the
“Evaluation of the Defense Protective Service,” May 14, 1999. Of these three
weapons, two were stolen outside DPS jurisdiction (one of which is the
aforementioned BER000076, and another that was stolen from a DPS criminal
investigator in September 1999). We also determined that the Chief, DPS
permitted officers assigned to certain sections, such as criminal investigations, to
store their assigned weapons at home in violation of DoD Directive 5210.56. A
DPS employee may have stolen the third weapon because it had been stored in the
DPS logistics section (where numerous unassigned weapons were stored in a
manner that did not meet DoD physical security requirements for arms storage).




                                      96
Appendix D. Results of DPS Evidence Room
            Inventory
   Some of the discrepancies detected on SD Forms 558, “Defense Protective
   Service Evidence/Property Custody Document” include,

       • the majority are poorly and improperly completed (by the law enforcement
   personnel who seized the evidence);

        •    several required sections were incomplete; and,

       • several have improper quantities and inadequate descriptions of the
   evidence.

   Based on the number of poorly documented SD Forms 558, it appears that the
   evidence custodian did not review them thoroughly before accepting the evidence
   into the facility.

   Our review of SOP 516.01, “Evidence Management and Storage Procedures,”
   May 22, 2001, revealed that the evidence custodian was not required to review the
   SD Forms 558 against the evidence seized prior to accepting it. It appears that he
   received all new evidence from temporary storage lockers, and not from the
   officers actually documenting the seizure. We think that temporary storage
   should only occur during non-duty hours. If a seizure occurs during duty hours
   when the evidence room is open, there is no reason to place the evidence in
   temporary storage. If evidence is seized during swing or mid shifts, the officer or
   investigator should place the evidence in temporary storage and then turn it in to
   the evidence custodian either at the beginning of the officer’s shift (swing shift)
   the next day, or the end of the officer’s shift the next morning (midnight shift),
   unless it is a weekend. The evidence custodian should not accept evidence until
   he reviews the SD Form 558 and all items of evidence with the seizing official
   and can make corrections on the spot. The evidence custodian advised that he did
   not open bags sealed by the seizing officer to verify the contents prior to signing
   the SD Form 558 and accepting the evidence. Although there is no pertinent
   CALEA standard or DoD policy, the U.S. Army requires that evidence acquired
   during nonduty hours be secured in a temporary storage container that is
   controlled by the person securing it until the evidence is released to the
   custodian.80 This is a sound practice that would serve to correct many of the
   problems noted during our inventory. Another problem posed by the failure of
   the evidence custodian to open sealed bags, is the loss of accountability and break
   in the chain of custody. Unless the custodian verifies the contents of containers
   he cannot testify regarding evidence integrity and chain of custody maintenance,
   which could have a devastating impact on the Government’s ability to prosecute
   criminal cases. Furthermore, if at a later date the evidence custodian opens the
   container and the contents do not match the quantity listed on the SD Form 558,
   the evidence custodian cannot substantiate that evidence items are unaccounted.

   Additionally, communication between evidence section personnel and seizing
   officials appears to be inadequate. This is a major factor contributing to problems

   80
        Army Regulation 195-5, “Evidence Procedures” September 28, 1992, paragraph 2–4 a.


                                             97
associated with the evidence custodian identifying and properly disposing of
evidence that is no longer needed.

The evidence custodian admitted that the certifying witnesses on some SD Forms
558 did not actually observe the destruction. Further, the heating plant
representative who witnessed incineration of evidence saw only a bag containing
multiple items being destroyed. The evidence custodian advised that the heating
plant representative did not actually see the SD Form 558 or verify that the items
are those listed on a particular SD Form 558. Additionally, the evidence
custodian stated that some of the witnesses’ signatures on the SD Forms 558 came
from DPS personnel in other sections, who also did not personally observe the
destruction of the evidence on the SD Form 558, which they certified as being
destroyed.

The following discrepancies became evident during the inventory:

1. 01-4735 – One small bag containing one power cord, four small cables, and
one plastic accessory bag containing a plastic clip were not listed on the
SD Form 558.

2. 01-3760 - Two staplers, two DoD identification cards, and one small desk
calendar were not listed on the SD Form 558.

3. 02-2193 - Computer disk labeled CONFIDENTIAL was found in an unlocked
evidence container. The classification of the disk is listed on seizing officer’s
report; however, it was not listed on the SD Form 558. The evidence custodian
advised that they had no safe available to store classified evidence. Additionally,
the SD Form 558 disclosed that the disk was taken on June 8, 2002, and placed
into the temporary evidence locker. It was not removed from the temporary
locker and placed into the vault by the evidence custodian until June 18, 2002.
(We reported this to DPS senior management for a security investigation as
required by DoD Regulation 5200.1, R-1, “Information Security.”)

4. 01-0082 – The SD Form 558 reflects one VHS tape and 11 register tapes
seized. The review of items on-hand disclosed one VHS tape, 21 used cash
register rolls, and 9 unused cash register rolls. A total of 19 items were not listed
on the SD Form 558.

5. 01-3620 - SD Form 558 disclosed five items seized, but only three items could
be located. A radio and its case were unaccounted for. The evidence custodian
advised that these items were returned to the owners; however, the SD Form 558
did not reflect this nor was there documentation showing whom the owner was or
that the owner signed for the property. Additionally, the SD Form 558 reflected
that the items were taken by the seizing officer on September 18, 2001, and
placed into the temporary evidence locker. According to documentation, the
items were not removed from the temporary locker and placed into the vault by
the evidence custodian until September 23, 2002.

6. 02-0619 – One black case and seven compact disks (CDs) were not listed on
the SD Form 558.




                                      98
7. 01-4470 – The items were placed in temporary storage on October 11, 2001,
and not removed by the evidence custodian until October 14, 2001.

8. 00-0571- The evidence was placed in temporary storage on February 26,
2000, and signed into the vault by the evidence custodian on March 6, 2000.
Additionally, this evidence was forwarded to the Drug Enforcement
Administration laboratory for analysis. Review of the SD Form 558 disclosed the
item was not logged back in after its return from the Drug Enforcement
Administration.

9. 01-0795 – We counted a total of 111 evidence items associated with this case
that were taken into evidence. Our inventory revealed that 44 of the 111 items
were not listed on any of the 10 accompanying SD Forms 558. Items on six
SD Forms 558, were seized by the Investigator, and signed into the evidence vault
by the evidence custodian on March 4 and 6, 2002. Our review of the four
remaining SD Forms 558 revealed numerous discrepancies to include a missing
“bit fax modem.” This evidence was seized by the officer and allegedly signed
into the evidence vault by the evidence custodian on March 6, 2002. Because of
these problems, we interviewed the officer. He told us that all items seized were
placed into evidence; however, the four SD Forms 558 were not completed at the
time he provided the evidence to the evidence custodian. The officer completed
the four SD Forms 558 approximately one week prior to our June 2002 inventory;
therefore, the dates transcribed on the SD Forms 558 were the dates the activity
occurred, but they were not the dates he prepared the forms. Additionally, all four
of the officer’s SD Forms 558 reflect that the items were seized and placed into
temporary evidence storage on March 3, 2002 (Sunday); however, the evidence
custodian did not remove the evidence from temporary storage until March 6,
2002 (Wednesday).

10. 02-3042 – One suspected rolled marijuana cigarette in a sealed plastic bag was
not listed on the pertinent SD Form 558.

11. 01-4852 – The evidence custodian advised that the items were placed into
temporary storage; however, the seizing officer did not fill in the temporary
storage portion of the SD Form 558.

12. 01-4956 – The evidence was placed in temporary storage on February 14,
2001 (Wednesday). The evidence custodian did not remove them until
February 17, 2001 (Saturday).

13. 01-4862 – The item was seized on December 8, 2001, and placed into
temporary storage. The temporary storage portion of the SD Form 558 was not
filled in.

14. 01-3068 – The item was seized on August 4, 2001 (Saturday) and placed in
temporary storage. The evidence custodian removed it on August 9, 2001
(Thursday).

15. 01-0328 – One black case for a martial arts throwing star was not listed with
star on the SD Form 558.

16. 00-427 – The items were seized on February 14, 2000, and placed into
temporary storage. The evidence custodian did not sign the evidence items into
the vault until March 8, 2001.


                                    99
17. 00-4535 – The serial number on the radar detector is not the same as that
recorded on the SD Form 558. SD Form 558 listed serial number as 071591.
Number on detector is 001952.

18. 99-2303 – The item was seized on July 19, 1999. It was not officially signed
into the vault until September 12, 2001, when the evidence custodian created the
first SD Form 558 for the evidence.

19. 01-0576 - The item was seized on February 7, 2001. It was not officially
signed into the vault until September 12, 2001, when evidence custodian created
the first SD Form 558 for the evidence. The evidence custodian advised that this
particular SD Form 558 was probably lost and had to be re-done.

20. 01-3427 - The item was seized on August 29, 2001, and placed into temporary
storage on August 30, 2001. The evidence custodian never signed the
SD Form 558 when the items were placed into the vault.

21. 01-1771 - The item was seized on April 28, 2001 (Saturday). It was placed in
the vault on May 1, 2001 (Tuesday). There is no record as to where the item was
between April 28 and May 1.

22. 02-1253 - Ten deposit envelopes and one Pentagon Federal Credit Union
personal business card were not listed on the SD Form 558.

23. 02-0621 – One “Ms. Pacman” video game was not listed on SD Form 558.

24. 01-0061 - The item was seized on January 4, 2002 (Friday), and placed into
temporary storage the same date. It was placed into the vault on January 8, 2002
(Tuesday).

25. 01-4883 - The item was seized and placed into temporary storage on
December 10, 2001. The evidence custodian never signed the SD Form 558 when
the item was placed into the vault.

26. 02-1164 - The item was seized and placed into temporary storage on
March 26, 2002 (Tuesday). It was placed into the vault on March 28, 2002
(Thursday).

27. 02-1452 - The item was seized on April 18, 2002 (Thursday) and placed in the
vault on April 23, 2002 (Tuesday). SD Form 558 does not indicate where
evidence was stored between April 18 and 23, 2002.

28. 02-2068 – The SD Form 558 indicates that the items were taken as evidence
on May 28, 2002, signed out on May 27, 2002, by a military police officer, and
then placed back into the evidence vault on May 28, 2002. There is a conflict in
the chain of custody section of the SD Form 558.

29. 02-1443 - The item was seized and placed into temporary storage on June 2,
2002 (Sunday). It was placed into the vault on June 7, 2002 (Friday).

30. 01-3156 - The item was taken on August 22, 2001, by the CI/IAD. The
SD Form 558 indicates that it was placed into temporary storage on June 3, 2002.
It was not placed into the evidence vault until June 10, 2002. There is no



                                   100
indication where the evidence was stored between August 22, 2001 and June 3,
2002.

31. 02-0531 - The item was seized and placed into the temporary storage on
February 11, 2002 (Monday). It was placed into the vault on February 13, 2002
(Wednesday).




                                  101
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Personnel and Readiness)
Under Secretary of Defense for Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Director, Operational Test and Evaluation
Assistant Secretary of Defense (Public Affairs)
Assistant Secretary of Defense (Intelligence Oversight)
Director, Pentagon Force Protection Agency *
Chief, Defense Protective Service *
Director for Acquisition Initiatives

Department of the Army
Commander, U.S. Army Criminal Investigation Command
Auditor General, Department of the Army

Department of the Navy
Director, Naval Criminal Investigative Service
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Commander, Air Force Office of Special Investigations
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Criminal Investigative Service
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, National Security Agency
Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency

*Recipient of draft report.



Non-Defense Federal Organization
Office of Management and Budget


                                          102
Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform




                                          103
Appendix F. Management Comments




                   104
      General Counsel, Department of Defense




105
Director, Administration and Management




                                          106
      Director, Administration and Management




107
Director, Administration and Management




                                          108
      Director, Administration and Management




109
Director, Administration and Management




                                          110
      Director, Administration and Management




111
Director, Administration and Management




                                          112
      Director, Administration and Management




113
Director, Administration and Management




                                          114
      Director, Administration and Management




115
Director, Administration and Management




                                          116
      Director, Administration and Management




117
Director, Administration and Management




                                          118
      Director, Administration and Management




119
Director, Administration and Management




                                          120
      Director, Administration and Management




121
Director, Administration and Management




                                          122
      Director, Administration and Management




123
Director, Administration and Management




                                          124
      Director, Administration and Management




125
Director, Administration and Management




                                          126
      Director, Administration and Management




127
Director, Administration and Management




                                          128
      Director, Administration and Management




129
Director, Administration and Management




                                          130
      Director, Administration and Management




131
Director, Administration and Management




                                          132
      Director, Administration and Management




133
Director, Administration and Management




                                          134
Director, Administration and Management
Evaluation Team Members
The Evaluations Directorate, Office of the Assistant Inspector General for
Inspections and Policy of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Scott Russell
Charles Knight
Major Michael Florio
Major Jim Burack
Frank Kauffman
Sandra Canyon
Craig Rupert
